<html>
<title> - THE LEADING EDGE: INNOVATION IN U.S. AEROSPACE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      THE LEADING EDGE: INNOVATION IN U.S. 
                                    AEROSPACE

=======================================================================

                                (117-14)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-132 PDF                 WASHINGTON : 2020                     
          
-----------------------------------------------------------------------------------                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy


                        Subcommittee on Aviation

  RICK LARSEN, Washington, Chair
GARRET GRAVES, Louisiana             STEVE COHEN, Tennessee
DON YOUNG, Alaska                    ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              SHARICE DAVIDS, Kansas
SCOTT PERRY, Pennsylvania            KAIALI`I KAHELE, Hawaii
JOHN KATKO, New York                 NIKEMA WILLIAMS, Georgia
BRIAN J. MAST, Florida               HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE GALLAGHER, Wisconsin            Georgia
BRIAN K. FITZPATRICK, Pennsylvania   DINA TITUS, Nevada
TROY BALDERSON, Ohio                 SEAN PATRICK MALONEY, New York
PETE STAUBER, Minnesota              JULIA BROWNLEY, California
TIM BURCHETT, Tennessee              DONALD M. PAYNE, Jr., New Jersey
JEFFERSON VAN DREW, New Jersey       MARK DeSAULNIER, California
TROY E. NEHLS, Texas                 STEPHEN F. LYNCH, Massachusetts
NANCY MACE, South Carolina           ANTHONY G. BROWN, Maryland
BETH VAN DUYNE, Texas                GREG STANTON, Arizona
CARLOS A. GIMENEZ, Florida           COLIN Z. ALLRED, Texas
MICHELLE STEEL, California           CONOR LAMB, Pennsylvania, Vice 
SAM GRAVES, Missouri (Ex Officio)    Chair
                                     ELEANOR HOLMES NORTON,
                                       District of Columbia
                                     EDDIE BERNICE JOHNSON, Texas
                                     JOHN GARAMENDI, California
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chair, Subcommittee on Aviation, opening 
  statement......................................................     1
    Prepared statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation, 
  opening statement..............................................     5
    Prepared statement...........................................     6
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    87
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    93

                               WITNESSES

Hon. Eric Garcetti, Mayor, City of Los Angeles, California, 
  accompanied by Seleta Reynolds, General Manager, Department of 
  Transportation, City of Los Angeles, California, oral statement 
  of Mr. Garcetti................................................     9
    Prepared statement of Mr. Garcetti...........................    11
James L. Grimsley, Executive Director of Advanced Technology 
  Initiatives, Choctaw Nation of Oklahoma, oral statement........    18
    Prepared statement...........................................    20
Adam Bry, Chief Executive Officer, Skydio, Inc., oral statement..    31
    Prepared statement...........................................    32
Pierre F. Harter, Director of Research and Development, National 
  Institute for Aviation Research, and Associate Vice President 
  for Industry and Defense Programs, Research Operations, Wichita 
  State University, oral statement...............................    39
    Prepared statement...........................................    41
Roei Ganzarski, Chief Executive Officer, magniX, oral statement..    48
    Prepared statement...........................................    50
Blake Scholl, Founder and Chief Executive Officer, Boom 
  Supersonic, oral statement.....................................    57
    Prepared statement...........................................    58

                                APPENDIX

Questions from Hon. Rick Larsen to Hon. Eric Garcetti, Mayor, 
  City of Los Angeles, California................................    95
Questions from Hon. Rick Larsen to James L. Grimsley, Executive 
  Director of Advanced Technology Initiatives, Choctaw Nation of 
  Oklahoma.......................................................    96
Question from Hon. Steve Cohen to Adam Bry, Chief Executive 
  Officer, Skydio, Inc...........................................   100
Question from Hon. Rick Larsen to Pierre F. Harter, Director of 
  Research and Development, National Institute for Aviation 
  Research, and Associate Vice President for Industry and Defense 
  Programs, Research Operations, Wichita State University........   101
Questions to Blake Scholl, Founder and Chief Executive Officer, 
  Boom Supersonic, from:
    Hon. Rick Larsen.............................................   102
    Hon. Greg Stanton............................................   102

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             April 22, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Aviation
    FROM:  LStaff, Subcommittee on Aviation
    RE:      LSubcommittee Hearing on ``The Leading Edge: 
Innovation in U.S. Aerospace''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Aviation will meet on Tuesday, April 
27, 2021, at 11:00 a.m. (EDT) in 2167 Rayburn House Office 
Building and virtually via Zoom to hold a hearing titled, ``The 
Leading Edge: Innovation in U.S. Aerospace.'' The hearing will 
explore the recent advances in U.S. aerospace and the National 
Airspace System (NAS), including emerging airspace entrants 
(such as drones, advanced air mobility, electric aircraft, and 
supersonic planes). The hearing will examine how these new 
aerospace users and technologies will affect the economy, 
transportation system, local communities, environment, and 
public good; their visions for and possible barriers to 
deployment in the United States; and the federal government's 
role in ensuring the safe integration of these users and 
technologies into the NAS. The Subcommittee will receive 
testimony from the City of Los Angeles; the Choctaw Nation of 
Oklahoma; Skydio; the National Institute for Aviation Research 
at Wichita State University; magniX; and Boom Supersonic.

                        FUTURE OF U.S. AEROSPACE

    Civil aviation plays a central role in the United States, 
supporting more than $1.8 trillion of economic activity and 
nearly 11 million jobs, according to the Federal Aviation 
Administration (FAA).\1\ While the COVID-19 pandemic devastated 
the U.S. aerospace industry, with commercial air travel and 
aviation manufacturing plummeting in 2020 as coronavirus cases 
surged, the sector is projected to recover in the years 
ahead.\2\ In fact, civil aviation's economic role will only 
grow with the introduction of new airspace users (such as 
unmanned aircraft systems (UAS), advanced air mobility (AAM), 
electric aircraft, and supersonic planes) and the development 
of other new aerospace technologies that change the way we 
travel and transport goods and services. The FAA--the federal 
agency responsible for ensuring the safe and efficient 
operation of the NAS--along with the National Aeronautics and 
Space Administration (NASA), aerospace industry, and labor 
continue to explore ways to make current airspace operations 
safer and more efficient, and to prepare for the integration of 
new technology.
---------------------------------------------------------------------------
    \1\ FAA, The Economic Impact of Civil Aviation on the U.S. Economy: 
State Supplement, Nov. 3, 2020, available at https://www.faa.gov/about/
plans_reports/media/2020_nov_economic_impact_report.pdf.
    \2\ Leslie Josephs, New Planes, Training and Hiring: Airlines are 
Planning for a Rebound After Dismal Pandemic Year, CNBC, Mar. 2, 2021, 
https://www.cnbc.com/2021/03/02/how-airlines-are-preparing-for-a-
travel-rebound-covid-19.html.
---------------------------------------------------------------------------

                       UNMANNED AIRCRAFT SYSTEMS

    UAS--ranging in size from handheld to those weighing more 
than 50,000 pounds--are proliferating in the NAS.\3\ In fact, 
in its most recent aerospace forecast, the FAA estimates that 
the hobbyist (recreational) UAS fleet will grow to nearly 1.5 
million units by 2024 and the commercial UAS fleet will 
increase to more than 800,000 units by that same year.\4\ UAS 
are continuously maturing with advanced software, automation, 
and artificial intelligence skills, and can be equipped with 
various technologies, such as cameras and infrared or thermal 
sensors, offering a virtually unlimited number of potential 
applications.\5\ UAS can perform work that manned aircraft 
cannot, such as close inspections of bridges, pipelines, 
railroad tracks, airport runways, and other critical 
infrastructure, and can enhance the safety of conditions for 
those performing such work. UAS can also be used for disaster 
and emergency response, precision agriculture, and delivery of 
packages such as medicine, medical supplies, and other consumer 
goods, to name just a few of their possible uses.
---------------------------------------------------------------------------
    \3\ The Hill, The World's Biggest Drone Debuts, and It Weighs 
Nearly 28 Tons, Dec. 3, 2020, https://thehill.com/changing-america/
resilience/smart-cities/528691-the-worlds-biggest-drone-debuts-and-it-
weighs-nearly.
    \4\ FAA, FAA Aerospace Forecast Report Fiscal Years 2020 to 2040: 
Unmanned Aircraft Systems, available at https://www.faa.gov/
data_research/aviation/aerospace_forecasts/media/
Unmanned_Aircraft_Systems.pdf.
    \5\ See, e.g., Skydio, https://www.skydio.com/.
---------------------------------------------------------------------------

UAS INTEGRATION

    The FAA is conducting a phased approach to safely integrate 
UAS operations into the NAS. There are also ongoing efforts 
within the FAA and coordination between the agency and its 
federal partners to address the continuing safety and security 
risks posed by unsafe or unlawful UAS operations, including 
risk of collision with manned aircraft and unauthorized 
operations over national security facilities and assets. These 
are some of the challenges that must be addressed to allow full 
integration of these users into the NAS.
    In 2012, Congress directed the FAA to develop a 
comprehensive plan to accelerate the safe integration of civil 
UAS into the NAS \6\ and to issue regulations applicable to the 
operation of small commercial UAS.\7\ In June 2016, the FAA 
issued a final rule on commercial operations of small UAS (14 
C.F.R. part 107), which significantly expanded and standardized 
the ability for operators of small UAS to conduct commercial 
activities.\8\ For these commercial UAS operations, part 107 
imposes requirements on UAS pilots \9\ and aircraft,\10\ as 
well as operational limitations. Most notably, the UAS must 
remain within the visual line of sight (VLOS) of the remote 
pilot in command and must not fly over people not involved in 
the operation.\11\ Operations outside of the defined 
limitations may require an FAA--waiver or additional 
certification or approval signifying the FAA finds the proposed 
operation can be performed safely.\12\ In the FAA 
Reauthorization Act of 2018 (Pub. L. 115-254), Congress enacted 
provisions authorizing the FAA to fully regulate hobby and 
recreational UAS in order to ensure the safety and security of 
U.S. airspace; advancing the safe and efficient integration of 
UAS through the development and testing of new UAS 
technologies; and directing the FAA to move forward with 
authorization of certain advanced operations (e.g., package 
delivery).
---------------------------------------------------------------------------
    \6\ FAA Modernization and Reform Act of 2012, Pub. L. 112-95, Sec.  
332(a).
    \7\ Id. Sec.  332(b).
    \8\ FAA, Operation and Certification of Small Unmanned Aircraft 
Systems, 14 C.F.R. Sec.  107 (2016).
    \9\ A pilot must be at least 16 years old, obtain a remote pilot 
airman certificate (or be under the direct supervision of a certificate 
holder), demonstrate aeronautical knowledge in order to obtain such a 
certificate, and pass vetting by the Transportation Security 
Administration.
    \10\ An aircraft must weigh less than 55 pounds, and any aircraft 
that weighs more than 0.55 pounds must be registered with the FAA 
online. The aircraft must undergo a pre-flight check to ensure it is in 
a safe operating condition.
    \11\ FAA, Summary of Small Unmanned Aircraft Rule (Part 107), 
https://www.faa.gov/uas/media/Part_107_Summary.pdf. The UAS must also 
fly under 400 feet and at or below 100 miles per hour, during the day, 
yield right of way to manned aircraft, and not from a moving vehicle.
    \12\ See FAA, Advanced Operations, https://www.faa.gov/uas/
advanced_operations/.
---------------------------------------------------------------------------

RECENT FAA ACTIVITIES AND PROGRAMS

    In late 2020, the FAA finalized two rules to advance the 
integration of UAS into the NAS. The first rule requires the 
remote identification (remote ID) of UAS and the second rule 
allows more routine operations over people and at night under 
certain circumstances.\13\ The requirement that UAS operating 
in the NAS have remote ID capability--the ability of a UAS to 
provide certain identification and location information that 
can be received by other parties, such as the FAA and law 
enforcement--is described as a necessary foundational element 
for more complex and routine commercial UAS operations and the 
FAA's overall UAS integration efforts.\14\
---------------------------------------------------------------------------
    \13\ FAA, Remote Identification of Unmanned Aircraft, Final Rule, 
86 Fed. Reg. 4390 (Jan. 15, 2021), available at https://
www.govinfo.gov/content/pkg/FR-2021-01-15/pdf/2020-28948.pdf; FAA, 
Operation of Small Unmanned Aircraft Systems Over People, Final Rule, 
86 Fed. Reg. 4314 (Jan. 15, 2021), available at https://
www.govinfo.gov/content/pkg/FR-2021-01-15/pdf/2020-28947.pdf.
    \14\ FAA, UAS Remote Identification Overview, https://www.faa.gov/
uas/getting_started/remote_id/.
---------------------------------------------------------------------------
    In 2020, the FAA also issued various planning documents, 
including the third edition of its UAS integration roadmap, 
which sets forth a five-year strategy for integration.\15\ In 
its roadmap, the FAA provides an update on its activities and 
rulemakings, as well as a description of and a status update on 
complex challenges to UAS integration, including remote ID 
implementation, technological hurdles (e.g., maturity of UAS 
detect-and-avoid technology), airspace management, UAS noise 
levels, and societal acceptance.\16\
---------------------------------------------------------------------------
    \15\ FAA, Integration of Civil UAS in the NAS Roadmap, Third 
Edition (2020), available at https://www.faa.gov/uas/resources/
policy_library/media/2019_UAS_Civil_Integration_
Roadmap_third_edition.pdf.
    \16\ See id. at 15-16, 20-22.
---------------------------------------------------------------------------
    In 2020, the FAA completed its UAS Integration Pilot 
Program (IPP). The IPP is a program designed to accelerate the 
testing of UAS operations currently restricted (such as beyond-
VLOS operations and flights over people) and to provide a forum 
for meaningful dialogue with state, local, and tribal 
governments on the development of federal UAS guidelines and 
regulations.\17\ The FAA then transitioned the IPP to the 
BEYOND program, through which the FAA is ``tackling the 
remaining challenges of UAS integration,'' by studying beyond-
VLOS operations, leveraging industry operations to better 
analyze the benefits of UAS operations, and focusing on 
community engagement efforts to collect, analyze, and address 
community concerns.\18\
---------------------------------------------------------------------------
    \17\ FAA, Research and Development, https://www.faa.gov/uas/
research_development/; FAA, UAS Integration Pilot Program, https://
www.faa.gov/uas/programs_partnerships/uas_integration_pilot_program.
    \18\ FAA, BEYOND, https://www.faa.gov/uas/programs_partnerships/
beyond/. According to the FAA, BEYOND ``will focus on operating under 
established rules rather than waivers, collecting data to develop 
performance-based standards, collecting and addressing community 
feedback and understanding the societal and community benefits, and to 
streamline the approval processes for UAS integration.''
---------------------------------------------------------------------------
    The FAA, NASA, other federal agencies, and industry are 
also working closely on the development of UAS Traffic 
Management (UTM).\19\ Similar to how air traffic systems manage 
manned aircraft operations today, UTM is envisioned to include 
the systems necessary to manage UAS traffic in low-altitude 
airspace, allowing the FAA to communicate real-time airspace 
status and constraints to operators, and provide services to 
prohibit UAS from operating in certain airspace or colliding 
with other aircraft.\20\ Thus, UTM will enable complex UAS 
operations, such as beyond-VLOS operations, which will be 
critical to the full integration of UAS into the NAS.
---------------------------------------------------------------------------
    \19\ FAA, UAS Traffic Management, https://www.faa.gov/uas/
research_development/traffic_management/.
    \20\ Id.; See also NASA, UAS Traffic Management, https://
utm.arc.nasa.gov/index.shtml.
---------------------------------------------------------------------------

STATE AND LOCAL PARTICIPATION

    State and local governments may not enforce requirements 
regarding civil aviation, including safety regulations, the use 
of navigable airspace, and aircraft certification, because the 
federal government has pervasively occupied the field of civil 
aviation regulation through statutes and regulations.\21\ 
``While FAA states that it has authority to create a 
comprehensive regulatory system addressing UAS operations at 
ground level as part of ensuring aviation safety and the 
efficient use of airspace, some state and local governments and 
legal commentators, in addition to [a] . . . federal district 
court . . . have questioned FAA's authority to regulate UAS 
operations at low altitudes, at least those conducted purely 
intrastate and over private property.'' \22\ In the UAS 
context, states and cities have sought to enact laws and 
regulations that control or restrict UAS operations, 
potentially in contradiction to federal law.
---------------------------------------------------------------------------
    \21\ See, e.g., City of Burbank v. Lockheed Air Terminal, Inc., 411 
U.S. 624, 638-39 (1973) (recognizing the need for a ``uniform and 
exclusive system of federal regulation if the congressional objectives 
underlying the Federal Aviation Act are to be fulfilled'').
    \22\ Huerta v. Haughwout, 2016 WL 3919799 (D. Conn. 2016); GAO 
Report, Unmanned Aircraft Systems: Current Jurisdictional, Property, 
and Privacy Legal Issues Regarding the Commercial and Recreational Use 
of Drones, GAO-B-330570 (Sept. 16, 2020), https://www.gao.gov/assets/b-
330570.pdf.
---------------------------------------------------------------------------
    In recognition of the issues related to UAS regulation, 
Congress directed the Government Accountability Office (GAO) to 
study and report on key legal issues. Specifically, section 373 
of the FAA Reauthorization Act of 2018 directed a GAO study on 
the relative roles and authorities of the federal, state, 
local, and tribal governments in the regulation and oversight 
of low-altitude UAS operations. Section 358 of the FAA 
Reauthorization Act of 2018 called for a study of UAS-related 
personal privacy issues and the federal, state, and local laws 
that currently address them. The GAO issued its report in 
September 2020 and presented ``substantial information and 
analysis regarding these UAS legal jurisdiction and privacy 
issues.'' \23\ The GAO concluded that ``[t]he law regarding a 
number of UAS jurisdiction and privacy matters is in a state of 
flux, both because the federal government is still developing 
key aspects of its UAS safety and security requirements and 
because there have been relatively few court decisions to date 
addressing whether these requirements are consistent with 
statutory authorities. . . .'' \24\ Defining and delineating 
federal, state, and local responsibilities with respect to 
small UAS will continue to be topics of discussion and need to 
be addressed as these operators are safely integrated into the 
NAS.
---------------------------------------------------------------------------
    \23\ See GAO Report, supra note 22.
    \24\ See id.
---------------------------------------------------------------------------

              ADVANCED AIR MOBILITY AND ELECTRIC AIRCRAFT

    In 2019, Americans lost an average of 99 hours due to 
traffic congestion in the United States, costing them nearly 
$88 billion, according to a recent industry report.\25\ These 
gridlocks not only affect drivers, but also have harmful 
effects on local businesses and the environment.\26\ With 
recent advances in aerospace technology, new aircraft designs--
including flying cars, passenger air vehicles or taxis, and 
electric aircraft--have the potential to reduce traffic 
congestion on U.S. roads, improve mobility options for 
commuters and cargo (in urban and rural environments), and 
lessen the current burden on surface infrastructure.\27\
---------------------------------------------------------------------------
    \25\ INRIX, Congestion Costs Each American 100 Hours, $1,400 A Year 
(Mar. 9, 2020), https://inrix.com/press-releases/2019-traffic-
scorecard-us.
    \26\ See id.
    \27\ See FAA, UAM Concept of Operations (Volume 1.0), at 2-4, 
https://nari.arc.nasa.gov/sites/default/files/attachments/
UAM_ConOps_v1.0.pdf.
---------------------------------------------------------------------------
    Vertical Takeoff and Landing. AAM aircraft will be small 
and lightweight when compared to conventional aircraft, so many 
concepts rely on batteries and electric propulsion systems. 
While some concepts are designed to drive short distances 
before transitioning to flight mode with airplane-like wings, 
others are designed to operate as electric vertical takeoff and 
landing (eVTOL) aircraft, with multiple small helicopter-like 
rotors.\28\ As such, eVTOL aircraft will be able to lift off 
from existing physical infrastructure (e.g., modified parking 
garage rooftops or retrofitted heliports) instead of airports 
or long runways.\29\ To support this effort, several AAM 
operators have released various vertiport designs and are 
partnering with federal agencies and local governments to 
develop and deploy these concepts.\30\
---------------------------------------------------------------------------
    \28\ See, e.g., Terrafugia, The Transition, https://terrafugia.com/
transition/; see also Joby Aviation, Joby Aviation Generates First 
Revenue, Takes Key Step Towards Certifying Aircraft (Feb. 9, 2021), 
https://www.jobyaviation.com/news/joby-aviation-generates-first-
revenue-takes-key-step-towards-certifying-aircraft.
    \29\ See Gideon Lichfield, When Will We Have Flying Cars? Maybe 
Sooner Than You Think, MIT Tech. Rev. (Feb. 13, 2019), https://
www.technologyreview.com/s/612891/when-will-we-have-flying-cars-maybe-
sooner-than-you-think/.
    \30\ See e.g., Lilium, Designing a Scalable Vertiport, https://
lilium.com/newsroom-detail/designing-a-scalable-vertiport; see also, 
Urban Movement Labs, The Urban Air Mobility Partnership, https://
www.urbanmovementlabs.com/programs-projects.
---------------------------------------------------------------------------
    Anticipated Operations. Unlike conventional aircraft, AAM 
aircraft are intended to fly at low altitudes and across short 
to medium distances, often in heavily congested areas. A recent 
industry report projects AAM growth of up to hundreds or even 
thousands of simultaneous operations within a region at 
altitudes reaching nearly 5,000 feet.\31\ Some eVTOL concepts 
include plans to fly more than 150 miles per hour and cover 
nearly 150 miles on a single battery charge.\32\ Currently, 
proposed aircraft can seat anywhere from one to seven 
passengers.\33\ Additionally, some companies are retrofitting 
small commuter aircraft with electric propulsion technology to 
carry passengers up to 1,000 miles.\34\
---------------------------------------------------------------------------
    \31\ Brock Lascara, Urban Air Mobility Airspace Integration 
Concepts, The MITRE Corp. (June 2019), https://www.mitre.org/sites/
default/files/publications/pr-19-00667-9-urban-air-mobility-airspace-
integration.pdf.
    \32\ See Joby Aviation, supra note 28.
    \33\ See Andrew J. Hawkins, Flying Taxi Startup Lilium Goes Public 
via SPAC, Unveils its New Electric Aircraft, The Verge (Mar. 30, 2021), 
https://www.theverge.com/2021/3/30/22358027/lilium-flying-taxi-evtol-
spac-electric-aviation-gm-engle.
    \34\ See Dominic Gates, Electric Aviation Startup MagniX Opens New 
Headquarters and Production Facility in Everett, The Seattle Times 
(Jan. 19, 2021), https://www.seattletimes.com/business/boeing-
aerospace/electric-aviation-startup-magnix-opens-new-headquarters-and-
production-facility-in-everett.
---------------------------------------------------------------------------
    Ownership and Access. While some of these concepts 
contemplate personal ownership and use, other companies' models 
rely on ridesharing (i.e., air taxis) to reduce operational 
costs and improve accessibility. Although these companies 
anticipate that their AAM concepts will be an affordable option 
for the traveling public, especially in urban areas, questions 
have been raised about how to ensure equitable access to these 
technologies for low-income and underserved communities.\35\
---------------------------------------------------------------------------
    \35\ See MIT, supra note 29; see also Adam Cohen, Advanced Air 
Mobility: Community Integration and Public Acceptance, UC Berkley (Mar. 
4, 2021), https://aam-cms.marqui.tech/uploads/aam-portal-cms/originals/
542db455-f781-4109-8d43-94521d2e6553.pdf.
---------------------------------------------------------------------------

AAM INTEGRATION

    Safety and Security. Unlike small UAS, which generally 
weigh less than 55 pounds, AAM concepts are heavier and 
typically have a pilot and one or more passengers on board. Not 
unlike other small manned aircraft, a mid-flight event, such as 
a failed battery or structural failure, could pose significant 
safety risks to the vehicle's occupants and to people and 
property on the ground, particularly in congested urban areas. 
AAM concepts, like small UAS, will fly in low-altitude 
airspace, and will need to be safely integrated with 
conventional airspace users, especially around airports.
    Air Traffic Management. Like small UAS, AAM aircraft would 
access and generally operate in low-altitude airspace; however, 
some may fly as high as 5,000 feet above ground level. 
Technologies currently in development such as UTM--a system 
that can provide airspace design, dynamic geofencing, conflict 
avoidance, and separation and sequencing for small UAS--may 
assist the FAA in safely separating AAM aircraft from other 
aircraft.\36\
---------------------------------------------------------------------------
    \36\ See Lillian Gipson, UTM 101, NASA (June 26, 2020), https://
www.nasa.gov/aeroresearch/utm-101.
---------------------------------------------------------------------------
    Pilot Training and Certification. The FAA is charged with 
ensuring aviation safety, which includes establishing the 
requirements for a pilot's license and the standards for the 
design, production, and maintenance of aircraft. In many cases, 
the FAA's current regulatory framework does not contemplate AAM 
concepts and their anticipated business models.\37\ The FAA 
must provide the framework necessary to allow the safe 
integration of these new technologies and operations. In 
partnership with the U.S. Air Force, the FAA and other agencies 
launched the Agility Prime program to support the certification 
of commercial and defense AAM concepts.\38\ Recently, the FAA 
reached a ``G-1'' certification agreement for an AAM concept, 
detailing the specific requirements for commercial operation 
under the FAA's Part 23 certification framework.\39\
---------------------------------------------------------------------------
    \37\ See MIT, supra note 29.
    \38\ U.S. Air Force, AFWERX Agility Prime Announces, ``Flying Car'' 
Military Airworthiness, Infrastructure Milestones (Dec. 20, 2020), 
https://www.af.mil/News/Article-Display/Article/2452683/afwerx-agility-
prime-announces-flying-car-military-airworthiness-infrastructure.
    \39\ See Joby Aviation, supra note 28.
---------------------------------------------------------------------------
    Noise and Emissions. Many AAM concepts rely on electric 
propulsion technology to operate and as a result, these 
aircraft contribute no direct pollutant emissions and produce 
little noise relative to conventional airplanes and large 
trucks. Developments in onboard energy storage, full and 
hybrid-electric engines, and resilient charging infrastructure 
will be critical to AAM deployment.\40\ Low noise and pollutant 
emissions will also be necessary for community acceptance and 
utility of these aircraft across the nation, especially in 
residential areas.\41\
---------------------------------------------------------------------------
    \40\ See Robin Lineberger et al., Advanced Air Mobility: Can the 
United States Afford to Lose the Race?. Deloitte Insights (Jan. 26, 
2021), https://www2.deloitte.com/us/en/insights/industry/aerospace-
defense/advanced-air-mobility.html.
    \41\ See Mark Huber, Noise Critical Issue for eVTOL Acceptance, 
Aviation Int'l News (Jan. 29, 2020), https://www.ainonline.com/
aviation-news/general-aviation/2020-01-29/noise-critical-issue-evtol-
acceptance.
---------------------------------------------------------------------------
    State and Local Participation. As stated previously, state 
and local governments may not enforce requirements regarding 
civil aviation, including safety regulations, the use of 
navigable airspace, and aircraft certification, because the 
federal government has pervasively occupied the field of civil 
aviation regulation through statutes and regulations.\42\ The 
supremacy of federal authority has led to a consistent 
regulatory structure for all airspace users, ensuring safety 
and efficiency across the NAS.\43\ However, as noted earlier, 
in the UAS context, states and cities have sought to enact laws 
and regulations that control or restrict UAS operations.\44\ 
Additionally, according to GAO, the law in this area is in a 
state of flux.\45\ Therefore, defining and delineating federal, 
state, and local responsibilities with respect to both small 
UAS and AAM will continue to be topics of discussion and need 
to be addressed as these operators are safely integrated into 
the NAS.
---------------------------------------------------------------------------
    \42\ See, e.g., City of Burbank, supra note 21.
    \43\ See GAO Report, supra note 22.
    \44\ See id.
    \45\ See id.
---------------------------------------------------------------------------

                          SUPERSONIC AIRCRAFT

    Supersonic flight is any flight faster than the speed of 
sound, which, depending on altitude and ambient conditions, 
exceeds 750 miles per hour.\46\ The Concorde aircraft, the 
product of a state-subsidized joint venture between 
Aerospatiale of France and the British Aircraft Corporation, 
performed the first commercial trans-oceanic supersonic 
passenger flight in 1976, flying at twice the speed of sound 
and at a cruising altitude of 65,000 feet. Concorde flights 
could cut the duration of a subsonic trans-Atlantic flight in 
half. During its lifetime, more than 2.5 million passengers 
flew at supersonic speeds between New York and London and 
Paris, as well as some other routes from time to time, until 
fuel prices and a fatal accident resulted in the Concorde's 
retirement from passenger service in 2003. No supersonic 
passenger aircraft have flown since that time.\47\
---------------------------------------------------------------------------
    \46\ CRS, Supersonic Passenger Flights, 1 (Nov. 14, 2018), 
available at https://fas.org/sgp/crs/misc/R45404.pdf.
    \47\ Id. at 1-3.
---------------------------------------------------------------------------
    According to the FAA, several factors contributed to the 
Concorde's retirement, including high operating costs, such as 
high fuel consumption and the high cost of meeting 
environmental restrictions on sonic booms.\48\ Unlike 
traditional subsonic flight, the Concorde created a shock wave 
when traveling at supersonic speeds, experienced by people on 
the ground as a ``sonic boom'' as it passed overhead. This 
aircraft noise led to many countries banning supersonic flights 
from their airspace, limiting the ability for the Concorde to 
travel at supersonic speeds and thus the number of practical 
Concorde routes.\49\
---------------------------------------------------------------------------
    \48\ See id. See also FAA, Fact Sheet--Supersonic Flight (Nov. 25, 
2020), https://www.faa.gov/news/fact_sheets/
news_story.cfm?newsId=22754.
    \49\ See CRS, supra note 46 at 1-3.
---------------------------------------------------------------------------
    There has been a revival of interest in supersonic flight 
since the end of the Concorde. In addition to the time that can 
be saved traveling at supersonic speeds, the advancement of 
technology, materials and composites, aircraft design, and 
manufacturing can make the aircraft lighter, improve fuel 
efficiency, and reduce noise impacts. Several domestic and 
foreign airlines have already purchased options for supersonic 
aircraft in design and testing, and there is interest at state 
and local levels to establish designated airspace corridors for 
the testing of civilian supersonic aircraft over land in the 
United States.\50\
---------------------------------------------------------------------------
    \50\ See, e.g., Thomas Black, Buffet's NetJets to Buy 20 Supersonic 
Luxury Planes from Aerion, Bloomberg, Mar. 3, 2021, https://
www.bloomberg.com/news/articles/2021-03-03/buffett-s-netjets-to-buy-20-
supersonic-luxury-planes-from-aerion and Ankit Ajmera, Japan Airlines 
Invests $10 Million in Supersonic Jet Company Boom, Reuters, Dec. 5, 
2017, https://www.reuters.com/article/us-boom-japan-airlines/japan-
airlines-invests-10-million-in-supersonic-jet-company-boom-
idUSKBN1DZ1N2; see also Office of the Governor of Kansas, Governor 
Laura Kelly Announces Kansas, FAA Sign Deal for Supersonic Flight 
Corridor (Dec. 17, 2020), https://governor.kansas.gov/governor-laura-
kelly-announces-kansas-faa-sign-deal-for-supersonic-flight-corridor/ 
and Supersonic Flight Alliance, https://ssfa.aero/ (declaring its 
mission to ``[c]reate a 800-mile civilian supersonic and hypersonic 
corridor over Eastern Washington in partnership with the FAA, State 
government and the aerospace industry'').
---------------------------------------------------------------------------

SUPERSONIC AIRCRAFT INTEGRATION

    There are several challenges to the integration of 
supersonic aircraft into U.S. airspace, beyond aircraft design 
and public acceptance. Today, there are no internationally 
agreed upon certification, noise, or emission standards for 
supersonic aircraft under development.\51\ As such, there is 
concern that varying operational standards from country-to-
country will prohibit many routes at the start. For instance, 
FAA regulations currently prohibit supersonic flight in the 
continental United States that cause a sonic boom.\52\
---------------------------------------------------------------------------
    \51\ CRS, supra note 46 at 7.
    \52\ 14 C.F.R. Sec.  91.817.
---------------------------------------------------------------------------
    Congress sought to address some of these issues in the FAA 
Reauthorization Act of 2018. The law requires the FAA to 
exercise international leadership in the creation of federal 
and international policies and standards regarding the 
certification and operation of supersonic aircraft. The law 
also requires that the FAA issue notices of proposed rulemaking 
to update noise standards for supersonic aircraft and to 
modernize the application process to operate supersonic 
aircraft.\53\
---------------------------------------------------------------------------
    \53\ See Pub. L. 115-294, Sec.  181.
---------------------------------------------------------------------------
    Responding to the 2018 law, the FAA issued a proposed 
rulemaking in March 2020 to set takeoff and landing noise 
certification standards for new supersonic aircraft, and in 
January 2021, to facilitate supersonic flight testing and safe 
development of such aircraft, the FAA issued a final rule 
``modernizing the procedure for requesting a special flight 
authorization to operate in excess of Mach 1 over land.'' \54\ 
However, ``[o]utside the context of special flight 
authorizations under this final rule, the FAA continues 
generally to prohibit civil supersonic flight over land in the 
United States.'' \55\
---------------------------------------------------------------------------
    \54\ FAA, Noise Certification of Supersonic Airplanes, Proposed 
Rule, 85 Fed. Reg. 20431 (Apr. 13, 2020), available at https://
www.govinfo.gov/content/pkg/FR-2020-04-13/pdf/2020-07039.pdf; FAA, 
Special Flight Authorizations for Supersonic Aircraft, Final Rule, 86 
Fed. Reg. 3782 (Jan. 15, 2021), available at https://www.govinfo.gov/
content/pkg/FR-2021-01-15/pdf/2021-00113.pdf. See also FAA, Press 
Release--FAA Announces Final Rule to Facilitate the Reintroduction of 
Civil Supersonic Flight (Jan. 6, 2021), https://www.faa.gov/news/
press_releases/news_story.cfm?newsId=25581.
    \55\ Id.
---------------------------------------------------------------------------

                  OTHER FUTURE AEROSPACE TECHNOLOGIES

    As the aerospace sector continues to innovate, there are 
several promising technologies, designs, and operational 
concepts with the potential to transform U.S. transportation. 
Advances in fully automated aircraft, commercial space 
transportation launch vehicles, engine designs, hydrogen-
propulsion technology, and lightweight composite wings and 
parts are under development and promise more efficient and 
sustainable operations. Additionally, the industry is embracing 
alternative fuels and fuel sources as part of a comprehensive 
effort to reduce aviation's environmental footprint. 
Technologies to improve air traffic management and space 
situational awareness will need to meet the demands of new 
airspace entrants, aerospace technologies, and business models. 
In the upcoming decades, American innovation and ingenuity will 
propel the aerospace sector in the global landscape and improve 
the safety, availability, and efficiency of transportation for 
future generations.

                               WITNESSES

    <bullet> LThe Honorable Eric Garcetti, Mayor, City of Los 
Angeles, California, accompanied by Ms. Seleta Reynolds, 
General Manager, Los Angeles Department of Transportation
    <bullet> LMr. James L. Grimsley, Executive Director, 
Advanced Technology Initiatives, Choctaw Nation of Oklahoma
    <bullet> LMr. Adam Bry, Chief Executive Officer, Skydio
    <bullet> LMr. Pierre Harter, Director of Research and 
Development, National Institute for Aviation Research, Wichita 
State University
    <bullet> LMr. Roei Ganzarski, Chief Executive Officer, 
magniX
    <bullet> LMr. Blake Scholl, Founder and Chief Executive 
Officer, Boom Supersonic

 
             THE LEADING EDGE: INNOVATION IN U.S. AEROSPACE

                              ----------                              


                        TUESDAY, APRIL 27, 2021

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:01 a.m., in 
2167 Rayburn House Office Building and via Zoom, Hon. Rick 
Larsen (Chair of the subcommittee) presiding.
    Members present in person: Mr. Larsen.
    Members present remotely: Mr. Carson, Ms. Davids, Mr. 
Kahele, Ms. Williams of Georgia, Mr. Johnson of Georgia, Ms. 
Titus, Ms. Brownley, Mr. Payne, Mr. Lynch, Mr. Stanton, Ms. 
Norton, Ms. Johnson of Texas, Mr. Garamendi, Mr. Graves of 
Louisiana, Mr. Massie, Mr. Balderson, Mr. Van Drew, and Mrs. 
Steel.
    Mr. Larsen. The subcommittee will come to order. And I ask 
unanimous consent the chair be authorized to declare a recess 
at any time during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    And as a reminder, please keep your microphone muted unless 
speaking. And should I hear any inadvertent background noise, I 
will request that the Member, by name, please mute their 
microphone.
    And a reminder as well for Members: to insert a document 
into the record, please have your staff email that document to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d19323e28303833292e097b141d303c3431733532282e38733a322b73">[email&#160;protected]</a>
    I will now follow with an opening statement.
    Good morning and welcome to today's witnesses joining the 
Aviation Subcommittee's hearing titled: ``The Leading Edge: 
Innovation in U.S. Aerospace.''
    This is a long overdue discussion to explore promising 
opportunities for U.S. aerospace, including emerging aerospace 
entrants and new aviation technologies with potential societal, 
safety, and environmental benefits.
    Today's hearing is also a great opportunity to examine 
challenges in making those concepts a reality, and what 
Congress and the Federal Aviation Administration, or FAA, can 
do to ensure the safe and efficient integration of new entrants 
and technologies into the National Airspace System, or what we 
call the NAS.
    Fostering innovation is one of my top priorities as chair, 
because it will help bolster U.S. jobs and grow the Nation's 
leadership in the aerospace industry.
    Today's witnesses represent a range of emerging aerospace 
entrants, from small, unpiloted aircraft systems to electric 
aircraft and supersonic airplanes. I am also pleased to have 
representatives from city and Tribal governments at the table 
to highlight why new aerospace entrants and technologies are 
important to their communities and how to build public 
acceptance.
    Once only seen in science fiction or dropping Judy and 
Elroy off at school, flying cars and air taxis will soon be a 
reality with over 70 advanced air mobility, or AAM, concepts in 
development. Electric vertical takeoff and landing, or eVTOL, 
vehicles could reduce traffic congestion and improve mobility 
options, particularly in dense urban environments. However, 
Congress and the FAA must consider infrastructure, how new 
entrants will be integrated into an already busy U.S. airspace, 
and impacts on local communities.
    To that end, I do want to welcome Los Angeles Mayor Eric 
Garcetti to today's panel. Mayor Garcetti, when we get to you, 
I know the city of L.A. is a leader in helping get AAM options 
deployed. So I am interested in hearing more about the city's 
efforts to prepare for AAM operations in the region, including 
accounting for community views, ensuring equitable access 
across the city, and promoting sustainability.
    New advancements in aerospace technologies are arriving as 
U.S. aviation works to address the pressing challenges, such as 
greenhouse gas emissions and aircraft noise. That is why I am 
pleased today, as well, to welcome Mr. Roei Ganzarski, CEO of 
magniX, an electric propulsion system manufacturer leading the 
charge in the development of more sustainable and energy-
efficient aircraft. magniX is another in a long line of 
innovators in aviation that are based in Washington State. In 
this case, in my hometown of Everett, Washington, in my 
district.
    Mr. Ganzarski, I look forward to your thoughts on how the 
Federal Government can help U.S. manufacturing in this 
increasingly competitive space and help meet environmental 
goals as well.
    I want to turn now to unmanned aircraft systems, another 
area of tremendous growth. The FAA projects the use of drones 
will reach up over 2 million units by 2024, combining both 
private and commercial use. Drones are used today to perform 
critical infrastructure inspections, assist in recovery efforts 
following natural disasters, and deliver critical medical 
supplies during the pandemic.
    Mr. Grimsley is here from the Choctaw Nation. I look 
forward to learning more about the nation's ongoing project 
under the FAA's BEYOND Program to test advanced drone 
operations and analyze the impact of this technology on Tribal 
and rural communities. Inherent in the growth of new entrants 
are the potential risks posed to existing airspace users and 
people and critical assets on the ground.
    So in December 2020, the FAA issued two long-awaited UAS 
final rules which took effect last week: one requiring the 
remote identification, or ID, of UAS, and another permitting 
more routine UAS operations over people under certain 
conditions. So not only do I hope that Mr. Grimsley can address 
those issues, but Mr. Bry from Skydio is here, and I would like 
to hear more about the drone industry's reaction to these new 
rules as well.
    On to supersonic aircraft. Recent advancements in 
propulsion technology, materials, and domestic manufacturing 
have also made supersonic flight more of a reality. Traveling 
faster than the speed of sound, these flights are projected to 
significantly reduce transoceanic travel times and open new 
gateways to support international commerce. However, challenges 
persist to full deployment of supersonic flight, most notably 
the lack of internationally recognized certification, noise, or 
emission standards for supersonic aircraft.
    So in response to the 2018 FAA reauthorization law, the FAA 
recently issued a final rule to help facilitate supersonic 
flight testing and the safe development of such aircraft. And 
we are joined today by Mr. Blake Scholl, CEO of Boom 
Supersonic, a U.S. manufacturer at the forefront of developing 
supersonic passenger aircraft.
    Mr. Scholl, when we get to you, I am interested in learning 
more about Boom's XB-1 concept, your experience with navigating 
the current regulatory process for supersonic flight, and what 
is needed, both U.S. and internationally, to realize the 
vision.
    The subcommittee is also joined by Mr. Pierre Harter with 
the National Institute for Aviation Research at Wichita State 
University, a leader in aerospace research and development.
    Mr. Harter, when we get to you, I look forward to your 
thoughts on the importance of Federal investment in research on 
these technologies and ways to support the next generation of 
aviation innovators, scientists, and engineers.
    As the Nation works towards long-term economic recovery, 
this subcommittee will continue its forward-looking agenda on 
the future of U.S. aerospace, and how Congress and the FAA can 
ensure the U.S. remains the global aviation leader.
    Congress, the new administration, and the industry and its 
workforce must work together as we embark on this next 
generation of U.S. aerospace and ensure that as nascent 
operations and technologies are integrated into the complex 
airspace system, the safety of all who fly and those on the 
ground remain the top priority.
    So I want to thank you all again, today's witnesses, ahead 
of time. I look forward to our discussion.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
   from the State of Washington, and Chair, Subcommittee on Aviation
    Good morning and welcome to today's witnesses joining the Aviation 
Subcommittee's hearing titled ``The Leading Edge: Innovation in U.S. 
Aerospace.''
    This is a long overdue discussion to explore promising 
opportunities for U.S. aerospace, including emerging airspace entrants 
and new aviation technologies with potential societal, safety, and 
environmental benefits.
    Today's hearing is also a great opportunity to examine challenges 
in making these concepts a reality, and what Congress and the Federal 
Aviation Administration (FAA) can do to ensure the safe and efficient 
integration of new entrants and technologies into the National Airspace 
System (NAS).
    Fostering innovation is one of my top priorities as Chair because 
it will help bolster U.S. jobs and grow the nation's leadership in the 
aerospace industry.
    Today's witnesses represent a range of emerging airspace entrants, 
from small unmanned aircraft systems to electric aircraft and 
supersonic airplanes.
    I am also pleased to have representatives from city and tribal 
governments at the table to highlight why new airspace entrants and 
technologies are important to their communities and how to build public 
acceptance.
    Once only seen in science fiction or dropping Judy and Elroy off at 
school, ``flying cars'' and ``air taxis'' will soon be a reality, with 
over 70 advanced air mobility (AAM) concepts in development.
    Electric vertical takeoff and landing (eVTOL) vehicles could reduce 
traffic congestion and improve mobility options, particularly in dense 
urban environments.
    However, Congress and the FAA must consider infrastructure, how new 
entrants will be integrated into an already busy U.S. airspace, and 
impacts on local communities.
    To that end, I would like to welcome Los Angeles Mayor Eric 
Garcetti to today's panel. Mayor Garcetti, I know that the City of Los 
Angeles is a leader in helping get AAM options deployed. I am 
interested in hearing more about the City's efforts to prepare for AAM 
operations in the region, including accounting for community views, 
ensuring equitable access across the City, and promoting 
sustainability.
    New advancements in aerospace technologies are arriving as U.S. 
aviation works to address pressing challenges, such greenhouse gas 
emissions and aircraft noise.
    Which is why I am pleased to welcome Mr. Roei Ganzarski, CEO of 
magniX, an electric propulsion system manufacturer leading the charge 
on the development of more sustainable and energy-efficient aircraft.
    magniX is another in a long line of innovators in aviation that are 
based in Washington state, in this case in Everett in my district.
    Mr. Ganzarski, I look forward to your thoughts on how the federal 
government can help grow U.S. manufacturing in this increasingly 
competitive space and help to meet environmental goals.
    Another area of tremendous growth is in UAS, or drones.
    The FAA projects the use of drones will reach up over 2 million 
units by 2024, combining both private and commercial use.
    Drones are used today to perform critical infrastructure 
inspections, assist in recovery efforts following natural disasters, 
and deliver critical medical supplies during the pandemic.
    Mr. Grimsley, I look forward to learning more about the Choctaw 
Nation's ongoing project, under the FAA's BEYOND program, to test 
advanced drone operations and analyze the impact of this technology on 
tribal and rural communities.
    Inherent in the growth of new entrants are the potential risks 
posed to existing airspace users and people and critical assets on the 
ground.
    In December 2020, the FAA issued two long-awaited UAS final rules, 
which took effect last week: one requiring the remote identification 
(ID) of UAS and another permitting more routine UAS operations over 
people under certain conditions.
    Mr. Bry, I would like to hear more about the drone industry's 
reaction to these new rules.
    Recent advancements in propulsion technology, materials, and 
domestic manufacturing have also made supersonic flight more of a 
reality.
    Traveling faster than the speed of sound, these flights are 
projected to significantly reduce trans-oceanic travel times and open 
new gateways to support international commerce.
    However, challenges persist to full deployment of supersonic 
flight. Most notably, the lack of internationally recognized 
certification, noise, or emission standards for supersonic aircraft.
    In response to the 2018 FAA reauthorization law, the FAA recently 
issued a final rule to help facilitate supersonic flight testing and 
the safe development of such aircraft.
    We are joined today by Mr. Blake Scholl, CEO of Boom Supersonic, a 
U.S. manufacturer at the forefront of developing supersonic passenger 
aircraft. Mr. Scholl, I am interested in learning more about Boom's XB-
1 concept, your experience with navigating the current regulatory 
process for supersonic flight, and what is needed both in the U.S. and 
internationally to realize your vision.
    The Subcommittee is also joined by Mr. Pierre Harter with the 
National Institute for Aviation Research at Wichita State University, a 
leader in aerospace research and development. Mr. Harter, I look 
forward to your thoughts on the importance of federal investment in 
research on these technologies and ways to support the next generation 
of aviation innovators, scientists, and engineers.
    As the nation works toward long-term economic recovery, this 
Subcommittee will continue its forward-looking agenda on in the future 
of U.S. aerospace, and how Congress and the FAA can ensure the United 
States remains the global aviation leader.
    Congress, the new Administration, and the aerospace industry and 
workforce must work together as we embark on this next generation of 
U.S. aerospace and ensure that as nascent operations and technologies 
are integrated into the complex airspace system, the safety of all who 
fly and those on the ground remain the top priority.
    Thank you again to today's witnesses. I look forward to our 
discussion.

    Mr. Larsen. With that, I want to turn now to the ranking 
member of the subcommittee, Mr. Garret Graves of Louisiana, for 
an opening statement.
    Representative Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. Mr. 
Chairman, about 2 years ago, back in 2019, we had a hearing 
that you had scheduled called, ``Looking Forward: Aviation 
2050,'' where we were looking at the future of aviation over 
the next 30 years to try and depict and project what that would 
look like, and what we needed to do during our time to help 
facilitate that aviation industry in the United States.
    I do not think any of us anticipated the amazing challenges 
that we had during that 2-year period. Now obviously the 
pandemic, the 737 MAX, and other challenges in our community. 
My home State of Louisiana: five named hurricanes just last 
year.
    We cannot rest on our laurels in regard to the aviation 
future or being able to maintain the top position globally in 
regard to aviation. We must continue to work to strive to 
facilitate that innovation and that growth.
    Although it is not the title of this hearing, I think 
``Aviation 2030'' may be perhaps a better title for this 
hearing, looking at the aerospace innovation that we can 
explore and that we can expect to come online over the next 
decade or so. It seems clear that in the next 10 years, 
aerospace is going to evolve: an ever-increasing number of 
drones, the introduction of electric vertical takeoff and 
landing, reintroduction of civil supersonic aircraft, as you 
noted; and expanded use of commercial space transportation 
vehicles.
    Other nations may choose one or two technologies to try to 
excel at or facilitate in their countries. But in the United 
States, it is our aim--and Mr. Chairman, I believe we share 
this goal--it is our aim and our intention to lead in all of 
the above technologies. That means making investments upfront, 
laying the statutory and regulatory foundation for these 
cutting-edge technologies as was done in the last FAA 
reauthorization bill. But obviously, we need to hear from these 
witnesses on what needs to be done, even beyond.
    In fact, year after year, reauthorization after 
reauthorization, the committee and the FAA have worked to 
ensure that our foundation is solid, and it enables rather than 
stifles innovation, and that it is always laid on the bedrock 
of safety.
    For example, last week, rules for UAS remote identification 
and drone operations over people took effect, which will enable 
more advanced use of drones. While these rules do represent a 
major step forward, we know that a true regulatory foundation 
for drones must include a way for regular, beyond visual line 
of sight operations.
    And with these pieces in place, however, it is time to show 
some progress and reap the benefits of our investment. The 
economic and societal benefits of UAS promise to be enormous, 
and industry and communities are quickly finding ways to 
utilize the foundation that we did lay in these laws.
    I look forward to hearing from Skydio about the great 
American-made products they are developing, and from the 
Choctaw Nation about the innovative use of this technology, and 
the drones that they have in place now.
    Moving forward, we must take some of the lessons learned 
from our efforts on drone integration as the chairman noted, 
and apply them to advanced air mobility, to supersonic 
aircraft, and to electric aircraft. [Inaudible] certification 
and operations, allowing the industry to move forward and the 
FAA to ensure safety without spending years drafting overly 
specific regulations.
    For example, I am pleased the FAA has adopted this approach 
for electric aircraft using the performance-based part 23 
regulations to efficiently measure the safety of proposed 
electric aircraft. But more broadly, I am excited by the 
expansive vision of companies like magniX, which sees a future 
where aircraft can be both cleaner and less costly, and Boom, 
which aims to shrink the world and unlock opportunities that 
are unavailable at subsonic speeds. I look forward to hearing 
how our cities and communities are working to integrate these 
new transportation concepts into their planning.
    I know that Mayor Garcetti, the last time he was before our 
committee, noted that Republicans are Democrats that haven't 
been through a NEPA process, so I cannot wait to hear his new 
description of our political parties.
    But to all witnesses, I want to know where the foundation 
really needs to work and what you need from us to help you 
build on it. These technologies are not just innovation for 
innovation's sake, they are going to drive real benefits and 
improvements in the lives of our constituents and the well-
being of our communities. They will provide employment for tens 
of thousands of workers and help stitch together our cities and 
towns.
    With the work the subcommittee is doing, our witnesses, and 
the thousands of others like them, American aerospace will 
remain at the leading edge of our Nation's future and success.
    So thank you, Mr. Chairman. And I yield back.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    Mr. Chairman,
    About two years ago back in 2019, we had a hearing that you had 
scheduled called ``Aviation 2050'' where we were looking at the future 
of aviation over the next 30 years, to try and depict and project what 
that would look like and what we would need to do during our time to 
help facilitate that aviation industry in the United States.
    I don't think any of us anticipated any of the amazing challenges 
we had during that two-year period. Obviously, the pandemic, the 737 
Max, and other challenges in our community. In my home state of 
Louisiana, we had five named hurricanes just last year.
    We can't rest on our laurels in regard to the aviation future or 
being able to maintain the top position globally in regard to aviation. 
We must continue to work to strive to facilitate that innovation and 
that growth.
    Although it is not the title of this hearing, I think ``Aviation 
2030'' maybe perhaps a better title for this hearing, looking at the 
aerospace innovation we can explore and we can expect to come online 
over the next decade or so. It seems clear that in the next 10 years 
aerospace is going to evolve and there will be an increase in the 
number of drones, the introduction of electric vertical takeoff and 
landing, reintroduction of civil supersonic aircraft as you noted, 
expanded use of commercial space transportation vehicles.
    Other nations may choose one or two technologies to try to excel at 
or facilitate in their countries. But in the United States it is our 
aim, and Mr. Chairman I believe we share this goal, it is our aim and 
our intention to lead in all of the above technologies. That means 
making investments upfront, laying the statutory and regulatory 
foundation for these cutting-edge technologies as was done in the last 
FAA reauthorization bill. But obviously, we need to hear from these 
witnesses on what needs even beyond.
    In fact, year after year, reauthorization after reauthorization, 
the committee and FAA have worked to ensure that our foundation is 
solid and it enables, rather than stifles, innovation and that it is 
always laid on the bedrock of safety.
    For example, last week, rules for UAS remote identification and 
drone operations over people took effect, which will enable more 
advanced use of drones.
    While these rules do represent a major step forward, we know that a 
true regulatory foundation for drones must include a way for regular--
beyond visual line of sight operations. With these pieces in place, 
however, it is time to show some progress and reap the benefits of our 
investment.
    The economic and societal benefits of UAS promise to be enormous 
and industry and communities are quickly finding ways to utilize the 
foundation that we did lay in these laws. I look forward to hearing 
from SKYDIO about the great American-made products they are developing, 
and from the Choctaw Nation about the innovative use of this technology 
and the drones that they have in place now.
    Moving forward, we must take some of the lessons learned from our 
efforts on drone integration, as the Chairman noted, and apply them to 
advanced air mobility, supersonic aircraft, and electric aircraft. We 
need to allow the industry to move forward and the FAA to ensure safety 
without spending years drafting overly specific regulations.
    For example, I am pleased that the FAA has adopted this approach 
for electric aircraft, utilizing the performance-based part 23 
regulations to efficiently measure the safety of proposed electric 
aircraft.
    But more broadly, I am excited by the expansive vision of companies 
like magniX, which sees a future where aircraft can be both cleaner and 
less costly to operate, and Boom, which aims to shrink the world and 
unlock opportunities that are unavailable at subsonic speeds.
    To all our witnesses, I want to know where the foundation we've 
laid needs work, and what you need from us to help you build on it. 
These technologies are not innovation for innovation's sake, they are 
going to drive real benefits and improvements in the lives of our 
constituents and the well-being of our communities. The technology will 
employ tens of thousands of workers and help stitch together our cities 
and towns. With the work the subcommittee, our witnesses and the 
thousands of others like them are doing, American aerospace will remain 
at the leading edge of our nation's future and success.

    Mr. Larsen. Thank you, Representative Graves, very much. I 
want to now welcome the witnesses on our panel. Just list the 
witnesses. And then we have introduction to be made by one of 
our Members.
    First, we will hear from the Honorable Eric Garcetti, 
mayor, the city of Los Angeles, California, accompanied by Ms. 
Seleta Reynolds, who is the general manager of the L.A. DOT. 
Mr. James Grimsley, the executive director of advanced 
technology initiatives, Choctaw Nation of Oklahoma; Mr. Adam 
Bry, the chief executive officer of Skydio; Mr. Pierre Harter, 
director of research, National Institute for Aviation Research, 
Wichita State University; Mr. Roei Ganzarski, chief executive 
officer of magniX; and Mr. Blake Scholl, founder and chief 
executive officer of Boom Supersonic.
    I want to thank you all for joining us today. We all look 
forward to your testimony. We have a lot of Members, although 
they are not here in the hearing room, they are live with us 
online, and I know they have a lot of questions for all of you.
    So without objection, the witnesses' full statements will 
be included in the record. And since your written testimony has 
been made part of the record already, the subcommittee does 
request that you limit your oral testimony to 5 minutes. You 
will become familiar with this gavel at 5 minutes, and we try 
to keep things moving pretty quickly at officially the 5 
minutes in order to deal with some of the limitations of 
technology.
    But before we begin, I want to recognize Representative 
Brownley of California to introduce our first witness.
    Representative Brownley, you are recognized.
    Ms. Brownley. Thank you, Mr. Chairman, and thank you for 
allowing me to be here this morning to introduce the mayor of 
Los Angeles, Eric Garcetti.
    Los Angeles has always been at the forefront of the ever-
evolving and ever-growing aviation and aerospace industry. In 
fact, many of the cities, communities, and suburbs were built 
around aviation companies, assembly factories. Coupled with 
factors like Angelenos' pioneering spirit, the aviation and 
aerospace industry has continued to thrive in the region.
    For these reasons, you could not have chosen a better 
witness for today's hearing. Since he became mayor of Los 
Angeles in 2013, Mayor Garcetti has harnessed the city's sense 
of optimism and innovation. His forward-thinking and 
entrepreneurial spirit is especially evident in the city's 
embrace of advancement air mobility systems.
    The southern California metroplex, encompassing the 
airspace of most of southern California and six major airports, 
is among the most complex aviation systems in the world. Yet, 
Mayor Garcetti has not let that deter him from tackling this 
new frontier in aviation head on, including, by working to 
integrate urban air mobility, and to the fabric of the city's 
transportation networks, to provide new options for city 
residents and visitors.
    Along with other forms of zero-emission transportation, 
urban air mobility has the potential to help our region address 
its myriad of transportation challenges from lessening 
congestion on our roads to reducing noise from older model 
helicopters, and to eliminating carbon emissions from 
transportation sources.
    Mayor Garcetti understands that the United States must lead 
the way in developing this new technology so that our Nation 
benefits from the incredible job growth that this emerging 
transportation sector will yield. He understands the incredible 
opportunities that urban air mobility can provide, not only for 
moving people, but for improving the movement of goods.
    As we examine this new frontier in aviation and aerospace, 
our region continues to lead the way. I thank the committee for 
inviting Mayor Garcetti to share his innovative aviation vision 
for Angelenos and for the Nation.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Larsen. Thank you, Representative Brownley.
    Mayor Garcetti, you are recognized for 5 minutes.

 TESTIMONY OF HON. ERIC GARCETTI, MAYOR, CITY OF LOS ANGELES, 
 CALIFORNIA, ACCOMPANIED BY SELETA REYNOLDS, GENERAL MANAGER, 
DEPARTMENT OF TRANSPORTATION, CITY OF LOS ANGELES, CALIFORNIA; 
 JAMES L. GRIMSLEY, EXECUTIVE DIRECTOR OF ADVANCED TECHNOLOGY 
   INITIATIVES, CHOCTAW NATION OF OKLAHOMA; ADAM BRY, CHIEF 
EXECUTIVE OFFICER, SKYDIO, INC.; PIERRE F. HARTER, DIRECTOR OF 
   RESEARCH AND DEVELOPMENT, NATIONAL INSTITUTE FOR AVIATION 
RESEARCH, AND ASSOCIATE VICE PRESIDENT FOR INDUSTRY AND DEFENSE 
 PROGRAMS, RESEARCH OPERATIONS, WICHITA STATE UNIVERSITY; ROEI 
 GANZARSKI, CHIEF EXECUTIVE OFFICER, magniX; AND BLAKE SCHOLL, 
      FOUNDER AND CHIEF EXECUTIVE OFFICER, BOOM SUPERSONIC

    Mr. Garcetti. Thank you so much, Chair Larsen and Ranking 
Member Graves, all the members of the subcommittee, and others 
who are here. And thank you to my dear friend, Julia Brownley, 
a Congress Member. My mother should have been there for that 
introduction, it was so kind.
    And I am really pleased to be joined today in my testimony 
by Seleta Reynolds, who is the general manager of the Los 
Angeles Department of Transportation. You know, we have the 
second largest metropolitan economy in the country and now the 
third largest metropolitan economy in the world in southern 
California. Home to the Nation's busiest cargo complex, we 
boast the third busiest passenger airport in the world, one of 
those six that was mentioned.
    But as you know, we are also a creative capital, an 
innovation capital, and the manufacturing capital of America. 
Our success is tied to America's strength and America's success 
is tied to our strength. But L.A. also occupies another role, 
which is why it is such a treat to testify before you.
    We have become the transportation infrastructure investment 
capital of America, pouring $14 billion, the most of any 
airport in America, into LAX; which, if you have been through 
in the last decade, you know needs it. Investing $120 billion--
you heard that right--for 15 new public transit lines in 
preparation for the American Summer Olympic Games that will 
come to Los Angeles in 2028, part of the largest local 
transportation measure ever passed in American history times 
two.
    And so we are trying to drive the future of transportation 
locally through investment and beyond as a testing ground for 
America's new innovation in transportation. And thanks to that, 
the history, geography, and ingenuity that Representative 
Brownley mentioned, representatives and companies from 
everywhere are coming to southern California to develop, to 
test, to build new transportation solutions, and that includes 
advanced aerial mobility or AAM.
    For this technology, the sky is literally the limit. And it 
has the potential to reduce emissions, to connect communities, 
and to grow our economies. But as policymakers, I know that 
this hearing today is about our responsibility to step back to 
assess the challenges and to keep our focus on equity as this 
market takes off.
    We need to make sure that AAM does not create flyover 
highways accessible only to those with the economic means, but 
how we can explore AAM--estimated to travel between 50 and 200 
miles at more than 150 miles an hour--could tie people to jobs 
and opportunity without creating more sprawl. We know that well 
in Los Angeles, where the traffic is among the worst in the 
country, and our air quality traditionally has been, too, even 
though we have made huge strides.
    In the L.A. region, only one-quarter of jobs are accessible 
within 90 minutes to people using public transit. AAM could 
offer a solution, but only if we build affordability, both into 
the private- and public-sector planning around this technology. 
So it needs to be safe, zero emissions, and low noise. We will 
meet that standard industry experts say, and be safer and 
cleaner than driving a car, and quieter than a helicopter. And 
while there is no shortage of room in the air for AAM, there 
are far fewer spots available for takeoff and landing.
    So as we build out the infrastructure, we do not need to 
just think about the sky, but the buildings and the vertiports, 
and connect density and better connections to walking, cycling, 
and transit where those vertiports are.
    L.A. is already engaging Angelenos in our plans for AAM 
infrastructure because we want the public to be the coauthors 
of this. I am proud that L.A. and our sister cities are leading 
on AAM, but we need your help at the Federal level. Don't let 
us have a thousand standards in a thousand cities.
    Let's develop a national standard--clear roles for managing 
low-altitude airspace that recognize the responsibility, 
though, of local governments around land use, density and 
development.
    Two, the FAA needs to prioritize research and to safely 
integrating AAM into congested airspace, as well as research 
into how takeoffs and landings will weave into the flightpaths 
of traditional commercial aircraft operations.
    Three; industry, the FAA, and local governments have to 
start sharing data on the safety, sustainability, equity, 
noise, and energy infrastructure impacts of AAM with one 
another, as well as members of the public, academic partners, 
and others.
    And four, the FAA needs to speed up the pace of its data 
gathering and invest more resources in reliable communications, 
detect and avoid systems, and remote identification systems. 
And airports like LAX should be allowed to conduct pilot 
programs to test these types of systems.
    Last, we need funding to plan for and connect AAM 
infrastructure into our existing and future transportation 
networks. At its core, infrastructure isn't about a single mode 
of transportation, it is about innovation and jobs and human 
beings. It is about connecting communities. Whether it is AAM 
or encouraging more Americans to walk, ride, or take public 
transit, we have the tools to forge the next generation of 
transportation. L.A., with cities around the world, is trying 
to develop this standard when it comes to AAM, and we simply 
need your partnership to arrive at that destination together.
    Thank you all so much. I look forward to our discussion.
    [Mr. Garcetti's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eric Garcetti, Mayor, City of Los Angeles, 
                               California
    Chair Larsen, Ranking Member Graves, and Members of the Committee--
my name is Eric Garcetti, and I serve as Mayor of Los Angeles, the 
second-largest city in the country; home to four million residents and 
Los Angeles International Airport, which in 2019 was the second busiest 
passenger airport in the United States, and third busiest airport in 
the world. Prior to the COVID-19 pandemic, we saw the throughput of 
more than 88 million annual passengers. During the pandemic, we 
processed a near record of 2,329,348 tons of cargo at LAX alone. This 
activity at our airports generates 620,600 jobs with a labor income of 
$37.3 billion, and an economic output of $126.6 billion.
    I am honored to appear before you and this Committee on behalf of 
my city to discuss our role as an epicenter of aviation and 
aeronautics, a field that has rapidly evolved in a little over 100 
years, and is poised for continued rapid advancement in the coming 
years. With a rich history in aeronautics, Los Angeles and the greater 
Southern California region is currently looking toward the future to 
plan for a safe, efficient, and integrated advanced air mobility (AAM) 
system. Our location within the FAA-designated Southern California 
Metroplex and a growing urban core makes this no easy task. Yet, this 
is why we are doing it. Effecting change within the transportation 
system has proven to be an arduous and time-consuming task. With 
multiple electric vertical take-off and landing (eVTOL) manufacturers 
(OEMs) announcing intentions to launch service within our city by 2024, 
it is imperative that we plan now.
    Last month, I testified before the Senate Committee on Environment 
and Public Works. There I described the devastating climate change 
impacts that threaten Angelenos every year. I told them about my 
commitment to modernize L.A.'s electric grid to support the 
decarbonization of our transportation system. It is in this same spirit 
that I am here, once again.
    We have an opportunity to effect significant positive change within 
my jurisdiction, and within the aviation industry as a whole. New 
electric aircraft of all types are announced every month. Progress in 
battery technology, acoustical engineering, and operational milestones 
are taking place weekly. This emerging market is pushing aviation 
through a metamorphosis and cities need to be ready. It is my duty to 
ensure that any new technology, particularly within transportation, is 
planned for and implemented in a way that improves our constituents' 
quality of life.
    We do not need another mode of transportation that layers new 
problems onto our existing ones. We need solutions that provide 
Angelenos with choice. The choice to travel in the most efficient and 
cost effective way. This means something different for everyone, which 
means that we must remain flexible in our approach, and we cannot levy 
new burdens on our neighborhoods that have historically been 
underserved. We must provide transportation choices to those who need 
it most.
    Doing this requires that we leverage every mode of transportation 
in an integrated system that benefits all Angelenos. When new 
technology emerges, we must be ready to help new providers adapt to 
what our residents need. Within the complex system of systems that is 
transportation, this often creates ripple effects across to other 
modes. AAM is no different and we are uniquely positioned and 
experienced to handle this task.
    This work unlocks massive opportunities to foster a new job market, 
to bring opportunities for upward economic mobility to struggling 
communities; all while keeping our nation in a leadership position 
within the global economy. This work will also benefit from strong 
Federal support, and I will close these remarks today with specific 
requests to support the planning and deployment of AAM in Los Angeles 
and across the country.
    I appreciate the opportunity to share our work and insights. I hope 
that it inspires you with the same optimism and innovative spirit that 
I have shared with all who are undertaking this work to deliver a 
resilient, equitable, just, and sustainable transportation system.
    First, allow me to share a little about L.A.'s rich aerospace 
history to demonstrate how fitting it is for us to take this leadership 
role.
                  A Brief History of Aerospace in L.A.
    The histories of the Los Angeles region and aerospace industry in 
the United States are closely intertwined. From a quarter million 
people observing aviation technology at the Los Angeles International 
Air Meet in 1910, to the agglomeration of aviation manufacturers that 
led to 300,000 aircraft built by two million workers to support an 
Allied victory in World War II, the region and industry grew together 
for much of the 20th century.
    As the Cold War came to a close, the region's role in the industry 
was temporarily disrupted as manufacturers merged and new technology 
companies drew workers from aerospace to new fields. However, that 
disruption was short-lived as aerospace industry employment rose by 64 
percent and manufacturing increased by 24 percent between 2004 and 2014 
to meet the demands of our nation's military and space exploration 
efforts. With $15.7 billion in contracts awarded by the U.S. Department 
of Defense in 2014 to 120 aerospace-related companies in the region, 
and longstanding educational pipelines between industry leaders and 
local aerospace engineering programs, these trends are expected to 
continue.
    Today, the aerospace industry invests more than $24 billion in 
production costs and $11.1 billion in wages and benefits in the region 
annually. Of the 85,500 aerospace industry workers in the Southern 
California region (about 14% of the national aerospace workforce), most 
(63%) are employed in Los Angeles County. This provides access to well 
paying jobs, as average wages in the industry are nearly twice the 
average wage across other job sectors.
    The impact of the industry in our region is even broader when 
considering jobs indirectly related to aerospace. Direct and indirect 
aerospace jobs amount to 300 thousand; 300 thousand jobs that support 
300 thousand individuals, households and families in Southern 
California.
            Laying the Foundation for the Future of Mobility
    Los Angeles is leading the way for safe, equitable, and zero-
emission mobility options. Our efforts to develop a transportation 
network of complementary mobility options puts our City in a unique 
position to guide the integration of Advanced Air Mobility in our 
communities.
    We have planned and documented our approach for building a 
transportation network that provides our community with safe options. 
The Los Angeles Mobility Plan 2035 establishes a framework for 
reimagining transportation within the city, with a focus on creating 
streets that are safe and accessible for all community members. Paired 
with our recently adopted Los Angeles Department of Transportation 
(LADOT) 2021 Strategic Plan, outlining a framework for our 
transportation department to meet its goals, Los Angeles is poised to 
be flexible and meet the transportation needs of Angelenos today and in 
the future.
    We embrace transparency and data-driven solutions in Los Angeles, 
allowing for a flexible and proactive approach to integrating new 
mobility services. Merging data and the lived experiences of our 
communities has allowed us to serve Angelenos in new ways, including 
the provision of micro-transit services and shared scooter devices to 
wide and diverse audiences. This includes shifting the paradigm of how 
cities deliver policy in the 21st century from an analog world of signs 
and curb painting to a digital world of application programming 
interfaces (APIs). The development of tools, such as the mobility data 
specification (MDS), both protect constituent and company privacy and 
allow for the sharing of essential operational data between mobility 
operators and departments of transportation. These tools also enable 
our city departments to keep pace with the innovations of the 
technology sector, while delivering safe, sustainable, and accessible 
mobility options to Angelenos who need them.
    We collaborate with neighboring jurisdictions and agency partners 
to create paths to alternative mobility options. Working closely with 
the Los Angeles County Metropolitan Transportation Authority, Angelenos 
voted to approve Measure M, which will bring $120 billion in transit 
projects, bicycle infrastructure, and pedestrian safety improvements.
    Finally, we put equity at the forefront of all planning decisions. 
Recognizing that past decisions created disparate levels of mobility 
access, safety, emissions exposure, and opportunities, we are working 
with community members to understand their needs and provide the 
infrastructure needed to thrive.
    To continue our progress and make due on our promise for a more 
equitable Los Angeles, we must be at the forefront of integrating new 
mobility options in our City. While new mobility technology presents 
challenges for cities, we see opportunity:
    An opportunity to engage with community members and industry 
stakeholders to guide the introduction of Advanced Air Mobility.
    An opportunity to plan and design facilities that reduce dependence 
on automobile ownership and realize a multimodal transportation system.
    An opportunity to live in a future where our youngest Angelenos are 
served by a network of accessible, safe, and sustainable, mobility 
options and where they have clear pathways to jobs that align with our 
equity and justice imperatives.
                     Advanced Air Mobility Emerges
    As defined by the Federal Aviation Administration (FAA), Advanced 
Air Mobility (AAM) is a safe and efficient aviation transportation 
system that will use highly automated aircraft to transport people and 
goods at lower altitudes. Urban Air Mobility (UAM) recognizes use cases 
within populated areas.
    The FAA acknowledges that community engagement is critical for 
guiding the development of the UAM ecosystem, along with access to 
airspace and infrastructure development. This is where Los Angeles 
thrives--at the intersection of community engagement and guiding 
multimodal priorities.
    So what does UAM look like? Why do we need resources to allow our 
cities to guide these new services?
    UAM adds a third dimension for moving people. OEM's have described 
aircraft capable of carrying one to five passengers flying at speeds of 
150 to 200 miles per hour, over a range of 60 to 200 miles. With these 
capabilities, UAM has the potential to add a new option for 
connectivity and accessibility throughout the Southern California 
region, particularly for difficult commutes where non-auto options are 
lacking.
    UAM adds a third dimension for moving cargo. With an ever 
increasing demand for goods movement, UAM can benefit logistics 
operators with high-value parcel movements to support the medical, 
aerospace, and defense industries across Southern California.
    Before being able to see UAM in our cities, we must be able to work 
with community members and industry partners to create a clear path to 
implementation that benefits all residents. This includes planning and 
design efforts that integrate communities, infrastructure, and policy 
to guide future decisions associated with UAM. This requires public-
private partnerships to delineate clear lines of responsibility, 
accountability, and information exchange. We have already begun this 
work in Los Angeles.
    With numerous OEMs announcing their intent for launching UAM 
service in Los Angeles by 2024, the time to act is now. We must 
allocate resources for our local governments, community members, and 
service providers to collaborate and shape these services to work not 
simply in our communities, but for our communities. We have made the 
mistake of being reactionary to transportation technologies in the 
past, most recently with Transportation Network Companies, such as Uber 
and Lyft, or the influx of electric scooters in urban communities. 
Today, Los Angeles is leading the way in proactively partnering with 
service providers to guide business models in a way that brings 
solutions to transportation challenges, instead of creating new 
challenges. But we cannot do it alone.
                     The Principle of the Urban Sky
    Developed in partnership with the World Economic Forum, the 
Principles of the Urban Sky were adopted by Los Angeles in September 
2020. Today, my office is working closely with the Los Angeles 
Department of Transportation (LADOT) to develop the building blocks to 
guide UAM implementation in Los Angeles.
    The Principles of the Urban Sky are fundamentally important to the 
short and long-range success of UAM. Shaped with feedback from leaders 
across the industry, Los Angeles is applying and understanding these 
lessons to introduce a new mode of transportation.
    The Principles of the Urban Sky are:
    <bullet>  Safety--UAM operations are aiming for safety performance 
consistent with commercial aviation. In other words, very safe. To 
achieve this, the industry will need to adopt similar regulatory 
requirements and standards.
    <bullet>  Sustainability--Sustainability will need to encompass the 
effects of UAM on the community, which includes people, as well as the 
animals and vegetation that inhabit the impacted environment. Mobility 
and public benefits must outweigh negative externalities, particularly 
when evaluated as a part of a multimodal system.
    <bullet>  Equity of Access--Planning early for equitable access is 
required for public acceptance and long term success. While UAM will 
initially be operated as a premium service, providers must work with 
local governments to plan for affordable consumer pricing as the scale 
of operations increases. Further, take-off and landing areas offer 
opportunities to serve as hubs for a wide variety of mobility options, 
ensuring that people who use UAM services or work in supporting 
functions will not need to rely on personal automobiles to access these 
facilities.
    <bullet>  Low Noise--Noise acceptance thresholds must be 
established with stakeholders, including city planners, community 
advocate groups, OEMs, service providers, and vertiport operators. All 
stakeholders must understand all negative impacts of noise and plan to 
mitigate them to the maximum extent.
    <bullet>  Multimodal Connectivity--Creating a siloed option for 
wealthier travelers is the path to failure. Instead, UAM should 
seamlessly connect with existing modes of transportation to create a 
high-quality transportation network for everyone to enjoy.
    <bullet>  Local Workforce Development--UAM must create new 
employment opportunities, especially for residents where operations are 
supported. Accessible education and training should be available to 
meet the demand for future employment.
    <bullet>  Purpose-Driven Data Sharing--Data sharing enables 
authorized stakeholders to respond to community, passenger, and market 
needs. To facilitate success, individual privacy must be protected. The 
availability of relevant data allows for optimized airspace usage, 
efficient vertiport operations, and intermodal connectivity.

    Working collaboratively with our partners, these principles will 
help us develop policies that can help weave UAM into the fabric of our 
transportation systems.
                     Urban Air Mobility Partnership
    To properly implement the Principles of the Urban Sky, last 
December, I announced the Urban Air Mobility Partnership. This unique 
initiative makes Los Angeles the unmistakable leader in the nation on 
Urban Air Mobility, and leverages one of the primary tools for our 
mobility future: a public-private partnership, in this case formed 
between LADOT and the newly formed Urban Movement Labs (UML).
    Urban Movement Labs is a first-of-its-kind mobility-innovation 
organization that brings together public agencies, businesses, and 
community members to match technology solutions to mobility problems 
and test them in Los Angeles' urban contexts. UML brings together 
different stakeholders to facilitate accelerators and pilot projects to 
collaboratively find ways of meeting Los Angeles' transportation needs. 
UML is well-positioned to facilitate a productive dialogue between 
public and private stakeholders. I am extremely proud of this small 
team of experts and excited to see their work unfold.
    The UAM Partnership leverages new aviation technologies as part of 
a clean, safe, and equitable transportation system. UML will integrate 
this through a public education and outreach program, and thoughtful 
vertiport infrastructure (e.g., places where UAMs will take off and 
land) planning which will unlock new levels of connectivity, while 
mitigating negative externalities.
    To bring these efforts to fruition, with my support, Urban Movement 
Labs hired an Urban Air Mobility Fellow. The first position of its kind 
in the nation. An Air Force veteran, our Fellow brings more than 20 
years of diverse aviation experience (including airport, heliport, and 
airspace planning) and an urban planning and design background to 
L.A.'s planning toolbox. Prior to joining UML, our fellow worked in 
statewide aviation planning for a western state Department of 
Transportation.
    Our Urban Air Mobility Fellow is leading the integration of the 
``Principles of the Urban Sky'' into Los Angeles' transportation 
landscape over the course of this year. Upon completion of the 
fellowship, our Fellow will collaborate on a policy toolkit that can be 
utilized by cities, counties, and tribal governments nationwide. A 
primary goal of this policy toolkit will be to lay the foundation for a 
safe, sustainable, equitable, and efficient new mobility system that 
will overlay the already complex transportation infrastructure of the 
City of Los Angeles and beyond.
                    Advanced Air Mobility Potential
    A study published by Deloitte earlier this year highlighted the 
potential of AAM. In the United States alone, the AAM market is 
estimated to produce $17 billion annually by 2025, and $115 billion 
annually by 2035. This is equivalent to 30 percent of 2019's commercial 
aviation market. Additionally, NASA expects the passenger movement 
market to be commercially viable by 2028, and the package delivery 
market soon after in 2030.
    As a new economic opportunity, AAM is expected to generate 280,000 
new jobs by 2035, adding$30 billion in wages and benefits. Like current 
trends in aerospace employment, I expect these jobs will provide higher 
above average wages. Creating training opportunities to support this 
new industry, particularly within communities struggling with upward 
economic mobility, realizes AAM's potential to add value as a 
transportation option and by developing the next generation aviation 
workforce.
    AAM can also serve as an accelerator in shifting the aviation 
industry towards greener fuels, lower greenhouse gas emissions, and a 
more sustainable future. A study published in Nature concluded that 
carbon emissions associated with a three passenger eVTOL were 52 
percent lower, per passenger kilometer, than a fossil-fueled 
automobile.
    UAM will come with the highest expectations for safety, with the 
goal for eVTOL trips to be as safe as a commercial airline flight. The 
aviation industry boasts an incredible safety record in the US, with 
only 0.07 deaths per billion passenger miles--or about 3,000 times 
safer than travelling by car or motorcycle, which causes 220 deaths per 
billion passenger miles.
    Angelenos are no stranger to noise from aircraft, particularly from 
daily helicopter flights over urban neighborhoods and the broader noise 
issues faced by people who live near our various airports. OEMs, like 
Joby, Jaunt, and Volocopter, are targeting noise levels less than 70 
decibels at cruising altitude. This is comparable to the higher range 
of a normal conversation. Joby Aircraft, for example, has publicly made 
it known that its aircraft's acoustical characteristics are just as 
important as other performance characteristics. Communities demand 
quieter vehicles, and the industry is responding.
    UAM will require a new transportation network in order to provide a 
viable business model and travel mode. In contrast to the traditional 
hub and spoke airline networks, or the linear networks of roads and 
rail, UAM's benefits are realized through a nodal network that provides 
new opportunities for connectivity within a region. Often underutilized 
infrastructure, like small general aviation airports, now become nodes 
that are connected to jobs and other areas of economic activity. Like 
adding other modes of transportation, UAM can help access career 
opportunities in new parts of the region, particularly for those with 
limited transportation options today.
    AAM is currently enabled through the relatively small footprint of 
existing infrastructure of airports and heliports, and will be 
augmented by strategically planned vertiport infrastructure. 
Maintaining road networks exceeds $145 billion annually, and despite 
this cost, congestion continues to worsen causing billions in lost 
productivity. Maintaining existing aviation infrastructure costs only 
$4.1 billion to maintain, revealing aviation infrastructure's high 
efficiency.
                               Challenges
    The UAM Fellowship is a year-long program, after which, AAM 
planning will have to compete for traditional urban planning staff and 
capacity. While it's feasible for new partnerships to fund a dedicated 
planning position, the City cannot rely on this mechanism to continue 
its efforts into perpetuity.
    Another challenge that I see being faced by growing urban areas is 
density. Density is often recognized as a solution for creating healthy 
jobs to housing balance and reducing commuting times. Safety zones 
contained in current heliport design guidance serve to protect 
navigable airspace for flight safety, as well as to ensure ground areas 
are free of high density land uses and gathering areas such as parks or 
plazas. This imposes land use and height restrictions around 
vertiports, which limit a city's ability to develop high density areas 
of housing and employment directly surrounding a vertiport.
    Cost is a big barrier to access and equity. Current entry costs 
will limit AAM access to those with higher expendable incomes. While I 
understand that cost is expected to eventually be on par with higher 
end surface ride-sharing options, we need to understand how populations 
that are unable to afford a trip will be impacted, and what indirect 
benefits may be shared, such as investing in connected infrastructure. 
We have been here before in Los Angeles, with the implementation of our 
ExpressLanes system over a decade ago. While the initial concerns 
centered on potential disparities created when a transportation mode 
that is faster and more efficient is provided for a premium fee, 
ultimately our ExpressLanes system developed a model where revenue 
generated from use of the ExpressLanes was used to improve public 
transportation options for other commuters, resulting in an overall 
improved multimodal transportation system.
    While I know that AAM alone cannot resolve congestion and related 
emissions issues within the city, we must leverage all tools possible 
to move towards a more sustainable future. AAM can be one of many 
options in a suite of mobility solutions to move our cities towards a 
more sustainable future. We look forward to working with the industry 
to meet sustainability goals.
    Most critically, we understand the inequitable consequences of our 
past planning decisions now more than ever. It is imperative that we 
take proactive action to ensure we do not repeat these mistakes. The 
industry is showing interest in joining us in this battle, and we look 
forward to having them as our allies.
                            Recommendations
    This brings me to my recommendations to this committee.
    First and foremost, we need funding to continue to lay the 
groundwork for planning and preparing our city for UAM for operations 
by 2024. AAM eligibility under existing USDOT grant programs needs to 
be added, or expanded. I was pleased to see that the Notice of Funding 
Opportunity for the RAISE program included eligibility for intermodal 
facilities at airports. I encourage that we continue to expand these 
types of programs. At the same time, I also know how competitive 
projects are for these grants and AAM may not compete well.
    I support the creation of other funding options to plan for AAM, 
especially for programs that are specific to AAM planning and 
construction. These grants should be available to all providers of 
local and regional transportation, across all modes who wish to 
incorporate AAM into their mobility programs, and should take into 
consideration that not all jurisdictions will have existing resources 
to use as a local match. Doing so will afford us the dedicated staff 
time and resources to engage community members, service providers, and 
other stakeholders in the collaborative process that integrates UAM 
with other modes of transportation.
    These funding options should also make clear that AAM needs to be 
planned with and connected to other modes of transportation, as well as 
powered by zero emissions fuels. With transit, personal, and shared 
mobility moving towards electricity as the primary fuel source, we must 
think critically about the electricity infrastructure at mobility hubs, 
as UAM introduces another electric vehicle that requires charging. 
Fostering collaboration between OEM's across services can facilitate 
interoperability of chargers and ensure enough electricity is available 
where needed. My approach is one of collaboration, which requires 
future grant programs and clearly written planning and engineering 
guidance.
    We need transportation leadership, and not just from the aviation 
community; from the transit, street design, and regional rail 
communities as well. To plan for intermodal connectivity, they need a 
voice in our discussions at all levels. We need a strategic effort 
alongside transit, active transportation and accessibility programs to 
reduce single occupancy vehicle trips, establish safe and complete 
streets, and foster a complete and integrated transportation network 
for all users, including communities of color. The Advanced Air 
Mobility Coordination and Leadership Act introduced by U.S. Senators 
Sinema and Moran is a great start, but is missing these key details. 
Constituents need to see these efforts codified.
    To build the necessary infrastructure, we need to develop vertiport 
design guidance that reflects the unique needs associated with bringing 
UAM into urban spaces. This guidance must be scalable to provide 
flexibility for integration into different urban contexts, and clearly 
identify risks associated with specific criteria. Guidance should 
provide practitioners clear direction for a multitude of use cases 
including private (part 91) facilities, on-demand charter facilities 
(part 135), and scheduled operations facilities (part 121). 
Additionally, steps should be outlined for establishing intermodal 
facilities, converting buildings to support UAM (e.g., parking garage), 
bringing services to surface brownfield sites with existing surrounding 
development, and facilities housed within small, medium, and large 
airports.
    This guidance must acknowledge the crucial rule that local 
governments play in managing the land use, development, and density of 
urban areas. Between October 2021 and 2029, the City of Los Angeles 
will be responsible for adding 456,643 housing units, about a third of 
the metropolitan planning organization's five-county goal and almost a 
third of which will be for very low income households. L.A. cannot 
afford to jeopardize density, including through the construction of 
vertiports with safety zones that might imperil surrounding future 
development. Any guidance that the FAA releases must take into 
consideration this key point.
    Existing infrastructure at airports and heliports also needs to 
evolve. This presents an unique opportunity for these critical pieces 
of infrastructure to take on a new role in communities as mobility and 
communications hubs. Accessibility at these points can be enabled by 
intermodal connectivity or through land use changes that bring more 
opportunities to the airport/heliport itself. The more seamless we can 
make the journey to the final destination, the better our chances for 
success. Strategically bringing new surface connectivity, land uses, 
and activity to airports and heliports should be encouraged across all 
modes, highway, transit, and aviation. Grant programs must allow us to 
jump on this opportunity.
    Back to our airport--LAX in 2019 was the world's number one origin 
and destination airport. More passengers started or ended a trip at LAX 
than any other airport, many of them driving on our freeways to get 
there. Someday that 45-minute (or more) trip on freeways from LAX to 
downtown LA might be a five-minute trip in a zero emissions Electric 
Vertical Takeoff and Landing (eVTOL) aircraft. AAM companies have told 
us that major airports fit prominently in their business plans.
    We have to start planning now. The Federal Aviation Administration 
(FAA) needs to prioritize the study of how AAM will integrate safely 
into the very congested airspace around the nation's busiest airports, 
such as LAX, and how takeoff and landings will weave into the flight 
paths of traditional commercial aircraft operations.
    Critical to the safety of our airspace is purpose-driven data 
sharing across levels of government and across dimensions of 
transportation. The UAM Concept of Operations (``ConOps'') Version 1.0 
published by NASA and the FAA in June 2020 starts to address the 
increasing number of aircraft in our urban airspaces, and how operators 
and government entities might share data dynamically to allow for both 
safety and scaling of services. However, this initial version of the 
UAM Concept of Operations only notionally includes local governments 
and the people they represent. A second version of the ConOps should 
more clearly outline the jurisdiction local governments hold with 
regards to managing low-altitude airspace, such as permitting 
operations that ensure sustainability, accessibility, and low-noise are 
achieved. It should also define how local governments might participate 
in both receiving and providing data, particularly in the case of 
emergency situations.
    That planning also needs to include unmanned aircraft systems--or 
drones--both being used for societal benefits, safety and security, as 
well as those that could cause major disruptions to our airports. 
Drones are in our airspace now--and have the ability to cause great 
impact. According to FAA statistics, since April of 2016, there have 
been more than 260 reported cases of unauthorized drone activity near 
LAX alone, and I know that all airports are concerned about drone 
incursions in their airspace.
    That is why I have been advocating for LAX to be able to test 
sophisticated systems that can help detect and mitigate drones around 
the airport to keep our airline passengers and communities under 
flights paths safe from unauthorized incursions--and to protect our 
local economy from the devastating impacts that would occur if the 
airport needed to shut down because of a drone incursion.
    The FAA needs to increase the pace of gathering data and to invest 
more resources in reliable communications, detect-and-avoid systems, 
and remote identification systems. The FAA should allow large airports 
like LAX to conduct pilot programs to test these types of systems to 
gather crucial information on how these technologies will work in a 
high air traffic airport environment. Without these pilots, airports 
are limited in being able to effectively respond to and plan for the 
safety and future implementation of AAM for cargo and mass transit 
solutions. I also support looking at common sense uses for drones that 
can help bring additional safety, security and efficiency to our 
airports and the movement of goods.
    AAM will not be successful if it happens without our people. My 
duty first and foremost as Mayor of Los Angeles is to the people who 
live and work in our City of Angels.
    To build public trust, I need to show my constituents how AAM will 
serve them while meeting the same level of safety that is associated 
with commercial flight. Commercial airline operators achieve this level 
of safety through a comprehensive system of checks, balances, and 
redundancies. UAM operators will have to operate similarly, and OEM's 
must work with the FAA to adapt existing regulations to new technology.
    We also need to know how these technologies can operate without 
placing a burden on communities neighboring airports in terms of noise 
and other potential annoyances. The FAA plans to continue to apply its 
current noise certification standards to eVTOL aircraft. NASA 
recognizes that community acceptance around noise is more dynamic than 
these standards can measure. Communities need a framework to better 
assess community annoyance and health impacts to fully understand and 
mitigate new aircraft noise.
    To protect disadvantaged communities, I need a framework that 
allows me to work with the FAA to prevent new burdens from being levied 
upon these residents. I need to be able to protect schools, outdoor 
gathering spaces, and recreation facilities from new noise and/or 
increased greenhouse gas emissions. To effectively accomplish this, I 
need to have a certain level of authority in how low altitude airspace 
is managed.
    AAM also needs to meaningfully contribute to our regional economy, 
and to create jobs with good wages. Academic departments and programs 
need support to create the education and training necessary to meet the 
demand of the future workforce. These programs need to target 
institutions that are more accessible to a diverse student body. 
Community colleges and vocational schools--like Los Angeles Trade 
Tech--should receive top priority. Ongoing job training and skills 
development are also crucial, as it typically requires approximately 10 
years of experience to develop capable aeronautical maintenance and 
operations staff.
                               Conclusion
    We are at a critical juncture in the history of transportation. The 
decisions that we make today can change the trajectory away from our 
past mistakes when we planned for a single mode of transportation. This 
is not just an opportunity for aviation, but for all of transportation, 
to unite and collectively create the transportation system of tomorrow. 
The work that we have in front of us will not be easy, and it will be 
necessary to drive change throughout the system. We owe it to the 
historically neglected communities. We owe it to our health. And we owe 
it to our children, to do everything in our power to keep them from 
having to correct these types of mistakes.
    Thank you once again, Chair Larsen and Ranking Member Graves, for 
allowing me to be here today. I look forward to partnering with you to 
bring forth a new frontier in aviation and transportation. We are ready 
to lead alongside you.

    Mr. Larsen. Thank you, Mayor Garcetti, I appreciate your 
testimony.
    And now I will turn to Mr. Grimsley. Mr. Grimsley, you are 
recognized for 5 minutes.
    Mr. Grimsley. Chairman Larsen and Ranking Member Graves, 
thank you for inviting me to testify today. It is an honor to 
speak with you about the historic and exciting work underway 
within the Choctaw Nation to help safely advance strong 
technology into our National Airspace System.
    In addition to serving as the executive director of 
Advanced Technology Initiatives with the Choctaw Nation, I also 
serve on the board of directors of the Commercial Drone 
Alliance. The efforts of our team have clearly demonstrated 
some of the quantifiable benefits to our own communities in 
using drone technology. Public safety and agriculture are 
particularly impactful applications for us. We are also finding 
that drones can reduce the risk of injury to workers, improve 
productivity, and assist first responders.
    In 2018, the Choctaw Nation made history by becoming the 
first and only Tribal government to be selected by the U.S. 
Department of Transportation to participate in the Drone 
Integration Pilot Program, or IPP, as well as the first Tribal 
government to be recognized by the FAA as a public aircraft 
operator.
    Last year, the Choctaw Nation was invited to continue our 
collaboration with the FAA as part of the BEYOND Program, which 
is focused on advancing beyond visual line of sight drone 
operations, as well as cargo delivery by drone. As part of 
these programs, we have been focused on community engagement 
with public stakeholders, which has been both productive and 
insightful.
    Our Tribe has an interest in emerging technologies as a 
potential equalizer for rural and underserved communities. 
These advancements help communities such as ours make dramatic 
strides in improving overall quality of life. The technology 
that supports drones will continue to advance rapidly and in 
ways that enable the safe, efficient, secure, and 
environmentally responsible use of the airspace.
    The U.S. safety regulatory system for civil aviation has an 
enviable record of stewardship over the busiest and most 
complex aviation system in the world. But in order to sustain 
this vibrancy, our regulatory system needs to evolve to enable 
and support emerging technologies and new entrants into the 
airspace. Although we have made progress in the IPP and BEYOND 
in understanding how our regulatory system needs to evolve to 
integrate drones, our policies lag behind the pace of 
technological advances. This hinders the industry 
unnecessarily.
    Notwithstanding the best efforts of regulators today, drone 
operations remain highly limited and reliant on a patchwork of 
unwieldy, one-off regulatory waivers, rather than a stable and 
standardized regulatory foundation. Without regulatory 
modernization, the drone industry faces uncertainty that 
discourages investment and threatens the survival of innovative 
companies here in the United States.
    Unfortunately, our Nation is at risk of losing our aviation 
leadership role in the world unless we take bold action to move 
into the better future that awaits. Drone technology continues 
to develop, but it is ready now to safely do more than it has 
been able at this time.
    For communities like ours that have already made 
investments in safety infrastructure, drones can offer a more 
economical, cleaner, and safer alternative to surface 
transportation for mobility needs with occupations such as 
cargo delivery by drone. Moreover, we have a relatively less 
busy and complex airspace for drone traffic to traverse. Since 
our geography and others like it is of relatively more benefits 
and relatively less air traffic complexity, regulators should 
be amenable to broadly enabling drone operations in locations 
such as ours.
    Our Nation has long led the world in developing and safely 
deploying aviation technology. We are at risk of losing that 
leadership role with drones. A more conducive regulatory 
environment that enables the U.S. drone industry to scale would 
help build a stronger U.S. manufacturing base and research 
ecosystem serving our country's economic, safety, and security 
interests.
    We simply cannot afford to have U.S.-based companies move 
offshore to develop their technologies in more accommodating 
regulatory environments. We need continuing action and 
oversight by Congress to move forward so that communities such 
as ours can fully benefit from emerging transportation 
technologies. Our safety regulatory system needs specific 
mandates that clearly reflect the intent of Congress, and we 
need accountability of our safety regulatory system to achieve 
those mandates.
    Congress can begin by codifying and funding the FAA's 
BEYOND Program. We must ensure that the lessons we collectively 
learn from these pilot programs translate efficiently into 
permanent reform to our regulatory system. We believe the 
future is bright and that our quality of life can be enhanced 
by responsibly harnessing drone technology, but we need the 
Federal Government's support to ensure that these technologies 
flourish and provide the benefits to society that we know are 
possible.
    Thank you again for having me with you today, and I will be 
happy to answer any questions that you may have.
    [Mr. Grimsley's prepared statement follows:]

                                 <F-dash>
Prepared Statement of James L. Grimsley, Executive Director of Advanced 
           Technology Initiatives, Choctaw Nation of Oklahoma
    Chairman Larsen and Ranking Member Graves:
    Thank you for inviting me to testify before the House Committee on 
Transportation and Infrastructure, and Subcommittee on Aviation. It is 
an honor to speak with you today about the historic and exciting work 
underway within The Choctaw Nation of Oklahoma to help safely advance 
commercial drone operations into our national airspace system. Our 
efforts have thus far clearly demonstrated some of the quantifiable 
benefits to society from drones, with agriculture and public safety 
being examples of impactful applications for us. Among other benefits, 
we are finding that drones can reduce the risk of injury to workers, 
improve productivity, and assist first responders.
    I currently serve as the Executive Director of Advanced Technology 
Initiatives with the Choctaw Nation. The Choctaw Nation of Oklahoma is 
the third largest federally-recognized Native American Tribe, and the 
Choctaw Nation reservation is comprised of approximately 11,000 square 
miles in southeastern Oklahoma. I was fortunate to grow up in the heart 
of the Choctaw Nation, and both sides of my family have lived in that 
area for multiple generations. I have great respect and appreciation 
for the Choctaw people and Choctaw culture.
    My professional career has revolved around transportation 
technology, and I have a fascination and passion for both the 
technology and policy aspects of transportation. I serve as a 
Transportation Commissioner with the Oklahoma Department of 
Transportation, and in that role I'm involved in the oversight and 
governance of our state transportation network of highways and bridges. 
I also serve on the Board of Directors of the Commercial Drone 
Alliance. My degrees are in aerospace and mechanical engineering, and 
for the first twenty years of my career I was a technologist, but I 
became actively involved in policy about fourteen years ago. During my 
career I have also been a university research administrator, an 
executive in the defense industry, an entrepreneur, and an engineer 
with the federal government.
 Background on The Choctaw Nation of Oklahoma Drone Integration Efforts
    In 2018, the Choctaw Nation made history by becoming the first and 
only tribal government to be selected by the U.S. Department of 
Transportation to participate in the Drone Integration Pilot Program--
or ``IPP''. The Choctaw Nation of Oklahoma was selected as part of a 
group of lead participants consisting of tribal, state and local 
governments to focus on safely accelerating the integration of drones 
into our national airspace system. This was historic for the Choctaw 
Nation since, prior to the IPP, tribal governments had not been 
eligible to participate in many technology-related federal government-
sponsored pilot programs. The Choctaw Nation of Oklahoma is also the 
first tribal government to be recognized by the FAA as a public 
aircraft operator or ``PAO''. We are proud to have an active role in 
the safe integration of drones into the national airspace system to 
support important applications for rural and tribal communities, where 
we believe that drone technology can improve our quality of life, 
health, and safety.
    In 2020, the Choctaw Nation was invited to continue our 
collaborative relationship with the FAA as part of the FAA BEYOND 
program, which is focused on advancing beyond visual line of sight--or 
``BVLOS''--drone operations, as well as cargo delivery by drone. As 
part of both the IPP and BEYOND, we are also focused on community 
engagement with public stakeholders. It has been exciting to be part of 
the Choctaw Nation team as we have accomplished many historic firsts 
for tribal governments in this exciting area of emerging aviation 
technology.
    Although we have made progress in the IPP and BEYOND in 
understanding how the aviation safety regulatory system needs to evolve 
to integrate drones into our national airspace, overall our regulatory 
system is lagging behind the pace of technological advances, hindering 
the industry unnecessarily. Notwithstanding the best efforts of 
regulators to date, many advanced drone operations remain highly 
limited and highly reliant on a patchwork of unwieldy, one-off 
regulatory waivers rather than a stable and standardized regulatory 
foundation. Obtaining these limited waivers can be very time-consuming, 
and getting a waiver once will not necessarily make it easier to get 
the next waiver. Absent regulatory modernization, industry faces 
regulatory uncertainty that discourages investment and threatens the 
survival of companies attempting to innovate here in the United States. 
Sadly, we have witnessed very well-organized companies that were 
staffed with very qualified technologists abruptly close and cease 
operations, defeated by the lack of a clear regulatory path that 
enables regular operations.
              Importance of Emerging Aviation Technologies
    The Choctaw Nation of Oklahoma has an interest in emerging 
technologies because we see technology as a potential equalizer for 
opportunities in rural and underserved communities. As we have seen in 
the past, technology advancements can often help rural and remote areas 
make dramatic strides in improving the quality of life for communities. 
In my own lifetime, I have witnessed this with telecommunication 
technology, where today even the most remote areas of the globe can be 
connected through technology, and access to knowledge has expanded 
immeasurably.
    Drones are the result of technological advancements in many areas. 
Distributed electric propulsion allows us to design drones that can 
weigh less than a pound as well as drones that weigh thousands of 
pounds, and virtually any size in between. Advances in electronics and 
onboard avionics allow an ever-improving level of safety, 
controllability, and reliability of these systems. Advances in machine 
learning and image processing can allow the development of systems that 
can analyze and respond to a physical environment in ways that a human 
physically cannot. The technology that supports drones continues to 
advance quickly, and in ways that can be harnessed to advance the safe, 
efficient, secure, and environmentally responsible use of the airspace.
    The U.S. safety regulatory system for civil aviation has an 
enviable record of stewardship over the busiest and most complex 
aviation and airspace system in the world. To sustain this vibrancy, 
however, that regulatory system needs to evolve to enable and support 
emerging technologies and new entrants into the national airspace 
system. Our aviation safety regulatory framework is premised in large 
part on human eyesight as well as humans communicating with each other 
one at a time to safely coordinate flight activities. When humans are 
no longer in the aircraft, and the aircraft flies beyond the line of 
sight of a remote operator or pilot, then our safety regulatory system 
is simply not yet accommodating. Modernizing the regulatory framework 
is crucial in order to fully avail ourselves of the many potential 
benefits of emerging drone technology.
    We are also at a time in our history when there is an increasing 
level of overlap between advanced ground transportation technology and 
emerging aviation technology. The growing prevalence of electric 
propulsion in both ground and aerial vehicles means that we will have 
common infrastructure challenges related to power availability, battery 
technologies, and charging stations. This will directly impact areas 
such as airport construction and modernization. Low-altitude aviation 
operations with drones will also benefit from broadband buildouts 
similar to the ways that advanced ground vehicles will leverage inter-
connectiveness to achieve constantly improving levels of safety and 
operational efficiencies.
 Overview of the Economic and Social Benefits of Drone Technology for 
                           Tribal Communities
    Remote and rural areas within the United States--including Native 
American tribal lands and surrounding regions--have unique challenges 
that may be addressed by the use of small drones. The three primary 
areas where drones show promise are improving efficiencies with 
agricultural production, improving public safety, and enabling 
efficient infrastructure inspections.
    It is important to note that there are also overlaps among these 
three areas. For example, not only can small drones be used to improve 
efficiency for agricultural operations, but they can also be used to 
address emergency response challenges for rural agricultural 
applications such as responding to medical emergencies that may occur 
involving large agricultural operations.
    Some aspects of using small drones for public safety applications 
will also directly benefit scientific research, particularly in our 
understanding the atmosphere at lower altitudes and studying the lower 
atmospheric boundary layer to improve understanding of severe storms 
and ultimately improving severe storm prediction and forecasting 
capabilities. This improved understanding can in turn benefit the 
development of UAS Traffic Management (UTM) systems by creating drone 
management and safety systems that can accommodate dynamic weather 
conditions and flight conditions at low altitudes and at finer 
resolutions than is currently possible.
         Addressing Rural and Remote Infrastructure Inspection
    Traditionally, piloted helicopters have been used to inspect power 
lines as part of maintenance programs. These types of inspections can 
sometimes cost $1,000 or more \1\ per hour, and can put the lives of 
the pilot and crew at risk of serious injury or death (an inspection 
typically requires both a pilot and also an observer/inspector within 
the helicopter). Drones can cut costs of inspections and also reduce 
risks to human life since the operations are ``low, slow and near the 
live wire''.
---------------------------------------------------------------------------
    \1\ https://ac.els-cdn.com/S2212827113006823/1-s2.0-
S2212827113006823-main.pdf?_tid=ca
7d5d82-8ba4-4144-9f45-c2533115c2c4&acdnat=1527878253_f77e8b4ca794b4b5e
553a30add32eb53
---------------------------------------------------------------------------
    Tribal governments are also growing increasingly reliant on small 
drones for a variety of GIS-related tasks to support tribal government 
operations and needs. Within The Choctaw Nation of Oklahoma GIS 
operations currently, a small drone flight operation can cost $500 each 
(including costs for transportation, labor, supplies, etc.). When 
operated under a visual line of sight, or VLOS scenario, a typical GIS 
mapping or inspection mission can require multiple flights. For 
example, a single beyond visual line of sight (BVLOS) flight with a 
range of 2.5 miles could replace as many as five (5) or more VLOS 
flights, resulting in as much as a 5-to-1 cost saving. When BVLOS 
operations are enabled for GIS operations, higher productivity and 
lower operational costs can be achieved.
          Addressing Delays in Medical Response in Rural Areas
    In 2017, Reuters Health reported on the results from a study \2\ 
published in the Journal of the American Medical Association (JAMA) 
Surgery that analyzed the differences in wait times for emergency 
medical services between urban and rural areas. Whereas wait times 
averaged 7 minutes in urban settings, rural settings had wait times of 
14.5 minutes or more (and some wait times could be up to 30 minutes or 
more for rural areas). For very large agricultural operations in very 
remote areas, wait times could be significantly more than 30 minutes.
---------------------------------------------------------------------------
    \2\ https://www.reuters.com/article/us-health-emergency-response-
times/be-prepared-for-ambulance-wait-times-idUSKBN1A42KQ
---------------------------------------------------------------------------
    In the case of heart attacks, extended wait times can prove fatal. 
For example, it has been reported that access to automatic external 
defibrillators (AEDs) when used swiftly in the first 3-5 minutes of a 
person collapsing have been shown to dramatically increase the survival 
rate of people suffering from cardiac arrest \3\, since brain cells 
begin to die after 4-6 minutes of oxygen deprivation. Unfortunately, 
wait times in rural areas more often prove problematic and fatal in 
these situations.
---------------------------------------------------------------------------
    \3\ http://www.cprandfirstaid.net/cpr/aed-guidelines.html
---------------------------------------------------------------------------
    Another important health challenge in rural and remote areas is 
emergency delivery of insulin, epinephrine, or related drugs and 
medications that can be critical for treating emergency medical 
conditions. Even if medical professionals and first responders are on 
the scene of a medical emergency, their response can be hindered by 
lack of available equipment or supplies.
    Small drones can fly in direct paths and arrive on scene much 
faster than ground vehicles such as ambulances. Assuming a 30 second 
preparation time before launch, a small drone can easily reach any 
location within a 4.5 mile radius of launch within 5 minutes (or less), 
providing more than a 63 square mile area that can have a response of 5 
minutes or less. However, these scenarios would typically require 
beyond visual line of sight (BVLOS) and also possibly night operation 
capabilities.
          Addressing Farming and Ranching Occupational Hazards
    According to the 2016 Census of Fatal Occupational Injuries \4\, 
farming and agricultural operations ranked 8th in the list of ``most 
dangerous jobs'' in 2016, with an average of 23.1 fatal injuries per 
100,000 workers. Additionally, the CDC reports that every day about 100 
agricultural workers suffer a ``lost-work-time'' injury \5\.
---------------------------------------------------------------------------
    \4\ https://www.bls.gov/news.release/pdf/cfoi.pdf
    \5\ https://www.cdc.gov/niosh/topics/aginjury/default.html
---------------------------------------------------------------------------
    In 2017, the National Children's Center for Rural and Agricultural 
Health and Safety released a report card and estimated that every three 
days a child dies in agricultural-related incidents \6\. Around 17% of 
those deaths involved motor vehicles, including all-terrain vehicles 
(ATVs). For ``working youth'', tractors were the leading source of 
fatalities followed by ATVs.
---------------------------------------------------------------------------
    \6\ https://agfax.com/2017/04/24/farm-and-kids-every-3-days-a-
child-dies-in-ag-related-accident/
---------------------------------------------------------------------------
    Livestock and herd-based agricultural operations have unique 
occupational hazards. These types of operations typically require a 
significant amount of surveillance activities and travel/movement on 
the ground, including:
    <bullet>  Visual inspection/observation/surveillance using ground 
transportation (ATVs, farm trucks, etc.) to assess complete inventory 
status and overall health
    <bullet>  Locating animals that are separated from the herd that 
make them vulnerable to attacks by predators or other potential risks
    <bullet>  Periodic inspection of very long fence lines to ensure 
the integrity of the fencing system
    <bullet>  Identification and tracking of dangerous predators and/or 
invasive species such as wild feral hogs
    <bullet>  Surveillance and inspection of water sources and 
feedstocks to ensure integrity
    <bullet>  Assessment and management of grazing patterns and plans 
to ensure healthy use of land and resources

    Searches for lost animals that have separated from the herd can be 
time-consuming, disruptive to ongoing operations, and expensive. For 
example, a cow may separate from the herd when she is about to give 
birth, which can put the cow and calf at risk of attack and death by 
predators. Complications with the birth can also put both animals at 
risk. The loss of a cow/calf combination can result in a financial loss 
of $4,000 or more for the agricultural producer based on beef prices. 
Cattle producers can spend a significant amount of time searching for a 
lost herd animal, many times at night, which increases the risk of 
injury or death to the agricultural workers that are involved. There 
are additional costs due to the depreciation of ground vehicles used in 
these searches, since often times farm trucks or ATVs are used to cover 
remote rough terrain.
    Many agriculture-related injuries and deaths occur in remote rural 
locations. As noted earlier, rural and remote locations have much 
longer emergency management response times, since it physically takes 
longer for an ambulance or first responder to arrive at the scene of an 
accident or injury. Injuries that occur with livestock and herd 
operations can have even worse response times since in addition to 
limited roads and highways in the rural locations, the actual scene of 
the injury or accident may be at a significant distance from any 
roadways and not easily accessible by vehicle. For example, depending 
on the location within the Choctaw Nation's own 44,000+ acre ranch 
operation, it could take up to an hour or more to reach a remote site 
within the ranch boundaries using ground vehicles. As noted earlier, 
these types of delayed response times can prove fatal in some 
situations.
               Impacts on STEM and Workforce Preparation
    A very positive impact of the IPP and BEYOND on The Choctaw Nation 
of Oklahoma has been with science, technology, engineering and 
mathematics (STEM) and future workforce development. The visibility of 
our drone research and testing activities has stimulated interest for 
our K-12 students and our STEM educators. The Choctaw Nation of 
Oklahoma has leveraged this interest to create drone camps for our 
Choctaw youth as well as other opportunities to support STEM activities 
within our region and to work to ensure a future workforce pipeline to 
support emerging aviation technologies.
    Many of the public schools within our region are in historically 
impoverished areas that have been underserved. The visibility of our 
IPP and BEYOND activities coupled with the heightened interest in STEM 
as a result of those activities, is enabling us to reach students at an 
early age where positive STEM experiences and exposure to STEM 
opportunities can help instill confidence and strengthen interest in 
future STEM careers. STEM outreach and future workforce development 
will remain a priority of our emerging aviation efforts within The 
Choctaw Nation of Oklahoma.
               Enhancing Weather Research and Forecasting
    A major challenge for improving the predictions and forecasts for 
severe storms is achieving a better understanding of the lower 
altitudes of the atmosphere, particularly the lower atmospheric 
boundary layer. In 2009, the National Research Council \7\ stated the 
following:
---------------------------------------------------------------------------
    \7\ https://www.nap.edu/download/12540

        ``The vertical component of U.S. mesoscale observations is 
        inadequate. Assets required to profile the lower troposphere 
        above the near-surface layer (first 10) are too limited in what 
        they measure, too sparsely or unevenly distributed, sometimes 
        too coarse in vertical resolution, sometimes limited to 
        regional areal coverage, and clearly do not qualify as a 
        mesoscale network of national dimensions. Likewise, vertical 
        profiles below the Earth's surface are inadequately measured in 
        both space and time. The solutions to these particular 
        deficiencies require leadership and infrastructure investments 
---------------------------------------------------------------------------
        from each of the pivotal federal agencies.''

    For the past several years, researchers at Oklahoma State 
University (OSU) and the University of Oklahoma, in collaboration with 
National Oceanographic and Atmospheric Administration (NOAA) and the 
National Science Foundation (NSF) have conducted research to determine 
the feasibility of using small drones to ``profile'' and observe 
atmospheric conditions at low altitudes in a repeated manner. The 
Choctaw Nation of Oklahoma is proud to be a collaborative partner with 
these institutions as part of this research. The results have been very 
promising thus far, and it is believed that this improved data 
collection could have a profound impact on the accuracy of weather 
models and our overall understanding of the atmosphere at the lowest 
altitudes (which are most critical for understanding severe weather 
phenomena). The potential benefits of monitoring and measurement of the 
lower altitude atmospheric conditions could result in extended warning 
times for severe weather, including tornadoes, and also improved 
accuracy when issuing severe storm warnings. On average, dozens of 
deaths occur in the United States each year from tornado outbreaks \8\.
---------------------------------------------------------------------------
    \8\ https://blog.nssl.noaa.gov/nsslnews/2009/03/us-annual-tornado-
death-tolls-1875-present/
---------------------------------------------------------------------------
    In addition to public safety benefits arising from improved 
understanding of lower altitude weather conditions, it is also likely 
that this information and understanding will improve path planning and 
routing for low altitude drone operations, particularly when operating 
within a future UTM framework. Smaller drones are more susceptible to 
lower-intensity weather events like gustiness. Current weather models 
utilize grids that are too coarse for practical benefit to UTM systems. 
Improved observations and monitoring can assist in developing more 
refined and accurate weather models for low altitude observations, 
which ultimately can enhance safety and reliability of small drone 
operations.
    In order to utilize small drones for observation and monitoring of 
the lower boundary layer in a meaningful way, it will be necessary to 
move away from visual line of sight (VLOS) operations with ground crews 
and toward ``one-to-many'' and ``unattended'' operational scenarios. 
Therefore, ``one-to-many'' and BVLOS challenges are the significant 
regulatory hurdles to enabling widespread use of small drones for 
regular atmospheric vertical profiling on a scheduled and recurring 
basis. These ``vertical atmospheric profiling'' operations will 
represent a unique type of BVLOS mission and operation, since the small 
drones will often be tightly-constrained within a cylindrical volume of 
the lower altitudes, and the operations will occur on known intervals 
and schedules (such as regularly every half-hour or hour).
    Improved weather observations will have two potentially 
quantifiable impacts: 1) potential reduction in lives lost due to 
severe weather (when wide-scale monitoring and observations are in 
practice and use and data can be successfully ingested into predictive 
weather models); and 2) improvement in planning and routing for 
operations like drone deliveries (reduction in the loss of platforms 
and payloads due to gustiness and low-intensity weather phenomena).
                 Specific Recommendations for Congress
    In conclusion, we need support and mandates from Congress to more 
efficiently transition the lessons that we learn from initiatives like 
the IPP and BEYOND into permanent reform to our regulatory system. We 
simply cannot remain in a regulatory state where operations are only 
enabled by limited case-by-case exemptions and waivers, since this is 
not a long-term practical approach to managing regular expanded 
aviation operations.
    To accomplish this, I offer two specific recommendations for 
consideration to enable a safe acceleration of drones into the national 
airspace system. For additional recommendations, please see the 
Commercial Drone Alliance's 2021 UAS and AAM policy priorities 
documents, included as an appendix to this statement.
    First Recommendation: Codify the BEYOND Program and Provide 
Funding. The first recommendation that I offer is for Congress to 
codify the BEYOND program, and to provide a statutory foundation for 
the program with clear congressional direction and oversight. The 
BEYOND lead participants have made--and are making--substantial 
investments of resources, money and time to support research and 
testing to safely integrate drones into the national airspace. Any 
legislation addressing BEYOND should include provisions for reporting 
and accountability of the FAA directly to Congress. Although the legacy 
FAA drones test sites are eligible for grant funding from NASA and the 
FAA, the BEYOND lead participants are often excluded from consideration 
for funding from programs such as the UTM Pilot Program (UPP). The 
BEYOND lead participants should also be eligible to receive funding 
from the FAA and NASA to support more generalized integration efforts 
and be allowed to fully participate in these initiatives. The BEYOND 
lead participants are making important contributions to a critical 
national policy challenge, and it is important that these entities be 
eligible for federal funding and support.
    Second Recommendation: Enable Site-Specific Regular Operations. The 
second recommendation that I offer is to mandate that the FAA 
accelerate opportunities for communities and sites that can demonstrate 
the ability to safely scale regular operations, such as drone delivery. 
Some sites, such as The Choctaw Nation of Oklahoma, have already made 
significant investments in ground-based radar and other safety 
infrastructure and mitigations to support safe drone operations today. 
This can serve as an opportunity for industry to innovate and 
demonstrate economic viability by allowing these sites to move forward 
and scale their low-risk low altitude drone operations.
    The Choctaw Nation of Oklahoma has made significant investments 
based on our own bold and ambitious vision and plans. We believe the 
future is bright, and that our quality of life can be enhanced by 
responsibly harnessing emerging aviation technologies. But we need the 
federal government's full support to ensure that these technologies 
flourish and provide the benefits to society that we strongly believe 
are possible.
                                appendix
    Commercial Drone Alliance's 2021 UAS and AAM Policy Priorities 
                               Documents

                       Policy Priorities for 2021

    Proposed Executive Actions for the First 100 Days of the Biden-
                         Harris Administration
    In January 2021, the Biden-Harris Administration will have a 
significant opportunity to leverage and enable the fast-growing 
commercial drone industry for the benefit of all Americans. The 
Commercial Drone Alliance \1\ has identified several concrete actions 
the White House and Executive Branch can take on Day 1 or within the 
first 100 days of 2021 that will support the continued revitalization 
of the U.S. economy, keep Americans healthy, and enable a safe return 
to work--all while ensuring America's continued leadership in aviation 
innovation and enhancing the growth and development of the U.S. 
commercial drone industry.
---------------------------------------------------------------------------
    \1\ The CDA is an independent non-profit organization led by key 
leaders in the commercial drone industry. The CDA brings together 
commercial drone end-users, manufacturers, service providers, advanced 
air mobility companies, drone security companies, and vertical markets 
including oil and gas, precision agriculture, construction, security, 
communications technology, infrastructure, newsgathering, filmmaking, 
and more. The CDA works with all levels of government to collaborate on 
policies for industry growth and seeks to educate the public on the 
safe and responsible use of commercial drones to achieve economic 
benefits and humanitarian gains. Learn more at 
www.commercialdronealliance.org.
---------------------------------------------------------------------------
    Drones can provide extensive benefits and essential services to 
American citizens, consumers, and businesses, such as:
    <bullet>  Delivering critical supplies, life-saving medical 
equipment, and medicines;
    <bullet>  Assisting with fire, accident, public safety and natural 
disaster response, crop assessments, search and rescue missions, and 
newsgathering;
    <bullet>  Inspecting and monitoring railroad tracks, bridges, power 
lines, energy facilities, industrial equipment, wind turbines, 
communications towers, parked aircraft, and other critical 
infrastructure.

    The commercial unmanned aircraft systems (UAS or drone) industry 
has been operating safely for years and has a strong history of working 
closely in collaboration with the federal government to safely and 
securely integrate drones into our National Airspace System (NAS). The 
executive actions proposed below will provide vast benefits to the 
American public while promoting safety and security, fostering the 
continued growth of the U.S. economy, enabling the U.S. to continue to 
lead the world in aviation innovation, and supporting the advancement 
of critical UAS, Urban Air Mobility (UAM) and other Advanced Air 
Mobility (AAM) technologies here in the United States. The actions we 
propose here are actions that can be taken by the Executive Branch in 
the short term focused on UAS industry growth; a separate CDA document 
proposes short-term executive actions to promote the UAM and broader 
AAM industry. CDA will follow up with longer term legislative 
priorities separately.
                  Support America's COVID-19 Response
    <bullet>  Enable Drone Delivery Operations at Scale. Beyond 
vaccines and medical supplies, Americans are increasingly seeking 
contact-free delivery service. Industry is evolving quickly to meet 
these needs--but the regulatory frameworks struggle to keep pace. The 
Federal Aviation Administration (FAA) should accelerate efforts to 
integrate routine Beyond Visual Line of Sight (BVLOS) operations into 
the National Airspace System. To safely and broadly enable UAS delivery 
operations to communities in need, the White House should direct the 
FAA to provide a scoring matrix system that identifies criteria and 
assigns point values in order to create a transparent, predictable 
process for UAS operators to attain air carrier status. If necessary, 
the White House should direct the Office of Information and Regulatory 
Affairs to fast-track regulatory changes. Streamlining of UAS-critical 
processes will promote innovation while ensuring that technological and 
safety advances are implemented efficiently.
    <bullet>  Broadly Enable Expanded Commercial Drone Operations. 
Broadly enabling flights over people, BVLOS, and at night in a safe and 
secure manner is critical to unlocking the benefits of using drones for 
many commercial and public safety tasks, including buttressing the 
nation's COVID-19 response. This will also foster new job opportunities 
within the industry. The White House should require the FAA to enable a 
safe and workable framework for operations over people, including over 
moving vehicles. The White House should also direct the FAA to 
expeditiously prioritize expansion of true BVLOS operations by 
providing guidance and a detailed framework for building an acceptable 
safety case for such operations that do not require visual observers.
    <bullet>  Unlock High-value, Low-Altitude Operations. The 
Administration should unlock the airspace by starting from the ground 
up--literally. On Day 1, the President should issue an Executive Order 
directing the FAA to enable low-altitude BVLOS operations to inspect 
critical infrastructure across the country, such as bridges, energy 
facilities, and railroads. Low-altitude BVLOS operations would offer 
incredible value, enabling state DOTs and commercial operators to 
inspect infrastructure more effectively, at a lower cost, while 
maintaining social distancing requirements that have impacted 
inspection crews. BVLOS flights would be limited to a low altitude 
within close proximity of the operator. Authorizing commercial 
operators to conduct these operations within a framework designed to 
ensure safety would buttress our nation's COVID-19 response, propel 
innovation and efficiency and advance U.S. leadership in aviation.
    <bullet>  Launch Vaccine Delivery UAS Rapid Response Task Force. 
Once the nation has access to a vaccine to combat COVID-19, it will be 
critical to immediately distribute the vaccine to the vast majority of 
all Americans, including those in hard-to-reach areas. The 
Administration should launch a UAS Vaccine Delivery Rapid Response Task 
Force with a focus on the areas hardest hit by the coronavirus to 
enable UAS delivery of vaccines and other critical supplies to 
vulnerable and difficult-to-reach populations, including to remote, 
rural, and tribal areas. To ensure success of the program, the FAA must 
provide clear benchmarks for UAS vaccine delivery approvals to enable 
rapid response efforts.
                       Put Americans Back to Work
    <bullet>  Promote State/Local Planning for UAS Activities. To put 
Americans back to work and enable innovation to prosper safely here at 
home, we must support state and local governments as they undertake 
strategic planning for ``next-generation'' infrastructure systems. As 
air transportation needs evolve, vertiports, dronepads, and digital 
systems will become increasingly necessary. Direct NASA and the FAA to 
work with industry to provide guidance to enable states and cities to 
plan for UAS/UAM activities. In addition, match funding and provide 
logistical support for state and local governments to pilot UAS/UAM 
infrastructure and other programs that promote innovation.
    <bullet>  Grow U.S. UAS Manufacturing Capabilities and the Supply 
Chain System. In an effort to put Americans back to work and promote 
American competitiveness, the White House should work with NASA, DOD, 
DOT, FAA, DOC and other agencies to immediately grow and fast-track UAS 
manufacturing capabilities in the United States. Relatedly, in order to 
stimulate the UAS marketplace, the White House should support NASA's 
ongoing efforts to build a reliable U.S. UAS supply chain system and to 
identify gaps and vulnerabilities in the current supply chain system 
for unmanned vehicles, as well as downstream components. Collaboration 
between the federal government and industry on these important issues 
is critical to open the industry safely and securely.
    <bullet>  Launch Workforce Initiative to Transition Veterans into 
the Commercial Drone Sector. Direct the FAA, Veterans Administration 
(VA), and White House to coordinate with private industry on the 
development of a program aimed at recruiting experienced veterans into 
jobs within the civil drone industry. This initiative would help put 
experienced veterans back to work and leverage their skills and 
knowledge to benefit the American public and the UAS industry.
    <bullet>  Promote Diversity in the UAS Industry. Work with and 
incentivize private industry to attract diverse talent to the fast-
growing and emerging UAS industry. Ensuring a wide range of 
experiences, perspectives, and skills in the industry will grow the 
economy while providing better solutions and driving innovation and 
creativity for the benefit of the American public.
                             Enhance Safety
    <bullet>  Empower the FAA's UAS Integration Office. Empower the UAS 
Integration office to become the office of primary responsibility for 
most UAS-related waivers and approvals. The UAS Integration Office is a 
champion for safe and secure UAS integration, but currently lacks the 
internal authority necessary to maximize its effectiveness. The White 
House should immediately empower the UAS Integration Office to ``own'' 
certain regulatory approvals.
    <bullet>  Implement a Comprehensive Remote Identification 
Framework. Remote Identification (remote ID) is a crucial step towards 
expanded and scalable drone operations, which is the key to unlocking 
the enormous potential of commercial UAS operations here in the U.S. 
Implementation of a comprehensive remote ID framework that supports all 
airspace users will enable future development and commercialization of 
UAS operations.
    <bullet>  Enhance UAS Industry Access to Spectrum. The successful 
realization of the public benefits of UAS operations requires access to 
spectrum to ensure the full integration of UAS into the NAS, and the 
corresponding public benefits. The White House should direct the FCC to 
work quickly to enable all available communications technology for the 
industry, for the benefit of American society.
    <bullet>  Prioritize UAS Experience in the Executive Branch. In 
considering new political appointments, hire into senior positions 
within the White House and relevant executive branch agencies personnel 
that understand and appreciate the value and safety benefits of UAS 
operations to government, industry, and the American public.
    <bullet>  Promote Global Standardization and Harmonization on UAS 
Regulations. Global standardization and harmonization of requirements 
and approvals for the commercial drone industry will enhance safety and 
promote the ability of U.S. companies to operate and sell UAS-related 
products and/or technology abroad. Global standardization will also 
support U.S. companies in the global UAS industry supply chain.
    <bullet>  Streamline FAA Processes Governing UAS Operations. 
Streamline FAA processes to promote transparency, enhance regulatory 
accountability and consistency, and improve communication around 
regulatory approvals, which will promote safety and enable expanded 
operations that benefit the American public. The FAA's review process 
must recognize that small UAS (those below 55 pounds) present far lower 
levels of risk that manned aircraft. Indeed, many drones used to 
conduct highly valuable inspections of critical infrastructure weigh 
less than five pounds. Even so, the FAA continues to apply incongruous 
standards and approaches designed for manned aircraft to very small 
drones performing safe and highly effective operations. That must 
change. U.S. leadership in aviation and Artificial Intelligence hangs 
in the balance.
    <bullet>  Appoint a Domestic Drone Interagency Coordinator. Appoint 
a Domestic Drone Interagency Coordinator to coordinate, streamline, and 
improve efficiencies around interagency processes related to UAS 
integration. UAS is a fast-growing, high-value sector of the economy. 
At present, interagency disagreements sometimes linger longer than 
necessary. Although these disagreements are part of the governing 
process, a Domestic Drone Interagency Coordinator could help to forge 
consensus, respond to concerns, and drive the regulatory system and the 
industry forward. Creating such a position would advance innovation and 
maintain U.S. leadership in the rapidly expanding drone economy.
    <bullet>  Implement UAS Traffic Management. Direct the FAA to 
expeditiously implement UAS traffic management (UTM), which will safely 
enable new types of UAS operations in low altitude airspace. UTM is a 
critical safety and security tool comprised of services and protocols 
offered by qualified providers to drone operators, and it will enable 
advanced drone operations by digitalizing current air traffic control 
procedures. These services will help the drone industry to conduct 
operations Beyond Visual Line of Sight, deliver packages, inspect 
infrastructure, and conduct life-saving humanitarian missions. Early 
successes by the FAA and NASA have yielded globally-recognized UTM 
services and form the basis for international adoption. The United 
States should continue to support efforts to validate and 
operationalize the development of UTM capabilities and standards.
                   Foster Innovation and Competition
    <bullet>  Enable Data Sharing to Lift Barriers to Commercial Drone 
Industry Growth. Open the resources of the federal government to spur 
innovation, including by sharing radar and other relevant data 
collected by the federal government while maintaining appropriate 
privacy and security measures. Data-sharing will lift critical barriers 
to industry growth and enable the UAS industry to help respond to the 
COVID-19 crisis. Lack of access to federal government data has 
inhibited the ability to identify trends and leverage the collective 
experience of the UAS industry to drive innovation and 
commercialization. The White House should direct FAA to launch a joint 
working group with industry to identify key information needs, data 
priorities, and recommended access processes.
    <bullet>  Enable Large UAS. Large UAS have tremendous potential to 
conduct operations safely and economically with significant public 
benefits--from agricultural operations to natural disaster assessments, 
public safety activities to commercial delivery, to passenger 
transportation and much more. However, to enable these significant 
benefits, clarity is needed. The White House should therefore direct 
the FAA to expeditiously establish a clear regulatory roadmap and 
provide regulatory certainty for certification and operation of large 
UAS.
                            Promote Security
    <bullet>  Protect Critical Sites. UAS security is an issue of 
national importance. Section 2209 of the FAA Extension, Safety and 
Security Act of 2016 requires the FAA to establish a procedure by which 
operators or proprietors of fixed site facilities can prohibit or 
restrict the operation of UAS in close proximity to such facilities. 
Once implemented, this important requirement will enhance UAS security 
efforts, yet the deadline for rulemaking has come and gone. The White 
House should require the FAA to implement Section 2209 immediately.
    <bullet>  Implement a ``Known Operator'' Program for UAS. While 
innovation has moved quickly forward, policymaking has lagged behind. 
The White House should direct the FAA or DHS to implement a ``Known 
Operator'' program to enhance safety and security protocols, promote 
regulatory compliance and incentivize authorized commercial operators 
(or public safety operators) to proactively gain the trust of public 
officials and the public. This program will enable positive use cases 
for commercial UAS while prioritizing safety and security. Such a 
program could be similar in concept to the TSA Precheck system and the 
TSA Known Shipper Program.
    <bullet>  Enhance Drone Security. It is a national security problem 
that, notwithstanding security issues around rogue drone use at 
sensitive sites, private industry and state and local public safety 
agencies do not have the legal ability to broadly test various counter-
UAS technologies here in the United States. The White House should seek 
authority to enable the safe expanded testing of counter-UAS 
technology. In doing so, the White House should direct the FCC to issue 
experimental licenses to counter-UAS providers to allow them to test 
radio frequency (RF) based counter-UAS systems in areas that will not 
interfere with the public.
    <bullet>  Streamline Drone Security Efforts. The national security 
agencies should publicly share a UAS Security National Plan to develop 
and review the federal government's counter-drone capabilities with an 
implementation timeline, as well as relevant goals over the next five 
years. The National Plan would document counter-UAS and air domain 
awareness requirements, and provide an implementation plan inclusive of 
funding, programs, and support for appropriate expanded counter-UAS 
authorities.
                  Promote U.S. Leadership in Aviation
    <bullet>  Demonstrate Leadership in Global Aviation. The United 
States must swiftly implement enabling UAS regulations, which are 
necessary to allow innovation to safely scale and to regain U.S. 
leadership in aviation innovation. It has been five years since there 
has been any significant regulatory action to enable drone use in the 
U.S., while other countries have raced ahead, including the European 
Union, Canada, Australia, and many others. The White House can also 
demonstrate continued U.S. leadership in global aviation and UAS 
integration specifically by immediately appointing a U.S. 
representative to the International Civil Aviation Organization, a 
specialized agency of the United Nations which supports a safe, 
efficient, secure, economically sustainable and environmentally 
responsible civil aviation sector.
    <bullet>  Integrate Drones into the NASA STEM Engagement Program. 
Direct NASA to incorporate drones into its STEM Engagement Program, 
which is designed to build a diverse future STEM workforce by engaging 
students in authentic learning experiences with NASA people, content, 
and facilities. Work with industry to identify unique educational 
opportunities (such as university apprenticeships) and public outreach 
initiatives that will enhance public understanding of UAS operations 
and support the federal government's ongoing efforts to enable safe and 
secure UAS integration.

             Urban Air Mobility Policy Priorities for 2021

    Proposed Executive Actions for the First 100 Days of the Biden-
                         Harris Administration
    In January 2021, the Biden-Harris Administration will have a 
significant opportunity to advance the adoption of new aviation 
technologies that add to our transportation solutions, reduce 
congestion along heavily burdened corridors, and demonstrate U.S. 
leadership in sustainable aviation technologies and innovation. 
Together these innovations unlock a new industry that can spur regional 
growth and U.S. jobs creation.
    The Commercial Drone Alliance (CDA) \1\ has identified several 
concrete actions the White House and Executive Branch can take on Day 1 
or within the first 100 days of 2021 that will ensure America's 
continued leadership in aviation innovation and facilitate the 
development of Urban Air Mobility (``UAM'') technology in the U.S. and 
shape the global policy and regulatory approach.
---------------------------------------------------------------------------
    \1\ The CDA is an independent non-profit organization led by key 
leaders in the commercial drone industry. The CDA brings together 
commercial drone end-users, manufacturers, service providers, advanced 
air mobility companies, drone security companies, and vertical markets 
including oil and gas, precision agriculture, construction, security, 
communications technology, infrastructure, newsgathering, filmmaking, 
and more. The CDA works with all levels of government to collaborate on 
policies for industry growth and seeks to educate the public on the 
safe and responsible use of commercial drones to achieve economic 
benefits and humanitarian gains. Learn more at 
www.commercialdronealliance.org.
---------------------------------------------------------------------------
    Electric vertical takeoff and landing aircraft (eVTOL) and other 
emerging clean-fuel aircraft technologies promise many benefits, 
including but not limited to:
    <bullet>  Reducing passenger travel times, surface congestion and 
overall transportation emissions through air taxi passenger flights in 
urban centers
    <bullet>  Connecting smaller communities to urban centers through 
new regional air mobility and complementing existing surface 
transportation systems by providing linkages to transit and intercity 
rail facilities
    <bullet>  Promoting economic development and local jobs through 
greater use of existing heliports and airports
    <bullet>  Improving mobility by integrating existing transit and 
regional commuter systems into multi-modal and multi-dimensional 
transportation platforms
    <bullet>  Additional applications including supporting emergency 
response during natural disaster emergencies and supplementing package 
delivery applications

    Executive Branch actions that promote U.S. investment and 
leadership in UAM will advance a growing U.S. industry and sustain U.S. 
leadership in aviation. CDA recommends the following focused executive 
branch initiatives to continue to drive this innovation.
                 Establish UAM Leadership & Governance
    To enhance accountability and promote innovation, the 
Administration should immediately:
    <bullet>  Create FAA Leadership Position and Office Dedicated to 
Urban Air Mobility. Immediately establish an executive-level leadership 
position and office with responsibility for promoting UAM policy 
development and addressing UAM-specific considerations including 
aircraft and operator certification pathways, battery standards, 
infrastructure standards, airspace integration and management, and 
community engagement.
    <bullet>  Prioritize UAM activities within the Office of Science 
and Technology Policy (OSTP). Appoint a dedicated UAM Senior Advisor 
within OSTP to act as a liaison between industry and federal agency UAM 
leads. Create regular forums to advance public-private partnership 
initiatives.
    <bullet>  Establish UAM Advisory Panel for DOT. Direct the 
Secretary of Transportation to assemble a UAM Advisory Panel composed 
of a diverse group of industry, local, state and Federal stakeholders 
to examine the state of the industry, identify gaps in relevant policy/
regulations, and make recommendations on ways DOT can advance progress.
    <bullet>  Pursue Public-Private Partnerships and Flexible 
Regulatory Pathways. Demonstrate continued commitment to U.S. 
investment and leadership in emerging aviation technologies through 
industry-government collaboration. Advance UAS/UAM integration in the 
National Airspace System through support for initiatives such as the 
U.S. Air Force's Agility Prime.
    <bullet>  Demonstrate Leadership in Global Aviation. Appoint a U.S. 
representative to the International Civil Aviation Organization (ICAO) 
to demonstrate global leadership in developing standardized and 
harmonized approaches for airspace and infrastructure.
                   Support Infrastructure Development
    Especially in the era of COVID-19, the Administration can spur job 
growth in state and local communities, and support the UAM/aviation 
industry, by taking the following steps:
    <bullet>  Expand Federal Financing Eligibility to Aviation. Expand 
Transportation Infrastructure Financing Improvement Act (TIFIA) 
financing program eligibility to airports, cities and developers 
seeking to build out physical infrastructure to support UAM operations.
    <bullet>  Promote R&D by Enabling eVTOL Aircraft Testing at Federal 
Facilities. Sponsor access to FAA, NASA and DOD flight test facilities 
for eVTOL aircraft test programs to unlock data collection and research 
opportunities.
    <bullet>  Launch a National Vertiport Demonstration Challenge. 
Establish a National UAM Vertiport Development Challenge through a 
joint FAA-industry-localities working group that supports early 
identification of sites and the development of prototype vertiport 
facilities through a competitive process.
    <bullet>  Provide Grant Funding for Innovative Multi-Modal 
Infrastructure Projects. Expand the US DOT's Better Utilizing 
Investments to Leverage Development (``BUILD'') discretionary grant 
program (previously the TIGER grant program) eligibility to support 
State and local innovative multi-modal infrastructure projects that 
would provide facilities to serve transit, commuter rail, and/or 
intercity rail, and air transportation in a combined facility. Consider 
a specific carve out of annual BUILD awards to support multi-modal 
advanced aerial mobility projects (passenger or freight) to enable UAS 
infrastructure.
    <bullet>  Ensure Data Communications Access. Support the safe and 
scalable integration of UAM into the National Airspace through 
equitable access to both refarmed and new Spectrum licenses.
    <bullet>  Fund FAA eVTOL Noise Research. Resource and initiate 
collaborative research to define appropriate noise metrics and 
methodologies for use in assessing community impacts associated with 
electric aircraft.
    <bullet>  Grow U.S. UAM Manufacturing Capabilities and the Supply 
Chain System. In an effort to put Americans back to work and promote 
American competitiveness, the White House should work with NASA, DOD, 
DOT, FAA, DOC and other agencies to grow and fast-track UAM 
manufacturing capabilities in the United States. Relatedly, in order to 
stimulate the UAM marketplace, the White House should support NASA's 
ongoing efforts to build a reliable U.S. UAM supply chain system and to 
identify gaps and vulnerabilities in the current supply chain system 
for unmanned vehicles, as well as downstream components. Collaboration 
between the federal government and industry on these important issues 
is critical to open the industry safely and securely.
                     Invest in Future UAM Workforce
    To create good-paying jobs here in the United States and support 
the workforce, the Administration should:
    <bullet>  Promote STEM Programs in Emerging Aviation Technologies. 
Promote STEM initiatives focused on UAM infrastructure, battery 
technology, vertical flight, autonomy, and more to advance interest in 
emerging technologies and provide diverse workforce opportunities.
                     Institute UAM Safety Standards
    Safety is always paramount when promoting innovation. To that end, 
the Administration should work right away to:
    <bullet>  Implement Recommendations on Safety Management Systems 
(SMS). Implement recommendations of the Special Committee Report on 
Aircraft Certification that were delivered to the Secretary of U.S. DOT 
earlier this year.\2\ Establish a formal mechanism for government-
industry collaboration to develop voluntary safety programs specific to 
UAM based on those that have delivered proven safety benefits to 
traditional aviation operations.
---------------------------------------------------------------------------
    \2\ https://www.transportation.gov/sites/dot.gov/files/2020-01/scc-
final-report.pdf

    Mr. Larsen. Mr. Grimsley, thank you for your testimony.
    I will now turn to Mr. Adam Bry of Skydio. Mr. Bry, you are 
recognized for 5 minutes.
    Mr. Bry. Chairman Larsen, Ranking Member Graves, and 
members of the subcommittee, thank you for the opportunity to 
be here today.
    We meet at the dawn of a new era in flight. Electric 
propulsion and autonomy will transform aviation, and small 
drones are at the forefront. This new class of small, electric 
drones will have a profound impact on our economy and our 
national security. The countries that lead the way will help to 
define this new era. Even though the drones are small, the 
stakes are high.
    For the recent past, the drone industry has been dominated 
by manually controlled drones that are hard to fly and easy to 
crash. Eighty percent of these drones are made by companies 
based in China and come with a slew of cybersecurity concerns. 
Many have assumed it will always be this way, but much like the 
shift from flip phones to smart phones, the drone market is 
ripe for a transition from hardware-defined products to 
software-enabled solutions. And just as with phones, there is 
an opportunity for U.S. companies to lead the way with the 
potential to create tens of thousands of jobs here in the U.S.
    I believe drones hold the promise of making our world 
dramatically better: safer, more creative, and more productive. 
And that the key to realizing that promise is making drones 
smart enough to fly themselves. That is why my cofounders and I 
started Skydio in 2014.
    Skydio is a software and artificial intelligence company. 
Our drones use computer vision and AI to build a real-time 3D 
map of the environment, avoid obstacles, and automate complex 
tasks. Thanks to an incredible team, we are now the largest 
U.S. drone manufacturer and a world leader in autonomous 
flight. We have grown to employ hundreds of people across the 
country, but we are still small compared to the total 
opportunity.
    Having a strong domestic drone industry is important for 
our security, economy, and values. Once viewed as consumer 
toys, drones have become essential tools for a wide range of 
applications including national defense and inspecting critical 
infrastructure. Our customers include roof inspectors that use 
drones to assess damage after storms, rather than them climbing 
the roof and putting themselves in danger.
    Telecom inspectors use drones to create digital twins of 
cell phone and transmission towers while remaining safely on 
the ground. As one of our customers put it, ``When you use a 
drone for these inspections, you're not reducing an injury, 
you're reducing a death.''
    We manufacture our drones in the U.S., building thousands 
per month. This gives us the fastest development times, the 
highest quality, and the highest levels of supply chain 
security. The more the market relies on American companies, the 
more jobs we will create in the United States, and the more we 
will be able to trust drones to keep our data secure. We should 
also ensure that taxpayer funds support U.S. jobs. For example, 
DoD's Blue UAS Program has boosted the industry by relying on 
domestic drone companies like Skydio to equip our soldiers with 
the most advanced drone technology.
    Most importantly, the stronger the domestic drone industry, 
the more this technology will reflect democratic values. In 
2020, Skydio became the world's first drone company to issue a 
set of ethical principles to guide our work. We consider the 
holistic impact of our products with particular focus on 
privacy and civil liberties.
    This committee is considering a generational investment in 
America's infrastructure. In addition to investing in the 
infrastructure itself, this committee has a profound 
opportunity to improve the way we maintain it. To ensure the 
safety of America's infrastructure, inspectors put themselves 
in harm's way by climbing towers, repelling from bridges, and 
riding in gas-guzzling bucket trucks, which sometimes tip over.
    Drones revolutionize infrastructure inspection, getting 
better data with a fraction of the cost, risk, and carbon 
footprint. That is why almost every State department of 
transportation has started a drone program. Congress has an 
opportunity to capitalize on those benefits, including by 
enacting a grant program for infrastructure inspection. The 
program would enhance safety and efficiency by providing grants 
to State and local agencies to inspect America's highways and 
bridges with drones. It can also offer grants to educate 
workers on drone technology.
    Whether this new era of aviation is led by the U.S. or 
other nations will depend on a regulatory approach. The key is 
to unlock the airspace from the ground up, enabling workers to 
inspect America's infrastructure with small, light drones 
flying low to the ground and beyond line of sight. These 
operations can be conducted safely now as demonstrated by North 
Carolina DOT's groundbreaking statewide waiver to inspect 
bridges using Skydio drones.
    I am grateful to the committee for holding this hearing. 
Working together, we can ensure the United States leads this 
new era of aviation, providing extraordinary benefits for our 
economy, our security, and our infrastructure. Thank you.
    [Mr. Bry's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Adam Bry, Chief Executive Officer, Skydio, Inc.
    Chairman Larsen, Ranking Member Graves, members of the 
Subcommittee, thank you for the opportunity to appear before you today. 
We meet at the dawn of a new era in flight. Electric propulsion and 
autonomy are transforming aviation as we know it. Small drones are at 
the forefront of both of these trends. The technologies, regulations, 
companies, and countries that lead the way with small drones will help 
to define this new era. Even though the drones are small, the stakes 
are large.
    I am the co-founder and CEO of Skydio, an American company on the 
front lines of this transformation. Founded in 2014, Skydio is now the 
largest U.S. drone manufacturer by volume and a world leader in 
autonomous flight. Our customers include consumers creating amazing 
videos, construction companies tracking project progress, state 
departments of transportation inspecting infrastructure, energy 
utilities monitoring transmission lines, public safety agencies 
responding to emergencies, and U.S. and allied soldiers observing 
battlefield threats. In each of these applications, drones are helping 
to make our world more productive, creative, and safe.
    My own aviation journey began 20 years ago when I began building 
and flying remote controlled (R/C) aircraft, eventually winning a 
national championship in R/C aerobatics. This hobby fueled a passion 
for engineering. I studied mechanical engineering at Olin College, and 
received my master's in aerospace engineering at MIT. There, I helped 
to pioneer autonomous flight for drones, transferring my skills as an 
R/C pilot into software that enables drones to fly themselves. After 
graduating, I co-founded Google's drone delivery program.
    In 2014, my co-founders and I started Skydio. We saw the potential 
of drones to transform a wide range of industries and applications. We 
believed that autonomy--the ability for a drone to fly itself and 
perform complex tasks on its own--is essential to realizing the promise 
of drones. Skydio is a software and Artificial Intelligence (AI) 
company at heart. Skydio drones use advanced computer vision and AI to 
build a real-time, 3D map of the environment, plan collision-free paths 
around obstacles, and automate complex tasks. We build hardware that 
embodies and accentuates our software.
    The drone industry has long been defined by manually controlled 
drones manufactured at low cost in China. But this is not the future. 
In the early 2000s, Nokia held a dominant position in the global cell 
phone market. In 2007, Apple released the iPhone, a software-centric 
device that made phones infinitely more useful by making them more 
intelligent. Apple not only captured market share, but dramatically 
grew the market for phones globally. We believe the drone industry is 
ripe for a similar transition, and there is an opportunity for U.S. 
companies to once again lead that revolution.
    Today we consider how to capture the benefits of this 
transformation. This Committee will play a profoundly important role in 
setting the conditions for U.S. leadership in aviation and safety. To 
assist the Committee, I will outline my views on the strategic 
importance of the domestic drone industry, how to harness the full 
potential of drones to keep America's aging infrastructure safe and 
resilient, and how to shape a regulatory system designed to ensure U.S. 
competitiveness and safety.
  I. Playing to America's Strengths: The Strategic Importance of the 
                        Domestic Drone Industry
    The story of the domestic drone industry has been defined by 
struggle. For example, GoPro, a multi-billion-dollar company, launched 
a consumer drone to great fanfare. Then their drones started falling 
out of the sky. GoPro soon shuttered their drone business. Sensational 
headlines followed. ``The dream of an American drone may be dead,'' one 
headline speculated. Analysts suggested that when it came to 
``engineering [drones] in the US,'' we should ``forget about it.''
    That advice appeared well-founded. Before GoPro exited the market, 
another U.S. company, 3D Robotics, launched a drone called the Solo 
that sold thousands of units with features similar to Chinese drone 
company DJI. Then DJI began to ``turn the screw,'' massively lowering 
the prices of its own products,'' and ``dropping the bottom out of the 
market.'' 3D Robotics stopped making drones, deciding instead to design 
software for use on the very Chinese drones that pushed them out of the 
market. PrecisionHawk, another promising company that once testified 
before this committee, also left the hardware market to make software 
for use on DJI drones (and drones made by other companies).
    Today, companies based in China dominate the U.S. market with more 
than 80% of the market share. DJI alone accounts for approximately 70% 
of the market. As the following graphic reveals, the domestic drone 
market is unlike almost any other.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

a. America's Advantage
    However unhealthy the market may be, reports of the death of the 
domestic drone industry are greatly exaggerated.
    The way to build a sustainable and secure domestic drone industry 
is to embrace areas of natural advantage. In the past, domestic drone 
companies sought to beat foreign competitors at their own game: 
producing commodity hardware devices, sometimes even making them in 
China and selling them here.
    In today's crowded and competitive marketplace, dominated by 
foreign firms, homegrown companies will succeed when they focus on 
areas where the U.S. holds an advantage, such as AI. As graduate 
students, my co-founders and I studied at MIT's Computer Science and 
Artificial Intelligence Lab (CSAIL)--one of the world's leading centers 
for AI research. Our research in advanced navigation was funded, in 
part, by the Army Research Laboratory and the Office of Naval Research. 
CSAIL's roots trace back to the early days of the U.S. space program, 
where America led the way in sensor fusion software and navigation 
computers that enabled us to land on the moon. At MIT, we built a 
fixed-wing aircraft capable of flying itself autonomously through a 
parking garage. Skydio's technology grew out of that early research and 
experimentation. We hope to be another success story in the tradition 
of our nation's commitment to basic research.
    Today, Skydio has experienced incredible growth based on the demand 
for our AI-powered drones. From state departments of transportation, to 
fire departments, to federal agencies, we are fortunate to have 
hundreds of public sector customers that are excited to have an 
American drone alternative to DJI, and even more excited about getting 
more powerful products with the benefits of autonomy. Our customers are 
at the center of our success.
    Skydio is also proud to support our service members. The Defense 
Innovation Unit and other forward-leaning government initiatives have 
helped us connect with military end users, in whose hands our products 
can save lives. The U.S. Army, for example, recognized that consumer 
and commercial drone products were racing ahead of traditional defense 
systems. Rather than acquire expensive and outdated technology from 
traditional defense contractors, the Army launched a new effort, the 
Short Range Reconnaissance Program, to equip soldiers with world-
leading technology produced here at home.
    On the strength of that demand, we have grown from employing three 
people to hundreds of people across the country. We design and assemble 
thousands of drones a month in the United States. And we are expanding 
rapidly around the world. With every drone we sell, and every new 
employee we hire, we disprove the myth that American companies cannot 
compete in the domestic drone market. American companies can compete--
and win. The key is to focus on areas of asymmetric advantage--and no 
area provides more of an advantage than AI.
b. The Strategic Importance of the Domestic Drone Industry
    Maintaining a viable domestic drone manufacturing base matters for 
three reasons.
    Creating Good-Paying Jobs, Benefiting the Economy: The small drone 
market has a big economic impact. According to Levitate Capital, ``The 
global drone economy will grow from $15B to $90B by 2030.'' The U.S. 
represents the largest share of that market, with an overall size of 
$8B in 2020, growing to $16B in 2025, and $34B in 2030.
    Right now, more than 70% of the true value of that market is held 
by foreign companies. The more the market relies on American companies 
that produce their products at home, the more high-skill, good-paying 
domestic manufacturing jobs we can bring back to the United States. 
That goal deserves bipartisan support.
    In addition to hiring U.S. workers, U.S. drone manufacturers 
support domestic component suppliers. For example, the Skydio X2 uses a 
breakthrough carbon fiber component produced by Arris, a U.S. startup 
based in California, that would have otherwise required 17 separate 
parts. Skydio is proud to be the first commercial customer of Arris, 
which manufactures its components in the U.S.
    Protecting National Security: Once viewed as little more than 
consumer toys, drones have become essential tools for a wide range of 
applications, including national defense and inspecting critical 
infrastructure. Depending on a strategic competitor to meet the 
nation's technology needs is neither healthy nor prudent.
    To be clear, the Chinese government represents the central threat, 
not Chinese companies. The Chinese government has the legal ability to 
demand data from Chinese companies operating anywhere in the world--
without due process and the rule of law. DJI officials have 
acknowledged, under oath, the company's obligation to comply with those 
requests. Basic cybersecurity standards cannot buy down that risk.\1\ 
That is why Congress prohibited DOD, in the Fiscal Year (FY) 2020 
National Defense Authorization Act (NDAA), from procuring drones 
manufactured in China. We support legislation extending that common-
sense approach to other federal agencies.
---------------------------------------------------------------------------
    \1\ In characterizing the risks presented by DJI drones, the former 
Undersecretary of Defense for Acquisition, Ellen Lord, acknowledged 
that the Defense Department ``know[s] that a lot of the information is 
sent back to China.'' Billy Mitchell, Pentagon plans drone event for 
new VC, startup matchmaker program, Fedscoop, Aug. 28, 2019, https://
www.fedscoop.com/dod-uas-drones-trusted-capital-marketplace-program-
ellen-lord/. See also Frank J. Cilluffo (Auburn University), Testimony 
to the U.S. House of Representatives Committee on Transportation and 
Infrastructure, Hearing on the Impacts of State-Owned Enterprises on 
Public Transit and Freight Rail Sectors, p. 3-4, May 16, 2019, https://
transportation.house.gov/imo/media/doc/Testimony%20-%20Cilluffo.pdf 
(``Chinese [drone] companies, for example, may be legally required to 
help advance the mission and goals of China's security and intelligence 
services. The use of UAS also raises the prospect of cyber/physical 
convergence, whereby cyber tools and operations may be invoked 
(particularly by an adversary with hostile intent) to generate kinetic 
or real-world consequences.'').
---------------------------------------------------------------------------
    Ultimately, the only way to trust a digital device is to trust the 
company that developed it and the legal framework in which they 
operate. That is something Skydio takes seriously. We design, assemble, 
and support all of our products in the U.S. We develop our software in-
house and source our processors from U.S. companies. The result is a 
homegrown aircraft that reflects the best of American innovation, 
trustworthiness, and craftsmanship.
    As a result of Skydio's commitment to supply chain and cyber 
security and high level of product performance, the U.S. Defense 
Department named Skydio one of a handful of ``Blue sUAS'' companies in 
2020. DOD also determined that Skydio's flagship enterprise product, 
the Skydio X2, complies with the rigorous supply chain security 
restrictions in the FY20 NDAA provision mentioned above.
    Our Values: Most importantly, the stronger the domestic drone 
industry, the more this critical area of emerging technology will 
reflect democratic ideals and values.
    The final report of the National Security Commission on AI 
recognizes that the U.S. finds itself in an ``AI competition'' with an 
emboldened China. According to the Commission, ``The AI competition is 
also a values competition. China's domestic use of AI is a chilling 
precedent for anyone around the world who cherishes individual liberty. 
Its employment of AI as a tool of repression and surveillance . . . is 
a counterpart to how we believe AI should be used.''
    Months before the release of the Commission's report, the U.S. 
Commerce Department placed DJI on the entity list for supporting 
China's suppression of the Uighur people in Xinjiang. The listing noted 
the nexus to ``widescale human rights abuses within China . . . or 
high-technology surveillance, and/or . . . the export of items by China 
that aid repressive regimes around the world.''
    That underscores the importance of U.S. leadership in the drone 
industry. If we want this technology to align with our values, we must 
lead the way. At Skydio, we believe companies that make the world's 
most advanced products have a responsibility to shape the norms and 
standards that govern their use. That is especially true with respect 
to AI. In 2020, Skydio became the world's first drone company to issue 
a set of policy and ethical principles--the Skydio Engagement and 
Responsible Use Principles--to guide our work and move the industry 
forward. These principles capture our commitment to considering the 
holistic impact our products will have on communities and countries. 
They also convey Skydio's core values of accountability, transparency, 
and the protection of privacy and civil liberties.
  II. Harnessing the Power of Drones to Keep America's Infrastructure 
                           Safe and Resilient
    This Committee is considering a generational investment in 
America's infrastructure. In addition to investing in the 
infrastructure itself, this Committee has a profound opportunity to 
reimagine the way to maintain it.
    America's infrastructure is aging. Although examples of crumbling 
infrastructure are not in short supply, the nation's bridges have 
become the symbol of infrastructure decay. According to the American 
Society of Civil Engineers, ``Currently, 42% of all bridges are at 
least 50 years old.''
    We cannot rebuild our way out of this crisis. The President's 
American Jobs Plan is ambitious in scope, but it calls only to replace 
approximately 10,000 of the 46,154 bridges that America's civil 
engineers consider structurally deficient. A serious maintenance 
backlog makes the problem more pernicious.\2\
---------------------------------------------------------------------------
    \2\ According to ASCE, ``A recent estimate for the nation's backlog 
of bridge repair needs is $125 billion. Estimates show that we need to 
increase spending on bridge rehabilitation from $14.4 billion annually 
to $22.7 billion annually, or by 58%, if we are to improve the 
condition. At the current rate of investment, it will take until 2017 
to make all of the repairs that are necessary.''
---------------------------------------------------------------------------
    The way to reimagine our infrastructure is to make our existing 
infrastructure more resilient. As recommended by ASCE, we must 
prioritize ``existing deterioration'' and ``focus . . . on preventive 
maintenance.'' Inspections are at the heart of preventive maintenance. 
The older the infrastructure, the more it must be inspected, and the 
more accurate and efficient the inspections must become.
    That is exactly why 49 of 50 states have adopted drone programs 
primarily to inspect critical infrastructure. Drones offer three 
critical benefits in the journey to infrastructure resilience.
a. Drones Protect Workers, Drive Efficiency, and Slash Carbon Emissions
    Protecting Workers: Inspecting infrastructure can be a dangerous 
job. To ensure the safety of America's infrastructure, inspectors ``put 
themselves in harm's way by climbing towers, rappelling from bridges, 
and riding in bucket trucks'' (which sometimes tip over).
    By contrast, inspectors equipped with drones can examine every part 
of an infrastructure asset--including areas not visible to the naked 
eye--without exposing themselves to danger. Capitalizing on that 
capability, state departments of transportation have begun to equip 
their bridge inspectors with drone technology.
    North Carolina Department of Transportation (DOT), a partner and 
customer of Skydio, has become a national leader in the employment of 
drone technology for bridge inspection and other purposes. Eric 
Boyette, North Carolina's Secretary of Transportation, has stated that, 
``Drones are a fantastic new tool for our Bridge Inspection Units. 
Safety is our top priority at NCDOT, and this new system helps improve 
the safety of not only our bridges and other infrastructure, but of our 
inspectors as well.''
    The American Society of Mechanical Engineers has observed that 
``drones can perform hazardous inspections and maintenance scans much 
more quickly and with greater ease, lessening the perils on the 
American worker.'' To that end, Sundt Construction uses Skydio's 
autonomous drones to inspect ``very tight, claustrophobic, and 
dangerous areas where you wouldn't want to put a human,'' such as 
``high-pressure, high-temperature systems.'' According to Dean Miller, 
Sundt's Virtual Construction Engineer,

        When you use a drone for these inspections, you're not reducing 
        an injury, you're reducing a death. With human inspections, the 
        construction industry has been able to reduce the injury rate 
        over the years, but the death rate has stayed the same--when 
        something explodes in these environments, there is no coming 
        out of that. Because the Skydio can fly into these areas that 
        would be impossible with other drones and capture that data for 
        us, we can effectively reduce that death rate. A drone is 
        around $1,000, but a human life is priceless.

    Driving Efficiency: According to a 2019 AASHTO survey, 29 state 
departments of transportation have found that drones are ``helping them 
save money.'' Drones drive extraordinary levels of efficiency--
empowering existing workers to be more productive while creating an 
entirely new career field of drone operators.
    In the case of a freeway bridge inspection, AASHTO estimates that 
the average manual inspection costs $4,600, takes 8 hours, and imposes 
$14,600 in social costs while the bridge is closed. Drone inspections 
of the same bridge cost an average of $1,200, take only 1 hour, and 
impose far lower social costs. Along those lines, Ohio estimates that 
its drone bridge inspection program could save almost $1.7 million in 
state funds over four years.
    Consider ``as-built'' inspection of construction sites, which is 
critical to ensuring that construction projects do not require rework. 
As Danielle Gagne recently discussed in Commercial UAV News, rework can 
account for 4-9% of the cost of the average construction project.\3\ 
Drones--and especially autonomous drones--offer high levels of value, 
automating a process that can be time-consuming, complex, and costly. 
Accurate Drone Solutions, a drone service provider specializing in 
construction, has found that switching from manual drones to Skydio's 
autonomous drones allowed them to perform as-built assessments 66% 
faster and increase the frequency of cost-saving inspections on their 
clients' job sites.
---------------------------------------------------------------------------
    \3\ Gagne, Danielle, Why America's Infrastructure Needs the Drone 
Industry, Commercial UAV News, April 21, 2021, https://
www.commercialuavnews.com/infrastructure/why-america-s-infrastructure-
needs-the-drone-industry.
---------------------------------------------------------------------------
    As automation increases, it will become possible to create and 
maintain full ``digital twins'' of every piece of infrastructure, and 
update them frequently as drones autonomously capture imagery of entire 
structures. This will enable early detection and tracking of potential 
issues with preventative maintenance, further increasing efficiency.
    Slashing Carbon Emissions: Reliant on electric propulsion, drones 
significantly reduce carbon emissions compared to traditional methods. 
Helicopters ``burn more fuel and emit far more CO2 emissions than cars 
do over the same distance.'' Under-bridge inspection vehicles fare only 
slightly better, achieving around 5 mpg. Drones shatter this paradigm. 
If a state with 14,000 bridges could inspect 5,000 of them using 
drones, the carbon savings would be equivalent to removing 1,000 cars 
from the road.\4\
---------------------------------------------------------------------------
    \4\ Internal analysis. Key factors: Snooper trucks achieve 
approximately 5 mpg fuel economy; average round trip inspection 
distance estimated at 225 miles; drones are fully electric.
---------------------------------------------------------------------------
    The environmental benefits of drones will compound over time: as 
drone use becomes more common, the benefits for our air and environment 
will increase.
b. Drone Infrastructure Inspection Grants (DIIG)
    To capitalize on these benefits, Congress should enact a Drone 
Infrastructure Inspection Grants program. Administered by the Secretary 
of Transportation, the program would consist of two pillars:
    <bullet>  Promoting Infrastructure Resilience: The first pillar 
would provide grants to state and local agencies allowing them to 
capture these benefits by implementing advanced drone technology for 
infrastructure inspection. State DOTs could apply for funding necessary 
to scale the use of drones--purchasing equipment and standing up 
program management capability--to inspect America's highways and 
bridges, handing inspectors a powerful new tool to drive safety and 
efficiency.
      +  With 49 of 50 state DOTs already using drones to inspect 
infrastructure, state DOTs understand the value of drone technology. 
But, in the face of budgetary shortfalls, state DOTs have had trouble 
scaling their programs. By enacting the DIIG program, Congress would 
ensure that state and local inspection personnel have access to the 
transformative technology and talent necessary to protect workers, our 
environment, and provide new levels of infrastructure safety and 
efficiency--while promoting U.S. leadership in emerging technology.
    <bullet>  Education and Training: The second pillar would offer 
grants to community colleges and other public educational institutions 
to educate workers on drone technology. The program would position a 
new generation of workers to capitalize on new economic opportunities 
created by drones.

    This program could form the foundation of an approach to 
infrastructure that prioritizes long-term resilience by making 
inspection easier and more effective than ever.
      III. Leading the Second Century of Aviation: Enabling U.S. 
                    Competitiveness, Ensuring Safety
    When asked what is holding the drone industry back, the answer is 
often ``regulations.'' There are elements of the regulatory framework 
that should be improved, some of which I will discuss today. But, 
overall, the arc of regulations bends in the direction of integration 
and progress, and is reasonable given the state of manual drone 
technology. Most encouragingly, we are seeing signs of regulators 
recognizing the benefits of autonomy for unlocking safe, reliable 
operations.
    As an example, last year the FAA granted NCDOT a breakthrough 
waiver to fly Skydio drones beyond visual line of sight (BVLOS) to 
inspect bridges. Unlike past waivers, this one applies statewide and 
does not require the use of visual observers. Skydio's autonomy 
technology enables bridge inspectors to fly BVLOS more confidently than 
when piloting manual drones, which cannot avoid obstacles on their own. 
That waiver demonstrates the important role that industry plays in 
advancing regulations. If we want the FAA to permit drone operations 
beyond line of sight, we should build drones capable of navigating 
complex environments safely and efficiently.
    As technology improves, we should ask how the regulatory system can 
improve alongside it. To answer that question, we need to understand 
that we have entered a new century of aviation. The first century of 
flight was defined by crewed aviation. From the windy hills of Kitty 
Hawk to the airliners that criss-cross our sky today, our aviation 
system has revolved around the notion of a pilot onboard and at the 
controls.
    We have now entered the second century of aviation. This century 
will be defined by uncrewed, and increasingly autonomous operations. 
The nations that embrace this new paradigm will experience massive 
economic and societal benefits--from safer work environments to more 
efficient infrastructure. But other nations are not content to let the 
United States lead the second century of aviation in the same way we 
led the first.
    There are two principles necessary for the U.S. to continue its 
historical leadership role and take our economy and society to new 
heights. Those principles are symbolized in the acronym, ``UP.''
    1.  Unlocking the Airspace from the Ground Up: The vast majority of 
commercially valuable drone operations occur at very low altitudes in 
close proximity to infrastructure. When inspecting infrastructure, 
operators generally need to fly just beyond line of sight and behind 
the object under inspection. Recognizing that reality, the first 
principle calls for regulatory changes designed to unlock the airspace 
from the ground up--enabling the low risk, low altitude, high-value 
BVLOS operations necessary to inspect America's infrastructure at 
scale.
      a.  America risks falling behind: When it comes to enabling BVLOS 
operations, the European Union has created a regulatory pathway, known 
as the ``specific category,'' designed to enable routine commercial 
BVLOS operations. The ``specific category'' intends to fill the gap 
between the general regulation that allows flights within visual line 
of sight, on the low end, and the type certification of large drones 
for more complex operations, such as the transport of passengers, on 
the high end. In addition, Europe has proposed ``standard scenarios'' 
designed to permit BVLOS operations that fall within certain, low-risk 
parameters. Australia has also released ``standard scenarios'' to 
enable BVLOS operations, including low-altitude infrastructure 
inspection. However in the US, we have yet to fill the ``missing 
middle'' between Part 107 (which allows flights only within visual line 
of sight) and type certification.
      b.  These operations are safe: These operations can be safely 
conducted today, as demonstrated by NCDOT's statewide bridge inspection 
waiver in the U.S. Along those lines, global regulators have recognized 
that drone operators are very unlikely to encounter crewed aircraft at 
low altitudes, such as the ``atypical airspace'' in the vicinity of 
natural or artificial obstacles (e.g. within 100 feet of structures or 
terrain).\5\ That is where we should start: enabling small, smart, low-
weight, drones to fly BVLOS while remaining close to the ground and 
structures. After mastering those operations, we can begin to enable 
more complex operations with larger aircraft at higher altitudes and 
longer range.
---------------------------------------------------------------------------
    \5\ See, e.g., Joint Authorities for Rulemaking of Unmanned 
Systems, JARUS Guidelines on SORA (Specific Operational Risk 
Assessment), Annex I: Glossary of Terms, p. 5, definition of ``atypical 
airspace,'' http://jarus-rpas.org/sites/jarus-rpas.org/files/
jar_doc_06_jarus_sora_
annex_i_v1.0.pdf#page=5. JARUS, a consortium of global regulators, 
recognizes that drone operations within ``atypical airspace'' in close 
proximity to structures and terrain generally do not require additional 
airspace risk mitigation measures.
---------------------------------------------------------------------------
    2.  Promoting pathways for increasing levels of autonomy while 
protecting safety: The second principle calls for regulators to provide 
pathways for drones to exercise increasing levels of autonomy.
      a.  Why: First, autonomy is critical to safety. Trustworthy 
autonomy enables drones to conduct complex operations while avoiding 
obstacles that even the most proficient pilots may miss. Second, 
autonomy is critical to scalability. The same trustworthy autonomy 
technology that today allows drones to fly inside bridge trusses and 
transmission towers will one day enable Advanced Air Mobility (AAM) 
vehicles to shuttle cargo and people safely between cities. Without 
autonomy, the AAM revolution risks becoming a tool for the wealthy few, 
rather than an enabling technology for the many.\6\
---------------------------------------------------------------------------
    \6\ Skip Descant, Flying Taxis: Experts Balance Enthusiasm Against 
Reality, Government Technology, Sept 11, 2020, https://www.govtech.com/
fs/Flying-Taxis-Experts-Balance-Enthusiasm-Against-Reality.html 
(quoting Dan Dalton, VP of Global Partnerships, Wisk) (``In order for 
this industry to scale, we really believe that this has to be a self-
piloted aircraft.'').
---------------------------------------------------------------------------
      b.  How: In order to maintain U.S. leadership in emerging 
technology and aviation, we must enable autonomous operations. We can 
start small--but we have to start somewhere. If we fail to act, 
autonomy pioneers will take their talent and investments overseas. 
Congress could begin by directing the FAA to enable limited autonomous 
operations within the context of a pilot program that would bring 
together public and private partners, much like the current FAA BEYOND 
program, but focused on autonomy. Operations could begin at low 
altitude in remote areas, and scale up from there. The most important 
thing is to get started--soon.
                             IV. Conclusion
    I am grateful to the Committee for focusing on the future of U.S. 
leadership in aviation. This Committee deserves great credit for 
helping to cultivate a regulatory system that promotes both safety and 
innovation. Working together, we can ensure the United States leads the 
second century of aviation--providing extraordinary benefits for our 
economy, workers on the front lines of the infrastructure crisis, and 
all Americans.

    Mr. Larsen. Thank you, Mr. Bry. I appreciate that very 
much.
    I now want to turn to Mr. Harter. Mr. Harter, you are 
recognized for 5 minutes.
    Mr. Harter. Mr. Chairman and members of the subcommittee, I 
would like to thank you for the opportunity to testify today.
    My name is Pierre Harter, and I am director of research and 
development for the National Institute for Aviation Research at 
Wichita State University. I will start with some background.
    After dominating in the 20th century, the U.S. aerospace 
industry continues to be a world leader in this century as 
well. The gap has closed significantly in the commercial 
aviation sector, hastened by the pandemic and the MAX 
grounding. Significant competition remains and is growing. U.S. 
general aviation continues to slowly recover from the shock of 
the 2009 financial crisis and other factors with significant 
consolidation in the sector and continued pressure from 
international competition.
    In the defense industry, the U.S. continues to maintain air 
dominance. The global arms race for unmanned aerial systems and 
hypersonics is well underway, spurring innovation that will 
impact the aerospace industry for years to come.
    The U.S. aerospace supply chain is still in a precarious 
position, recovering from multiple recent global shocks.
    In aerospace manufacturing, transformation is well underway 
and will accelerate as we emerge from the pandemic. This 
transformation has been both physical and digital, across 
existing production lines, as well as sustainment of legacy 
fleets, incorporating new technologies and innovations in areas 
such as automation, digital engineering, Industrial Internet of 
Things, artificial intelligence and other technologies.
    Now let's focus on the importance of innovation. Aviation 
has always been a source of innovation and inspiration going 
back to the Wright brothers' first flight in 1903. In many 
ways, the next two decades hold the promise to transform our 
daily lives as significantly as that event did for the 20th 
century.
    Advanced aerial mobility and supersonic flight will create 
new travel paradigms and provide us with unprecedented global 
and local connectivity. Unmanned aerial systems technology will 
provide new and faster methods for delivering goods and 
services, transforming business-to-business and business-to-
consumer transactions.
    Electric technologies will provide cleaner, quieter, and 
more efficient propulsion systems. Continued advancements in 
composite materials, added to manufacturing and production 
system technologies, will increase efficiency and reduce costs 
across all of aerospace.
    Safety must of course remain at the core of all aviation 
related innovations but must be balanced by enabling new 
technologies to enter the market efficiently, which inherently 
enhances safety.
    To remain the world leader in aerospace, the United States 
must continue to evolve and execute a strategic plan to create 
an environment that allows U.S.-based companies to innovate and 
be first to market with these new technologies while 
maintaining safety and security. We must continue to embrace 
strong public-private partnerships to establish the strategic 
framework and shape the regulatory environment. In addition, we 
must invest in research and development that enables new 
designs, products, materials, and manufacturing technologies 
that enable U.S. businesses to efficiently design, certify, and 
manufacture the most advanced air vehicles of the future.
    Wichita State University's National Institute for Aviation 
Research has a proven track record for supporting industry and 
Government agencies in developing, certifying, and bringing new 
technologies to market, as well as preparing the workforce for 
the future.
    Since its inception in 1985, NIAR has made a name for 
itself as the most capable university-based aviation research 
center in the United States, providing research, design, 
testing, certification, and training to the aviation 
manufacturing industry, Government agencies, education 
entities, and other clients that can benefit from our services. 
Because of NIAR's research efforts, Wichita State University 
currently ranks fourth among all U.S. universities in 
aeronautical R&D expenditures, and first in industry funding 
for aeronautical expenditures according to the National Science 
Foundation.
    NIAR's mission is to conduct research, transfer technology, 
and enhance education for the purpose of advancing the Nation's 
aviation industry, and to assist nonaviation industries that 
may benefit from aviation-related technologies.
    Some of NIAR's areas of expertise are its additive 
manufacturing and prototyping, advanced manufacturing, 
composites and advanced materials, digital twinning, 
engineering design and modification, reverse engineering, 
robotics, and virtual engineering.
    NIAR also runs several centers and participates in 
initiatives that are strategically aligned with the institute's 
capabilities and mission. NIAR centers promote the safety, 
research, manufacturing, and design elements of today's 
aviation industry. They strengthen airworthiness assurance in 
the short term and long term.
    In conclusion, it is apparent that U.S. dominance in 
aerospace is a critical economic driver and a national security 
imperative. The next two decades promise exciting new aerospace 
innovations and products that will transform the way we live 
and work, enhancing the quality of life for Americans and the 
rest of the world.
    As in the past, the Government must continue to support 
innovation by incorporating these new technologies into its 
strategic framework. Investment in R&D and capitalizing on 
industry, academia, and Government partnerships will enable 
safe, secure, and efficient introduction of these new 
technologies and products.
    WSU and NIAR look forward to continue working with industry 
and Government to conduct research, transfer technology, and 
enhance education for the purpose of advancing the Nation's 
aerospace industry. I appreciate the opportunity to testify and 
would be happy to answer any questions you may have.
    [Mr. Harter's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Pierre F. Harter, Director of Research and 
 Development, National Institute for Aviation Research, and Associate 
Vice President for Industry and Defense Programs, Research Operations, 
                        Wichita State University
                               Thank You
    Mr. Chairman and Members of the Subcommittee, I would like to thank 
you for the opportunity to testify today. My name is Pierre Harter, and 
I am Director of Research and Development for the National Institute 
for Aviation Research and Associate VP for Industry and Defense 
Programs, Research Operations at Wichita State University.
                               Background
    After dominating in the 20th century, the U.S. aerospace industry 
continues to be the world leader in this century as well. The gap has 
closed significantly in the commercial aviation sector, hastened by the 
pandemic and the MAX grounding. Significant competition remains and is 
growing, with major world powers (e.g. China, Russia, Japan, India, 
Brazil) working to introduce new indigenous commercial platforms (with 
some being nationalized) to capture the economic and trade benefits 
associated with this industry and its products.
    U.S. general aviation continues to slowly recover from the shock of 
the 2009 financial crisis, with significant consolidation in the sector 
and continued pressure from international competition.
    In the defense industry, the U.S. continues to maintain air 
dominance in traditional manned aircraft, although the competition is 
stiff. Widely reported cybersecurity/espionage threats in the 21st 
century have tightened the gap. The global arms race for unmanned 
aerial systems (both autonomously and remotely flown) and hypersonics 
is well underway, spurring innovation that will impact the aerospace 
industry for years to come--and in some cases, the military relies on 
innovation coming from commercial industry sectors like aerospace.
    The U.S. (and international) aerospace supply chain is still in a 
precarious position recovering from multiple recent global shocks \1\. 
The aerospace supply chain is an essential component of the U.S. 
economy that provides a competitive edge. It must remain a strategic 
asset as well as national defense priority, as much of it serves the 
civil, commercial, and military sectors.
---------------------------------------------------------------------------
    \1\ Robin Lineberger, John Coykendall, Alan D. Faber, Steve 
Shepley. Deloitte. ``2021 aerospace and defense industry outlook''. 
https://www2.deloitte.com/us/en/pages/manufacturing/articles/global-
aerospace-and-defense-industry-outlook.html
---------------------------------------------------------------------------
    In the aerospace supply chain (civil, commercial and defense), as 
well as the original equipment manufacturers (OEMs), transformation was 
well underway and will accelerate as we emerge from the pandemic. This 
transformation has been both physical and digital across existing 
production lines as well as sustainment of legacy fleets--incorporating 
new technologies and innovations in areas such as robotics, automation, 
digital engineering, additive manufacturing, Industrial Internet of 
Things (IIoT), data science, artificial intelligence and other 
technologies (aka ``Industry 4.0'' and ``Advanced Manufacturing'').
    Technological advances in hardware, software, composites, and other 
advanced materials have spurred innovation in recent years in several 
new areas that are within the focus of this hearing:
    <bullet>  Unmanned Aerial Systems (UAS), also referred to as 
``drones'' or unmanned aerial vehicles (UAV) with some nuances
    <bullet>  Advanced Aerial Mobility (AAM), also referred to as Urban 
Air Mobility (UAM)
    <bullet>  Supersonic (Mach 1-5) and hypersonic (greater than Mach 
5) transportation
    <bullet>  Electric propulsion
                               Innovation
    Aviation has always been a source of innovation and inspiration 
going back to the Wright Brother's first flight in 1903. In many ways, 
the next two decades hold the promise to transform our daily lives as 
significantly as that event did for the twentieth century.
    Advanced aerial mobility (AAM) and supersonic flight will create 
new travel paradigms and provide us with unprecedented global and local 
connectivity. Unmanned aerial systems (UAS) technology will provide new 
and faster methods for delivering goods, transforming business-to-
business and business-to-consumer transactions, similar to how 
ecommerce has transformed our daily lives. Electric technologies will 
provide cleaner, quieter, and more efficient propulsion systems that 
will drive a variety of these new air vehicle platforms. Continued 
advancements in composite materials, additive manufacturing, and 
production system technologies will increase efficiency and reduce 
costs for these new entrants, as well as the ``traditional'' general 
aviation and commercial aircraft designs of the future.
    I would also like to highlight the importance of advanced air 
mobility as an emerging sector of the aviation industry. We need 
broader thinking to facilitate industry growth within this realm, and 
we are pleased to see both House and Senate legislation working to 
address this important topic through the Advanced Air Mobility (AAM) 
Coordination and Leadership Act. This legislation will facilitate 
collaboration between federal agencies and civil aviation industry 
leaders to develop policies regarding advanced air mobility, ensuring 
we advance United States global leadership and competitiveness within 
this growing sector.
    It certainly is an exciting time in aviation history, with so much 
innovation underway and on the horizon. And the stakes are high--as 
these technologies will transform how we do business domestically and 
internationally, and even more fundamentally, how we live and interact 
with each other on a daily basis.
    It is imperative that we recognize, as this hearing is, the promise 
that these new innovations will bring. Safety must of course remain at 
the core of all aviation-related innovations, but must be balanced by 
enabling new technologies to enter the market efficiently, which 
inherently enhances safety. The United States must maintain its 
competitive advantage in aerospace, as it will continue to remain a 
dominate economic driver and a national defense imperative.
    To remain the world leader in aerospace, the United States must 
develop and execute a strategic plan to create an environment that 
allows U.S.-based companies to innovate and be first to market with 
these new technologies, while maintaining safety and security \2\. To 
do this, we must continue to embrace strong public-private partnerships 
to help establish the strategic framework and shape the regulatory 
environment. In addition, we must invest in research and development 
that enables new designs/products, materials and manufacturing 
technologies that enable U.S. businesses to efficiently design, 
certify, and manufacture the most advanced air vehicles of the future.
---------------------------------------------------------------------------
    \2\ Source: Robin Lineberger, Aijaz Hussain and David Silver. 
Deloitte Insights. ``Advanced air mobility: Can the United States 
afford to lose the race?''. https://www2.deloitte.com/us/en/insights/
industry/aerospace-defense/advanced-air-mobility.html.
---------------------------------------------------------------------------
    Wichita State University's National Institute for Aviation Research 
has a proven track record for supporting industry and government 
agencies in developing, certifying and bringing new technologies to 
market. An excellent example of this is composite technology.
                         Composites--Case Study
    Composites have transformed aerospace since their introduction in 
the late 1970s and 1980s. Early on, adoption was limited to OEMs with 
deep pockets to invest in proprietary structural material databases and 
analytical tools for certification. In many cases, identical materials 
were used by multiple OEMs, each having to create their own database at 
their own cost. This created a barrier to entry, and hence stifled 
innovation.
    Recognizing this barrier, a partnership was formed in the 1990s 
with the FAA, NASA, academia and industry. The partnership was 
successful in transforming the way new composite material databases 
were created and approved for use on aircraft utilizing a shared 
database methodology. This collaboration between the FAA, NASA, NIAR 
and industry reduced the ``time required for certification of new 
composite materials by a factor of four and the cost of certification 
by a factor of ten'' \3\.
---------------------------------------------------------------------------
    \3\ Source: Statement of John Tomblin, Ph.D. before the U.S. Senate 
Commerce Committee Subcommittee on Science, Technology and Space. 
February 27th, 2003. https://www.globalsecurity.org/space/library/
congress/2003_h/030227-tomblin.pdf
---------------------------------------------------------------------------
    Over the last two decades, NIAR's relationship with government and 
industry has evolved significantly. NIAR is the world's only non-OEM 
entity that the FAA, and its counterpart in Europe (EASA), accept for 
developing new composite materials and specifications \4\. NIAR 
partners with OEMs, as well as sub-tiers and material suppliers, to 
test and create certified material databases. Adoption has been broad, 
starting with general aviation and quickly moving into commercial and 
defense applications. Recognizing this expertise and experience, NIAR 
now oversees the Composite Materials Handbook (CMH-17, formerly MIL-
HDBK-17) and works with industry and government to continuously amend 
and add new content to this handbook that provides methods and guidance 
material for certifying composite structure. NIAR also provides 
research and guidance to government agencies for policy and regulatory 
guidance material for composite structures as well as other 
certification areas (e.g. crash worthiness).
---------------------------------------------------------------------------
    \4\ Sources: AIR100-2010-120-003.pdf (faa.gov) and Certification 
Memorandum_v2 (europa.eu)
---------------------------------------------------------------------------
    In recent years, this composite expertise has extended into the 
additive manufacturing field. In 2019, working with government and 
industry, NIAR provided new guidance for how to certify non-metallic 
additive manufacturing materials and added the first AM material system 
to its shared database--ULTEM 9085. NIAR is now working with government 
agencies (FAA and DoD) as well as respected industry advisory groups 
(America Makes, SAE International, ASTM International, Metallic 
Material Property Development and Standardization (MMPDS), and others) 
to create guidance material and create shared databases for metallic AM 
materials. The first effort is with a titanium alloy, which is a 
critical structural material for civil and military air vehicles.
    New epoxy composite material systems continue to evolve, providing 
higher strength and stiffness, lower costs, and higher operating 
temperatures. Many companies are investigating and deploying new 
thermoplastic polymer matrix composite (TP PMC) materials into 
structure. These materials offer the ability to drastically reduce 
composite manufacturing times down to the automotive-like efficiencies, 
while offering higher temperature capabilities required for primary 
structure and supersonic applications where skin friction at supersonic 
speeds creates significant heat on the structure.
    The hypersonic regime (speeds greater than Mach 5), creates a new 
challenge for materials and manufacturing based on the intense heat 
generated by skin friction at these speeds. Efforts are already 
underway at NIAR, and industry partner Spirit AeroSystems Inc., to 
build the infrastructure needed to create and test these new ultra-high 
temperature materials. See Figure 1 for more details on the evolving 
advanced material landscape applicable across all sonic speed zones.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Figure 1: Material Application in Aerostructures. Source: Spirit 
                            AeroSystems Inc.

    All of this was made possible via strategic decisions by the U.S. 
government in the 1990's to fund R&D efforts in this area and embrace 
public and private collaborations to create new policy, guidance and 
regulations to enable innovation that has carried through to present 
day. It is this successful model of investment in R&D and public-
private collaboration that will continue to enable innovation in U.S. 
aerospace allowing U.S. companies to be first-to-market and maintain 
the leading edge.
   Wichita State University and the National Institute for Aviation 
                                Research
    Since its inception in 1985, National Institute for Aviation 
Research (NIAR) at Wichita State University has made a name for itself 
as the most capable university-based aviation research center in the 
United States, providing research, design, testing, certification and 
training to the aviation manufacturing industry, government agencies, 
educational entities and other clients that can benefit from our 
services. NIAR has a $125 million annual budget, a staff of over 875, 
and over one million square feet of laboratory and office space in six 
locations across the city of Wichita, the Air Capital of the World.
    The Brookings Institution ranks:
    <bullet>  Wichita #1 in manufacturing jobs as a percentage of all 
jobs.
    <bullet>  South Central Kansas as the most manufacturing-
specialized region in the United States with 17.7 percent of regional 
jobs in manufacturing, more than half of which are engaged in making 
some of the world's most sophisticated aircraft.
    <bullet>  Wichita has the highest concentration of aerospace 
manufacturing employment in the nation.
    <bullet>  Wichita is ranked #3 nationally as an advanced industry 
hotspot.
    <bullet>  Wichita ranks # 1 in percentage of jobs involving stem 
occupation.
    <bullet>  Wichita ranks #3 among metros for highest concentration 
of engineers per 1,000 employees (22.4/1000)

    A key contributor to these rankings, the NIAR mission is to conduct 
research, transfer technology and enhance education for the purpose of 
advancing the nation's aviation industry, and to assist non-aviation 
industries that may benefit from aviation-related technologies. NIAR's 
areas of expertise are:
  <bullet>  Additive Manufacturing & Prototyping
  <bullet>  Advanced Coatings
  <bullet>  Advanced Manufacturing
  <bullet>  Aerodynamics
  <bullet>  Ballistic and Impact Dynamics
  <bullet>  Composites and Advanced Materials
  <bullet>  Crash Dynamics
  <bullet>  Digital Twin
  <bullet>  Engineering Design & Modification (WERX)
  <bullet>  Environmental and Electromagnetic Testing
  <bullet>  Extended Reality
  <bullet>  Flight Simulation
  <bullet>  Full-Scale Structural Testing
  <bullet>  Nondestructive Testing
  <bullet>  Sustainability
  <bullet>  Reverse Engineering
  <bullet>  Robotics and Automation
  <bullet>  Virtual Engineering
  <bullet>  Wind Tunnel Testing

    NIAR also runs several centers and participates in initiatives that 
are strategically aligned with the institute's capabilities and 
mission. NIAR's centers promote the safety, research, manufacturing and 
design elements of today's aviation industry. They strengthen 
airworthiness assurance in the short and long term. They make the 
concerns of the general aviation industry their own. And they make 
dreams of a reality. This happens not only through NIAR's own research, 
but through the exchange of knowledge with researchers in other 
centers.
    Those centers include:
ATLAS Advanced Technologies Lab for Aerospace Systems (ATLAS)
        NIAR's ATLAS is a multi-disciplinary manufacturing environment 
        and engineering education program to prepare engineers and 
        educators for the Factory of the Future and to aid the current 
        workforce in seamlessly adapting to advancements in the 
        workplace. ATLAS's mission is to provide a neutral ground for 
        advanced manufacturing research and development with state-of-
        the-art machines, software and processing options.
Aircraft Structural Test & Evaluation Center (ASTEC)
        NIAR's ASTEC encompasses 130,000 square feet (39,000 square 
        meters). The facility features include a 30x70-foot hangar 
        door, a clear span of 265 feet (80 meters) and ceiling height 
        of 48 feet (14 meters). ASTEC is a secure site designed to 
        perform proprietary client research and testing. The facility 
        is currently home to the institute's Full-Scale Structural Test 
        Lab, Aging Aircraft Lab, Mechanical Test Lab and Ballistics 
        Lab.
3DEXPERIENCE Center
        The 3DEXPERIENCE Center, a partnership with Dassault Systemes, 
        involves an interconnected community of top researchers, 
        corporations and laboratories to accelerate innovation. The 
        22,000 sq. ft. facility at Wichita State University offers the 
        expertise and technology for companies to accelerate their 
        innovation. Aerospace and other industries can target 
        improvements from concept to production and extend to 
        operations--all while facilitating certification. The 
        3DEXPERIENCE Center enables companies to engage in advanced 
        product development and the manufacturing of next-generation 
        materials and technologies.
Jerry Moran Center for Advanced Virtual Engineering & Testing
        The Advanced Virtual Engineering and Testing Lab (AVET) was 
        opened in 2019. It was dedicated to Kansas Senator Jerry Moran 
        in 2020 as tribute to Moran's commitment to helping WSU fulfill 
        its vision and mission to provide impactful student experiences 
        that drive prosperity in our region. AVET is home to NIAR's 
        Virtual Engineering and Crash Dynamics Labs. The facility 
        features additional client prep bays, which will allow multiple 
        clients to be in the lab at the same time, while maintaining 
        privacy during testing. It also includes workspace for 40+ 
        virtual engineering staff, three collaboration rooms and 
        secured areas for restricted projects; and a space for related 
        technologies such as material/component testing and virtual 
        reality.
National Center for Advanced Materials Performance (NCAMP)
        The National Center for Advanced Materials Performance (NCAMP), 
        located at WSU-NIAR provides the nation's commercial and 
        military aviation industry with a center for the validation and 
        quality assurance of composites and advanced materials.
Composite Materials Handbook-17 (CMH-17)
        The CMH-17 organization, administered by Wichita State 
        University, provides information and guidance necessary to 
        design and fabricate end items from composite materials. Its 
        primary purpose is the standardization of engineering data 
        development methodologies related to testing, data reduction, 
        and data reporting of property data for current and emerging 
        composite materials. In support of this objective, the handbook 
        includes composite materials properties that meet specific data 
        requirements. CMH-17 works closely with NCAMP to approve 
        composite specification and design values.
FAA Center of Excellence for Composites and Advanced Materials (CECAM)
        CECAM is an FAA-sponsored consortium of universities competent 
        in advanced materials research. CECAM is led by Wichita State 
        University, which interacts directly with the FAA to support 
        its advanced materials safety programs.
FAA ASSURE Center of Excellence for UAS Research
        WSU is one of 24 core research institutions within the FAA's 
        Alliance for System Safety of UAS through Research Excellence 
        (ASSURE). ASSURE's mission is to provide high-quality research 
        and support to autonomy stakeholders both within the US and 
        beyond to safely and efficiently integrate autonomous systems 
        into the national and international infrastructure, thereby 
        increasing commerce and overall public safety and benefit.
Kansas Aviation Research & Technology Growth Initiative (KART)
        The Kansas Aviation Research & Technology Growth Initiative 
        uses funds provided by the Department of Commerce and the 
        Kansas Legislature with the goal of strengthening a variety of 
        aircraft industry technologies and marketing them to other 
        areas outside the State of Kansas and the United States. The 
        Kansas Aviation Research & Technology Growth Initiative will 
        help retain and grow the aviation cluster in Kansas and help 
        Kansas aviation companies remain competitive throughout the 
        21st century.
FirePoint Innovations Center
        Established in 2018, FirePoint partners with the U.S. Army's 
        Combat Capabilities Development Command, Aviation and Missile 
        Center (DEVCOM AvMC) to accelerate the delivery of innovative 
        capabilities to the warfighter. FirePoint creates a 
        collaborative and networked environment of national scope to 
        investigate, collaborate and produce courses of action to solve 
        technology and equipment challenges identified by the Army.
National Institute for Research and Digital Transformation (NIRDT)
        The newly created (2019) National Institute for Research and 
        Digital Transformation at Wichita State focuses on diversifying 
        and growing the economy while providing an important platform 
        for creating new academic and applied learning programs for 
        students. NIRDT is based on the model and strengths of NIAR, 
        but focused on developing technology that can transform other 
        industries, including aviation, to drive economic development 
        and support new ventures in Kansas and the United States.

    Kansas's leadership in aerospace research and development and its 
strong aerospace manufacturing presence is reflected in Wichita State 
University. Because of NIAR's research efforts, Wichita State 
University currently ranks fourth among all U.S. universities in 
aeronautical R&D expenditures according to the National Science 
Foundation. WSU ranks first in industry funding for aeronautical 
expenditures. See Figure 2. WSU and NIARs R&D expenditures have 
steadily increased over the last two decades, a testament to its unique 
capabilities and ability to collaborate successfully with government 
and industry as shown in Figure 3.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 2: WSU aeronautical R&D expenditures 2019 rankings (Source: 
                National Science Foundation survey 2019)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3: WSU aeronautical historical R&D expenditures (Source: 
             National Science Foundation Surveys 2012-2020)

                                Summary
    In conclusion, it is apparent that U.S. dominance in aerospace is a 
critical economic driver and national security imperative. The next two 
decades promise exciting new aerospace innovations and products that 
will transform the way we live and work--enhancing the quality of life 
for Americans and the rest of the world. As in the past, the government 
must continue to support innovation by incorporating these new 
technologies into its strategic framework. Investment in R&D and 
capitalizing on industry/academia/government partnerships will enable 
safe, secure and efficient introduction of these new technologies and 
products. WSU and NIAR look forward to continue working with industry 
and government to conduct research, transfer technology and enhance 
education for the purpose of advancing the nation's aviation industry.
    I appreciate the opportunity to testify today and would be happy to 
answer any questions you may have.

    Mr. Larsen. Thank you. Thank you, Mr. Harter, for your 
testimony.
    I will now turn to Mr. Roei Ganzarski from the great State 
of Washington and what some say is the best district in the 
country: the Second Congressional District of Washington State. 
About 700,000 people say that in fact.
    So Mr. Ganzarski, I will recognize your 5 minutes. And good 
to see you.
    Mr. Ganzarski. Good morning, Chairman Larsen, Ranking 
Member Graves, and esteemed committee members.
    My name is Roei Ganzarski, and I am the CEO of magniX. 
Headquartered in the great city of Everett, Washington, we 
design and manufacture all-electric propulsion systems for 
commercially focused aircraft.
    Before I begin, I wanted to express what an honor this is 
for me to be testifying here. I came to this country 24 years 
ago in pursuit of an education and found a home, a haven to 
raise a family, and a flourishing environment to work in. The 
American dream is alive and well and I thank you for that.
    Accessible, affordable, equitable, environmentally clean, 
quieter--this is the future of aviation we should be striving 
for in the United States. A future that offers all Americans 
the ability to fly in convenient door-to-door fashion without 
causing harm.
    In this future, the average American only drives a short 
distance to an airport, arrives 15 minutes before their flight, 
boards without hassles, and flies up to a few hours. This 
sounds like a utopia, but for the most part, the technologies 
and infrastructure to do this exist or are being developed and 
flight proven as I speak. It is called the electric age of 
aviation.
    On the world stage, the U.S. has always been a leader. Be 
it economics, culture, or technology, the world looked to the 
U.S. as a beacon for the future. However, with aviation, our 
country is falling short of our reputation for pioneering 
innovation and leading industry.
    In Europe, countries are pledging domestic flights be 
electric by 2030, banning short flights that produce emissions, 
and providing hundreds of millions of dollars to advance 
carbon-free aviation.
    As the home of the Wright brothers and Apollo 11, our 
legacy of asking ``Why not?'' demands ambitious, aspirational, 
and forward-thinking action. Electric aircraft will have 
significantly lower operating costs, stemming from cheap 
electricity, and significantly less maintenance needs. This 
means operators can provide much more affordable services using 
smaller aircraft flying from and to smaller airports, all with 
significantly lower noise and zero emissions. We can truly 
connect all of America by air and do so cleanly.
    Doing this will require us to be bold. As bold as President 
Kennedy was when he announced the dramatic and ambitious goal 
of sending an American safely to the moon. But like conquering 
the moon, commercial electric aviation is an audacious goal; 
one that will require determination, focus, and grit, and that 
will compel us to put our best minds to work and make 
sacrifices as we make advances.
    We have everything we need here in the United States. 
magniX, for example, has been flying all-electric, commercially 
focused aircraft since December of 2019. And our FAA 
certification, part 33, is on track for 2022, which means there 
is a real possibility that smaller, all-electric aircraft can 
start flying with people and packages on short routes within 
the next 4 years. It will not be easy. But let's not forget 
that we did not reach the moon in one attempt or one stage.
    Expecting electric aviation to power a 737-sized aircraft 
as it flies across the country is not reasonable at this stage. 
We must start with smaller aircraft flying shorter routes from, 
and to, smaller airports.
    As investments are made, policies are set, incentives 
introduced, and technologies progress, we will advance to 
larger and longer distances. With the current state of 
technology, our President and Congress can set a bold and 
ambitious goal of having all-electric aircraft start to perform 
commercial flights up to 250 miles by the end of 2024 and up to 
1,000 miles by 2030. Doing this will also lead to thousands of 
clean jobs across the country.
    Congress needs to provide incentives for operators to adopt 
electric aircraft for existing and new routes, incentives for 
airports who invest in charging capabilities, and incentives 
for manufacturers to develop all-electric aviation solutions. 
These incentives can include grants, tax credits, and more. I 
also propose amending the Essential Air Service, a taxpayer-
funded program, by adding an environmental performance 
criterion to be awarded subsidies.
    Separately I will share that the FAA is doing an amazing 
job working with the right attitude and approach with these new 
technologies, but they are lacking in resources. I highly 
recommend more funding for the FAA to hire and train more 
people in electric aviation.
    I will conclude by shamelessly paraphrasing President 
Kennedy, because his words are as relevant and accurate today 
as they were for the Space Race in 1962: We choose to 
transition to electric aviation within the next 4 years, not 
because it is easy, but because it is hard. Because that goal 
will serve to organize and measure the best of our energies and 
skills. Because that challenge is one that we are willing to 
accept, one we are unwilling to postpone, and one which we 
intend to win.
    Thank you for the opportunity to share my insight. The 
United States must seize the moment and lead. magniX is proud 
to be a part of returning the American aviation industry to 
preeminence and global leadership with the electric age of 
aviation.
    Thank you.
    [Mr. Ganzarski's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Roei Ganzarski, Chief Executive Officer, magniX
    Good morning Chairman Larsen, Ranking Member Graves, and esteemed 
members of the Aviation Subcommittee. My name is Roei Ganzarski and I 
am the CEO of magniX. magniX, headquartered in Everett, WA, designs and 
manufactures all-electric propulsion systems for commercially focused 
aircraft. I am also the executive chairman of Eviation. Headquartered 
in Arlington, WA, Eviation designs and manufactures electric aircraft 
starting with the Alice, a 9-passenger all electric commuter aircraft. 
Thank you for giving me the opportunity to provide my insights on the 
future of aviation in the United States.
    Before I begin, I wanted to express what a personal honor this is 
for me to be testifying here in front of you. I came to this country 24 
years ago from Israel, in pursuit of a graduate education at the 
University of Washington. In addition to a great education, I found a 
home; a haven to start a family and raise three amazing children; and a 
flourishing environment to expand my career, grow companies, and create 
jobs. The American Dream is alive and well. I thank you for that.
    Accessible, affordable, equitable, environmentally cleaner, and 
quieter--this is the future of aviation we should be striving for in 
the United States. An aviation system that offers and promotes the 
ability to travel, send and receive packages, and commute in a low-
cost, sustainable, quick, and convenient door-to-door fashion. This is 
the future of aviation that I, and the entire team at magniX and 
Eviation, are working towards.
    In this future aviation system, the average American, including in 
more rural areas, should be able to drive no more than 15 minutes to 
their nearest airport (most likely not a large metropolitan hub 
airport), arrive there only 15 minutes ahead of their flight, walk 
onboard without hassles or waiting in lines since the airport is 
smaller, fly for up to a few hours, land, and arrive at their 
destination in another 15 minutes, because their smaller arrival 
airport (most likely not a large metropolitan hub airport) is closer to 
their final destination. While this may sound like an unrealistic 
utopia, for the most part, the technology and infrastructure to provide 
such an aerospace environment is being developed, flight-proven, and on 
the path to FAA certification today.
    It is called the ``Electric Age of Aviation.''
    It will happen. The question is: will the Unites Stated lead or 
lag?
    On the world stage, the United States has always been a leader. 
Whether it is economics, culture, or technology, the world looked to 
the US to see and understand the future. In aviation, the United States 
will always be remembered and respected for that magical Wright 
Brothers' first powered flight in Kitty Hawk, North Carolina.
    However, I am afraid our country is now falling short. We are 
falling short of our reputation for pioneering innovation; falling 
short of our track record in leading an industry; and in particular, 
falling short for not embracing two major cultural shifts that are 
happening both globally and domestically: a shift to democratize 
demand-driven aviation in a way that makes it available and accessible 
to all, and a shift to propel clean energy in aviation.
    Sweden and Norway are increasing their commitments to curb 
emissions by pledging that all domestic flights will be electric--in 
other words, emission-free--by 2030 and 2040, respectively. France is 
right now passing legislation that will ban short-haul flights as long 
as they produce emissions. The United Kingdom is directly providing its 
aviation industry with hundreds of millions of dollars to advance 
carbon-free technology. In fact, the UK is attracting U.S. companies to 
move across the pond.
    As the home of the Wright brothers, Benjamin Franklin, Thomas 
Edison, and Apollo 11, our legacy as leaders, inventors, innovators, 
and a country that asks ``why not'' demands ambitious, aspirational, 
and forward-thinking policies to spur immediate and bold action, and 
encourage behavioral change on a grand scale. We must use the power of 
pro-active government policy and incentives to help propel progress.
    Some positive movement has recently started. Congressman Graves 
(Louisiana) and Representative Davids (Kansas) introduced the Advanced 
Air Mobility Coordination and Leadership Act. The legislation focuses 
on development of new transportation options, moving goods, amplifying 
economic activity and jobs, advancing environmental sustainability and 
new technologies, and supporting emergency preparedness and 
competitiveness.
    Reps. Larsen (Washington), Schrier (Washington), and Davids 
(Kansas) introduced the National Evaluation of Aviation and Aerospace 
Solutions to Climate Change Act, instructing the U.S. Department of 
Transportation to partner with the National Academies of Sciences, 
Engineering and Medicine to study, catalogue and report on 
technologies, processes, materials or practices that contribute to the 
reduction of greenhouse gas emissions.
    With that said, much more must happen. The United States must act 
in unity and continue to move rapidly, aggressively, intentionally and 
with focus, if we want to lead this global electric aviation revolution 
that is happening.
    This global electric aviation revolution, promises significantly 
lower costs of aircraft operations, significantly reduced noise 
pollution, and zero carbon (CO2) emissions. The hourly operating costs 
of all-electric aircraft are 40 to 80 percent lower than using 
traditional fuel-based technologies. These savings stem from two main 
elements. The first is the much cheaper price of electricity when 
compared to fuel. For example, a ninety-minute flight on a nine-
passenger fossil-fuel powered aircraft will burn about $424 in fuel. 
The all-electric version of the same aircraft will only use $24 in 
electricity. The second reason for the lower operating costs is 
maintenance. Current engine technology is very complex, requires many 
parts working in unison turning at thousands and tens of thousands of 
revolutions per minute, at very high temperatures under substantial 
friction. This requires significant, regular, time consuming, and 
expensive maintenance. An electric propulsion system only has one 
moving part, turning at very low revolutions per minute, and operating 
at relatively low temperatures. The simplicity of electric propulsion 
means dramatically reduced maintenance costs.
    Transitioning to all-electric aviation means airline operators gain 
efficiency, can better respond to increasing demand with smaller 
aircraft flying from and to smaller airports, and offer more affordable 
pricing for travelers and cargo alike. And this transition means lower 
noise and zero emissions. Moreover, with the country's electric grid 
becoming cleaner and more renewable every year, we are on a clear 
pathway for an entirely clean electric value chain.
    By incentivizing the move of the aviation industry to electric 
flight by using small to mid-sized aircraft, we will be creating 
affordable access to and from more rural areas and we can better 
connect all of America. We can fulfill the vision this country had for 
the aviation industry in the 1930s, '40s, and as late as the '60s, when 
the massive number of small regional airports we have today in this 
country were built.
    Doing this will require us all to be bold. I would like to take you 
back to a time our country and our leadership had the intestinal 
fortitude to make courageous investments, take decisive action, and 
lead the world. On September 12, 1962 President John F. Kennedy told an 
audience at Rice University:

        `` . . . So it is not surprising that some would have us stay 
        where we are a little longer to rest, to wait . . . but this 
        country of the United States was not built by those who waited 
        and rested and wished to look behind them. This country was 
        conquered by those who moved forward . . . We choose to go to 
        the moon in this decade and do the other things, not because 
        they are easy, but because they are hard, because that goal 
        will serve to organize and measure the best of our energies and 
        skills, because that challenge is one that we are willing to 
        accept, one we are unwilling to postpone, and one which we 
        intend to win, and the others, too. It is for these reasons 
        that I regard the decision last year to shift our efforts in 
        space from low to high gear as among the most important 
        decisions that will be made during my incumbency in the office 
        of the Presidency . . . To be sure, we are behind, and will be 
        behind for some time in manned flight. But we do not intend to 
        stay behind, and in this decade, we shall make up and move 
        ahead.''

    Like conquering space and the moon, commercial electric aviation is 
an audacious goal. A goal that will require determination, focus, and 
grit. A goal that will compel us to put our best minds to work and make 
sacrifices as we make advances. A goal that will require the US 
government to make changes in our policies, regulations, and funding.
    We have all the ingredients we need right here in the United States 
to lead us on this tough journey. Companies like magniX and Eviation 
are doing this work right now. We have been designing, building, and 
flight testing the required technologies and solutions, and as 
companies, we are currently in a global pole position to lead the 
industry. In 2019, magniX retrofitted and flew the first-ever all-
electric commercially-focused aircraft--a five-passenger de Havilland 
Beaver (eBeaver) in partnership with Harbour Air--that took flight on 
December 10, 2019 in Vancouver, BC. It has been flying ever since, 
collecting data, testing performance, measuring noise, and more.
    A few months after the eBeaver's flight, in Moses Lake, WA, magniX 
started flying the world's largest all-electric commercially-focused 
plane--the magnified 9-12 passenger Cessna 208B Grand Caravan, now 
known as the eCaravan. With this aircraft flying at 8,000 feet, new 
heights were literally and figuratively achieved in terms of electric 
aircraft power and performance.
    Both of our aircraft flew without creating emissions. That is 
right--not one ounce of CO2 was emitted from these flights. Later this 
year, the nine passenger, all-electric Eviation Alice, the first 
aircraft to be designed from the ground up as an electric commuter, 
will be taking flight for the first time in Arlington, WA. This will be 
a monumental watershed moment for our industry. And it too, will fly 
without emissions.
    Our all-electric flight test aircraft measured that electric 
aircraft noise energies are 100 times lower than those of traditional 
fossil-fuel-based engines. In practical terms, when one of these 
aircraft is taking off 300 feet away from you, it sounds like people 
having a regular conversation next to you versus what it is today--
noise levels of a vacuum cleaner operating next to your ears.
    This topic is not, well, simply noise. Noise pollution is an 
important yet often sidelined pollutant from aircraft. The Harvard 
School of Public Health and Boston University School of Public Health 
found that people exposed to aircraft noise may face increased risk of 
being hospitalized for cardiovascular disease. And the number one cause 
of death in the US is heart disease. At significantly reduced noise 
levels, all-electric aircraft will also have far reaching impacts to 
our society and health.
    The Environmental Protection Agency reports that aircraft 
contribute 12 percent of U.S. transportation emissions and account for 
three percent of the nation's total greenhouse gas production. In the 
United States alone, 45,000 flights carrying three million airline 
passengers take off every single day. If we continue down this path, by 
2050, commercial aircraft emissions could triple, given the projected 
growth of passenger air travel and freight. This is not sustainable. 
Rapidly introducing electric aircraft that produce zero carbon 
emissions is absolutely essential to a clean-energy and healthy future.
    In addition to flying electric aircraft to prove out the technology 
and its benefits, magniX has also been working closely with the Federal 
Aviation Administration (FAA) on certification. The FAA has already 
published the Special Conditions by which it will evaluate magniX's 
electric propulsion and magniX is on a path to FAA certification before 
the end of 2022.
    Based on my experience, I believe the FAA is doing a great job and 
is working with the right attitude and approach. The agency is making 
every effort to learn about the new technologies and their benefits, 
while maintaining the utmost integrity when it comes to safety, 
reliability, and quality. As I plan to have my own children and, 
eventually, grandchildren fly on these new aircraft, I appreciate the 
work the FAA are doing and expect them to continue to uphold the utmost 
safety and reliability standards.
    With that being said, I think the FAA lacks the resources it needs 
for the enormity of the task ahead. They do not have enough staff to 
adequately support the new entrants and new technologies being 
introduced at a lightning pace. The resource shortage at the FAA is 
already creating delays; I fear that it will only get worse. I highly 
recommend that additional funding be provided to the FAA so that it can 
hire and train experienced staff and support the timely entry of new 
companies and technologies into the marketplace. This will also 
position the FAA to be the most knowledgeable and experienced regulator 
on this new technology, and enable them to teach and lead other 
regulatory agencies worldwide.
    With electric propulsion certification on track for 2022, that 
means there is a real possibility for smaller all-electric aircraft to 
start flying people and packages on short routes within the next four 
years--within this current Administration's first term. This is an 
audacious--but realistic--goal for our industry.
    The feasibility and benefits of electric aviation are clear and 
proven. I know the naysayers, many of them within the ranks of the 
incumbents of the industry's current antiquated technology, will 
provide many reasons why electric aviation is not feasible, why risks 
are not worth taking, why more time should be spent researching, 
analyzing, and debating, while the world moves ahead. Most of those 
reasons stick to a familiar theme: energy density of batteries and/or 
hydrogen fuel cells. Indeed, as I testify before you today, batteries 
and fuel cells are not powerful enough for a large-scale aircraft, also 
known in industry as a single isle or twin isle aircraft, carrying 100 
people or more, to fly 2,327 miles non-stop from Seattle to Washington, 
D.C. Batteries are only good enough today, in 2021, to power a 
passenger aircraft carrying five to nine passengers up to 500 miles.
    However, the question we should be asking is not ``can an electric 
aircraft fly as far as a fossil-fuel based aircraft?'' Instead, we 
should ask ``does today's electric aircraft meet the demands of the 
flying public?''
    In the United States, half of all airline flights are less than 500 
miles. This speaks loudly to the need and opportunity for middle-mile 
regional electric flight. Moreover, only 1.6 percent of all 50-500 
mile-trips in the United States are made by air. Travel for these 
distances is clearly in high demand, but the aviation industry has yet 
to provide customers a viable, affordable, and widely accessible 
option.
    What's more, access and equity are real issues for the future of 
aviation. Electric aviation, with lower-cost flights at ranges of up to 
500 miles, will enable affordable access even in the most rural of 
areas in the United States. Electric aviation will connect our 
communities like never before.
    On the topic of energy sources, I would like to point out that 
electric aircraft can be powered by multiple sources of electricity. As 
long as the propulsion system, i.e., the technology creating the 
thrust, is electric, it is deemed an electric aircraft. The source of 
energy can be batteries, including lithium-ion, lithium-sulfur, 
lithium-metal, solid state, and other battery technologies currently 
being developed. The source of energy can also be hydrogen fuel-cells. 
These fuel cells create electricity that then flows to the electric 
propulsion systems. In the future, there might also be new sources of 
electricity, fully renewable and recyclable, that are developed to 
provide the electrons needed.
    Today, given the state of development, the majority of electric 
aircraft are battery-electric and specifically using lithium-ion 
batteries. I believe this is temporary, as better and better battery 
chemistries are being proven, as well as advances in the development of 
hydrogen fuel-cells.
    While the source of energy is indeed the biggest challenge for mass 
adoption of electric aviation, I parallel this to where electric cars 
were less than ten years ago. When Tesla, the company that we attribute 
the democratization of electric cars started, it was with an electric 
propulsion system developed for cars, rudimentary batteries, and the 
conversion of the Lotus car. Mainstream car manufacturers, as well as 
battery manufacturers, discounted and disregarded Tesla and their idea 
of electric cars. The claims were similar to what we in aviation are 
hearing today--batteries are not good enough and there will not be 
enough range. But once Tesla started to prove that its converted cars 
where real, battery technology started to progress, and Tesla began to 
develop cars that were designed to be electric. Once it became clear 
this solution was real, other car manufacturers followed suit.
    Today, in 2021, seeing an electric car drive on our streets is no 
longer a novelty, and seeing a car charger at the entrance to a 
shopping mall is no longer an anomaly. Tesla had to start somewhere to 
lead the electric car revolution. Similarly, that focus, 
intentionality, and patience is required in aviation. magniX started 
with propulsion and retrofits. Now companies like Eviation are 
designing aircraft to be electric. And battery companies and fuel-cell 
developers are starting to realize that the potential is real and are 
making investments to improve the sources of energy.
    However, many of these companies are outside of the United States. 
Be it China, France, Germany, Norway, or the United Kingdom, these 
countries have created ecosystems that stimulate, incentivize, and 
financially support the rapid and aggressive development of carbon-free 
aviation. If the United States chooses to lead the electric aviation 
future, we'll see a significant number of jobs created across the 
nation. From advanced research jobs to aircraft assembly jobs to 
electronics manufacturing jobs--these jobs can support diverse 
workforces across the country.
    A paradigm shift in our mindsets must occur for this to happen. We 
did not reach the moon in one attempt or one stage. The journey to the 
moon started with low-altitude rockets, then higher altitude ones, then 
low orbit, then high orbit, until eventually we could fly to and land 
on the moon. Expecting electric aviation to immediately be able to 
power a 737 sized aircraft as it flies across the country is not 
reasonable. In fact, it only deters and defers the inevitable. The 
American people want a low-cost, accessible, equitable, sustainable, 
quiet, and demand-driven aviation transportation system. Electric 
aircraft can enable that. We must start with the correct vision--with 
smaller aircraft flying shorter distances from and to smaller airports. 
And as investments are made, policies are set, incentives introduced, 
and technology progresses, we will be able to advance to larger 
aircraft flying longer distances--a pattern that should be familiar 
across most evolving industries.
    To reach this audacious goal within the next four years, we need 
our President and Congress to take bold action to support and 
incentivize the move to electric aircraft and to provide the boost 
needed for the technology to really take flight. I recommend a holistic 
flight ecosystem approach: set aspirational goals, provide incentives, 
and set bold policies.
    Aspirational Goals. In 1961, President John F. Kennedy announced 
before a special joint session of Congress the dramatic and ambitious 
goal of sending an American safely to the Moon before the end of the 
decade. This goal was achieved on July 20, 1969. With the current state 
of technology, our President and Congress could set a dramatic and 
ambitious goal of having all-electric aircraft start carrying 
passengers and packages for up to 250 miles in range by the end of 2024 
and up to 1,000 miles by 2030.
    Incentives. Congress needs to provide incentives for airlines and 
operators to adopt electric aircraft and use them on existing or new 
routes. In many ways, this would follow the same pattern as electric 
cars. When buying or leasing an electric car, the buyer gets a 
significant income tax credit against the car, sales tax exemptions on 
the purchase or lease, and more.
    Following the same analogy, Congress needs to provide incentives 
for airports investing in charging capabilities and sourcing renewable 
energy from solar, wind, and hydro--just as installing an electric car 
charger at home provides a financial grant for the installation, 
incentivizing people to do so and eliminating a barrier in purchasing 
an electric car.
    Finally, Congress needs to provide incentives for manufacturers 
developing electric propulsion systems for commercially focused 
aircraft, retrofitting conventional aircraft to electric, and designing 
and building new fully electric aircraft. Using an existing model 
familiar to automobile manufacturers, aviation carbon credits should be 
introduced in which manufacturers of fossil fuel-based aviation 
technology would be required to offset their environmental impact by 
buying carbon credits from all-electric aviation manufacturers.
    These incentives can take the shape of budget allocations, 
financial grants, tax credits, rebates, exemptions, reduced 
registration fees, reduced utility rates, and other innovative 
proposals. We should also consider changes to the Essential Air 
Service--a taxpayer-funded program that subsidizes rural air 
connections. By simply adding an environmental-performance criterion to 
qualify for and be awarded such subsidies, operators will be encouraged 
to increase service to these underserved areas by using aircraft with 
lower operational costs and zero emissions. This will result in gaining 
additional clean and quieter routes without any increase in federal 
investment.
    Set Bold Policies. Policies drive behavior and right now our 
behavior is lacking. Congress should set bold policies that require a 
certain percentage of domestic middle-mile flights be emission-free by 
a certain date. It could also require government officials fly a 
certain percent of their flights on zero-emission aircraft by a certain 
date. Similarly, the Department of Defense could operate short 
transport flights using emission-free technology by a certain date. 
Policies like this will set a clear line in the sand and send a message 
that this Administration and Congress--and the country, take this issue 
with the seriousness it deserves.
    As this new electric aviation industry grows and flourishes, there 
is a significant opportunity to bring new jobs and training across the 
United States while meeting the goal of creating a more sustainable 
economy. Investing in electric aviation will create thousands of jobs, 
from manufacturers to suppliers to operators to airports and peripheral 
servicing companies, right here in the United States. Moreover, it will 
enhance the economies of smaller and rural towns by connecting them 
with low-cost and cleaner flights, enabling access to new markets.
    It is my sincere hope that Congress provides all modes of 
transportation, and specifically electric aviation, the critical 
support needed to accelerate our country and provide good-paying jobs. 
Electric aviation will reduce our reliance on fossil-fuels, lower our 
carbon footprint, decrease aircraft operating costs, and create greater 
accessibility and connectivity to all areas in our country.
    I will conclude by shamelessly paraphrasing President Kennedy, 
because his words are as relevant and accurate today for electric 
aviation, as they were for the Space Race in 1962:
    We choose to transition to electric aviation within the next four 
years, not because it is easy, but because it is hard, because that 
goal will serve to organize and measure the best of our energies and 
skills, because that challenge is one that we are willing to accept, 
one we are unwilling to postpone, and one which we intend to win. And 
while it is not surprising that some would have us stay where we are a 
little longer to rest--to wait--this country of the United States was 
not built by those who waited and rested and wished to look behind 
them. It was conquered by those who moved forward. I truly hope that as 
a country, we make the decision to shift our efforts in aviation 
towards electric. To be sure, we are behind, and will be behind for 
some time. But we do not intend to stay behind, and in the next four 
years, we shall make up and move ahead.
    Thank you for giving me the opportunity to provide my insights. 
magniX and Eviation are proud to be a part of the solution that returns 
the American aviation industry to preeminence and global leadership. We 
can do this by continuing to build upon the innovative, environmentally 
sustainable technology that is already here and can soon be 
commercially available. With the right investment and incentives, 
electric aviation can and will be our reality starting within four 
years. We are on the cusp of the ``Electric Age of Aviation;'' the 
United States must take advantage of it.
                                 photos
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Some of the magniX team members in the Everett, WA facility
    magniX includes 23% women and 27% minorities Photo taken in 2021

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The eBeaver powered by magniX all-electric propulsion flying in 
                             Vancouver, BC
                          Photo taken in 2021

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The eCaravan powered by magniX all-electric propulsion flying in Moses 
                                Lake, WA
                          Photo taken in 2020

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   The magniX facility in Everett, WA
                          Photo taken in 2020

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            The magniX logo

    Mr. Larsen. Thank you, Mr. Ganzarski. I appreciate that 
very much.
    And now I want to turn to Mr. Blake Scholl, founder and CEO 
of Boom Supersonic.
    Mr. Scholl, you are recognized for 5 minutes.
    Mr. Scholl. Good morning. I would like to start by 
recognizing and reflecting on why flying is so moving. Even 
though air travel has now become routine, it affords 
opportunities and experiences that were just unfathomable a few 
generations ago. And we get to enjoy all of this while miles up 
in the air, at hundreds of miles an hour, while having a 
breathtaking view of the Earth.
    Sixty years before the early jets, crossing the Atlantic 
took 6 days. And the jet shrank that to just 7 hours. But 
today, we cannot travel any faster than we could 60 years ago. 
So Chair Larsen, Ranking Member Graves, and members of the 
subcommittee, I am grateful for the opportunity today to 
discuss the coming renaissance of safe, sustainable, and 
affordable supersonic flight.
    Since the 1950s, the jet airplane has defined so much of 
our modern lives. Thanks to the speed of the jet, places like 
Hawaii are now major tourist destinations. Musicians think of 
world tours, and entrepreneurs can reach customers around the 
globe. And our leaders can gather frequently in person to build 
relationships and defuse crises.
    At Boom, we want to unlock new possibilities for human 
connection and for business. We have three guiding principles: 
safety, sustainability, and speed. Our first supersonic 
commercial airplane, Overture, is designed to facilitate net-
zero carbon travel. Aboard Overture, London would be just 3\1/
2\ hours from New York, and Sydney becomes as accessible as 
Honolulu is today.
    Overture, along with the other emerging technologies 
represented here today, are going to be pillars of the future 
transportation ecosystem. Some day you might take an electric 
taxi to the airport, board a supersonic jet, and then cross the 
planet at twice today's speeds.
    More seamless point-to-point travel makes for a more 
connected world. At Boom, we have been building a strong safety 
culture from day one. Developing our piloted supersonic 
demonstrator, the XB-1, has helped us build a safety-first 
mindset early on, and to develop our safety management system 
well ahead of Overture's assembly.
    We are also taking great care to ensure that speed and 
sustainability are compatible goals. This is a deep part of our 
culture, and our team is working diligently to maximize 
efficiency and minimize noise in Overture's design.
    Crucially, Overture will meet the same stringent noise 
levels that are applicable to the latest generation subsonic 
jets. We understand the importance of community engagement, and 
we plan to undertake such outreach well ahead of Overture's 
entry into service. And because Overture will fly at supersonic 
speeds over water only, we will not be creating sonic booms 
over communities.
    Sustainable aviation fuels, or SAF, are key to Overture's 
sustainability. And we are designing Overture from the ground 
up to run on 100 percent SAF, enabling net-zero carbon flight.
    Lastly, we plan to use and support high-quality carbon 
offsets, including new generation carbon removal technologies 
where necessary, to meet our net-zero commitments.
    Additionally, we are excited to be working with the United 
States Air Force, on potential military applications of our 
aircraft. For example, carry leaders across the world in half 
the time, evacuating wounded soldiers to medical care in time 
to save lives, and transporting lifesaving emergency supplies 
to where they are urgently needed.
    And of course I would be remiss if I did not thank Congress 
and especially this committee, for your leadership in passing 
the bipartisan FAA Reauthorization Act of 2018. Through this 
act, Congress helped drive important regulatory work in support 
of new innovation. And indeed, the FAA's work at the 
International Civil Aviation Organization is critical. 
Regulatory certainty is vital to our success, and ICAO must 
continue to advance economically reasonable, technologically 
feasible, and environmentally beneficial standards for 
supersonic aircraft.
    In the field of SAF, policy incentives will also be 
critical to accelerating production and adoption. At Boom, we 
support measures such as blender tax credits to accelerate SAF 
production, and we are working with a broad coalition of SAF 
stakeholders to advance that policy. Boom is proud that 
Overture will be designed and assembled in the United States, 
leveraging the formidable talent, entrepreneurial spirit, and 
tradition of innovation in our workforce.
    Faster travel will offer many benefits to society, and I am 
grateful that Congress continues to show leadership in aviation 
innovation.
    Thank you for having me here today, and of course, I am 
happy to answer your questions.
    [Mr. Scholl's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Blake Scholl, Founder and Chief Executive 
                        Officer, Boom Supersonic
    Good morning, Chair Larsen, Ranking Member Graves, and Members of 
the Subcommittee. My name is Blake Scholl, Founder and CEO of Boom 
Supersonic. Thank you for having me here today to talk about innovation 
in U.S. aerospace and our efforts to ensure the safe, sustainable 
reintroduction of commercial supersonic air travel.
    At Boom, we believe in a world where more people can go more places 
more often, and we want our children to grow up in such a world. Today, 
the barriers of time and inconvenience limit us from experiencing more 
of what Earth has to offer. By building transportation that is faster, 
more affordable, more convenient, and more sustainable, we can unlock 
new possibilities for human connection and for business.
    Boom is redefining what it means to travel long distances beginning 
with Overture, our first supersonic commercial airplane. We envision a 
future in which anyone can buy a ticket and enjoy the benefits of high-
speed travel. Aboard Overture, London would be just 3.5 hours from New 
York, and Sydney becomes as accessible as Honolulu is today. With 
Overture, three-day business trips could be done in just one day--you 
could attend meetings across an ocean and be home in time to tuck your 
children into bed. Speed powers growth and transformation, and 
increasing the speed of travel would foster greater human connection. 
And Overture is about more than just speed--we are also raising the bar 
for safety and sustainability.
    Traditional wisdom says that supersonic flights are expensive, 
uncomfortable, noisy, and unsustainable. Thanks to key breakthroughs at 
Boom and to innovations across the industry, supersonic flight can now 
be not just faster, but also more comfortable, more affordable, and 
sustainable. For example, our whole-lifecycle approach to 
sustainability will facilitate net-zero-carbon Overture flights. 
Overture will also fly at supersonic speeds only over water, so 
communities will not experience sonic booms. Overture is already a 
massive leap forward from Concorde--the only supersonic commercial 
airplane to see lasting service--but Overture is only our first 
airliner. Ultimately, we want the fastest flight to be the most 
accessible, too.
           Why now is the time for a paradigm shift in travel
    Until the middle of the twentieth century, people could expect 
continued innovation in travel speeds. Railroads, steamships, piston-
powered airliners, and jets each represented a significant improvement 
in how we got around. But in 2021, we're flying no faster than we were 
in 1960. The world has gone more than sixty years without a meaningful 
improvement in travel speeds. Limited by 1960s technology, Concorde was 
loud, costly, and fuel hungry. Concorde was a technological marvel in 
its time, but it was neither economical nor sustainable.
    Over the subsequent decades, aviation saw steady improvements in 
efficiency and safety. Fundamental advancements and key breakthroughs 
allow Boom to bring back supersonic travel--this time, economically and 
sustainably. Overture will be a brand-new airliner optimized to run on 
100% sustainable aviation fuels, facilitating net-zero carbon flights. 
It will leverage state-of-the-art computational design methods, 
advanced composite materials, and modern turbofan engines to increase 
efficiency and reduce noise. These technologies represent sixty years 
of advancement, but supersonic commercial aviation is still in its 
early days. Over time, we expect continued investment and innovation to 
lead to supersonic airliners that are even more efficient and less 
expensive--reducing ticket costs, fuel burn, and emissions. Overture, 
along with other emerging technologies represented on this panel 
including advanced air mobility and electric propulsion, will be key 
pillars of the future transportation ecosystem. Someday, you might take 
an electric air taxi to the airport, board a supersonic jet, and fly 
across the planet at twice today's speed. Together, these modes will 
enable easier, more seamless point-to-point travel and a more connected 
world.
                                 Safety
    At Boom, we have been working diligently to build both a strong 
safety culture and safety technology from day one. The U.S. aviation 
industry has an exceptional safety record, and we are committed to 
build on that legacy. However, we are also mindful of recent tragic 
accidents, and we have been proactively incorporating learnings and 
program governance best practices to ensure Overture is designed and 
built with safety in mind at every step. At Boom, we have involved 
pilots in the design and development of our airplane programs since the 
beginning.
    Our piloted supersonic demonstrator, XB-1, is a critical element of 
our safety culture. Designing, building, and testing XB-1 has given us 
the opportunity to build a safety-first mindset from day one and start 
to develop our safety management system well ahead of Overture 
assembly. XB-1 has helped mitigate risk from the Overture program.
    In addition, our goal is that Overture will be the first clean-
sheet airliner to seek certification in the aftermath of the COVID-19 
pandemic. The global health crisis has brought significant changes to 
how we go about our lives--and in the context of air travel, it has 
shown all of us that passenger and crew health is a critical component 
of safety. We plan to incorporate state-of-the-art air filtration 
systems and other health-promoting innovations, ensuring that flying 
aboard Overture is both safe and healthy.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	

                     Environment and Sustainability
    Air travel offers many benefits to society--facilitating cross-
cultural understanding, fostering new trading relationships, and 
supporting millions of jobs. But it also creates externalities, 
including community noise and climate effects, that the aviation 
industry is working diligently to minimize. As a new company designing 
a new airplane from a clean sheet of paper, Boom has the opportunity to 
optimize our products for sustainability. We have built this mentality 
into our culture from the beginning, and we are committed to making 
supersonic flight something communities welcome. Our team is working to 
maximize efficiency and minimize noise in Overture's design, and we 
plan to engage with airports and communities well ahead of Overture's 
entry into service to understand their concerns and help develop noise-
reducing flight procedures. Key for airport communities, Overture will 
meet the same stringent noise levels set for subsonic jets. Because 
Overture will fly at supersonic speeds only over water, Overture will 
not create sonic booms over communities.
    Because Overture is a new airplane, Boom is able to take a whole-
lifecycle approach to sustainability. This includes designing for clean 
manufacturing at our future final assembly line, where we plan to 
incorporate waste-minimizing production practices and leverage on- and 
off-site renewable energy, and it also includes planning for end-of-
life recycling.
    At the core of this whole-lifecycle approach is facilitating net-
zero-carbon Overture flights. In the development phase, we are reducing 
tailpipe CO2 emissions through airframe and engine design optimization. 
This step aligns economic and environmental goals. Next, we are 
ensuring that Overture can operate on up to 100% sustainable aviation 
fuels (SAF), a key strategy for more sustainable long-haul aviation, 
which will continue to rely on carbon-based fuels for some time. 
Current-generation SAF enables up to 80% reductions in life-cycle 
carbon emissions when compared with conventional petroleum-based jet 
fuels, and emerging SAF technologies could offer even greater 
reductions in net CO2. We believe the fastest and most comfortable 
flight should also be sustainable--and our goal is a net zero carbon 
future.
    Beyond the carbon reduction benefits, SAF also reduces emissions of 
particulate matter, helping mitigate the non-CO2 climate effects of 
aviation. SAF is currently only permitted to comprise up to 50% of a 
blend with petroleum-based fuels, but the clean-sheet nature of 
Overture allows Boom and our suppliers to design the airplane to use 
100% SAF, capturing the fuel's full potential to reduce CO2 and non-CO2 
effects. In the coming years, we will continue to engage with SAF 
producers to ensure adequate supply for Overture operations, and we 
expect to power Overture's engine test, certification, production test, 
and delivery flights using SAF. Lastly, we support and plan to use 
high-quality carbon offsets, including new-generation carbon removal 
technologies, where necessary to meet our net-zero pledges. 
Sustainability is at the core of Boom's mission to make the world 
dramatically more accessible.
                   U.S. global leadership in aviation
    Boom is proud that Overture will be designed and assembled in the 
United States, leveraging the formidable talent, entrepreneurial 
spirit, and tradition of innovation in our workforce. And we are 
fortunate to draw on the expertise of a variety of partners--including 
Collins Aerospace, Amazon Web Services, Rolls-Royce, and others. We are 
a growing team, and over the next several years, we will continue to 
create well-paying engineering and manufacturing jobs to support the 
Overture program.
    Beyond the immediate economic impacts of Boom and its partners, 
commercial supersonic manufacturing will have a sizable global economic 
impact. Leading investment bank UBS recently estimated the commercial 
supersonic market could be worth $255 billion by 2040.\1\ Undoubtedly, 
the promise of this market will spur international competition, and the 
United States must lead the charge.
---------------------------------------------------------------------------
    \1\ ``The need for speed--How will supersonic jets transform the 
travel industry?'' UBS Q-Series, 01 December 2020.
---------------------------------------------------------------------------
    The benefits of Overture go beyond commercial applications--for the 
United States government, supersonic travel represents a significant 
expansion in capabilities: conveying leaders across the world in half 
the time to resolve crises and build international connections; 
evacuating wounded soldiers to medical care in time to save lives; and 
rapidly carrying life-saving emergency supplies where they are needed. 
Boom is excited to be working with the United States Air Force to adapt 
Overture for executive transport. Overture could offer the Air Force a 
unique combination of passenger capacity, speed, cabin space, and power 
to accommodate requirements of multiple missions, enabling accelerated 
diplomacy and greater responsiveness to crises. Beyond USAF missions, 
Overture could also become part of the Civil Reserve Air Fleet and 
enable humanitarian and other critical airlifts in half the time.
    The United States has long been a global leader in aviation. To 
ensure that this leadership endures, the federal government must 
continue to encourage innovation and facilitate the integration of new 
entrants into the National Airspace System. I would be remiss if I did 
not thank this Committee and Congress for your leadership in passing 
the bipartisan FAA Reauthorization Act of 2018, which helped drive 
important regulatory work to support new innovation. We are grateful 
for the direction Congress provided to the Federal Aviation 
Administration, which has exercised global leadership in developing 
economically reasonable, technologically feasible, and environmentally 
beneficial standards for supersonic aircraft--helping ensure that U.S. 
industry remains the leader in this field.
    Regulatory certainty is critical to our success in bringing 
Overture to market. The FAA has also shown great leadership both 
domestically and at the International Civil Aviation Organization 
promoting the global standards necessary to develop, certify, and 
operate supersonic aircraft. The FAA has set up an office to deal with 
new entrants such as advanced air mobility vehicles. These processes 
will be extremely helpful to facilitate the introduction of supersonic 
aircraft--and to wider U.S. efforts to support emerging technology in 
aviation. I ask that Congress continue to provide resources to support 
this important work.
    Government also plays a key role providing policy incentives and 
resources for common infrastructure. We are grateful for the leadership 
role that this Committee has played in authorizing the FAA's Continuous 
Lower Energy, Emissions and Noise (CLEEN) program. CLEEN has been a 
successful public-private partnership to help advance sustainable 
technologies and we support expanding the program to include 
technologies applicable to new entrants. The technology behind SAF is 
well understood, but policy incentives will play a critical role in 
accelerating production and adoption. Boom supports measures such as 
blender tax credits to accelerate production of SAF, and we are working 
with a broad coalition of fuel producers, operators, airports, and 
manufacturers to advance this key policy.
    Thank you for having me here today, and I am happy to answer any 
questions.

    Mr. Larsen. Thank you, Mr. Scholl.
    And I want to thank all the witnesses for sticking to 5 
minutes or under. I appreciate that. It might be a record. We 
are going to go back and spend some staff time and look at 
that. So I appreciate that very much from folks.
    I also want to thank the staff on both sides of the aisle 
for putting together an excellent panel for us. I did think 
this was going to be a fairly interesting and somewhat exciting 
hearing based what I had planned to hear, and I think I can say 
ahead of time, before we get to questions, that this is giving 
us a lot to think about on the committee as we move forward in 
aviation. So I really want to thank the panelists for that.
    We are now going to move to 5 minutes each for Member 
questions. I am going to start by recognizing myself for 
questions. And next, if Mr. Graves--he had to step away. If he 
is not back, I think Mr. Massie will be next. He will be the 
first Republican up unless Mr. Graves comes back. So if Mr. 
Massie can be ready.
    So I recognize myself for 5 minutes. The first question is 
for Mayor Garcetti. Can you elaborate, specifically, on the 
elements FAA should include in vertiport standards to meet the 
needs of densely populated areas? This is the question that we 
are taking a look at on the committee. So specific elements the 
FAA should look at in terms of vertiport standards to meet the 
needs of densely populated areas.
    Mayor?
    Mr. Garcetti. Yeah, absolutely.
    First, I just think you have to coauthor this and write it 
with the community. Access is critically important, especially 
when it comes to private buildings. And looking at ways that 
the FAA can create a national standard, but also respect local 
zoning, local land use, and figure out a way to give that sort 
of flexibility on the ground and listen to the coauthorship of 
this with local communities as well.
    Seleta, I don't know if you want to add anything to that 
real quick, because I know the Members do not have a lot of 
time; but anything else you would add?
    Ms. Reynolds. I would just say consideration for 
integration with existing transit systems, as well as noise and 
redundancy. So do we have a large enough footprint to make sure 
that there are alternate landing and takeoff locations if 
something happens with the first one.
    Mr. Larsen. Yeah.
    And a follow up, Mayor Garcetti, how are you thinking about 
equitable access for residents using AAM?
    Mr. Garcetti. Well you know, we have developed something 
called Principles of the Urban Sky, or the other POTUS, as I 
call it. But Principles of the Urban Sky really looks at the 
ways that we can make sure that whatever we do in Los Angeles, 
that we have a public process to kind of coauthor that. That we 
look at links with our public transit system so that it is seen 
as connecting to a system, rather than existing above it.
    And making sure that there are stakeholders from 
underrepresented communities: lower income communities, 
commuter communities that often have been bypassed when it 
comes to cutting-edge technology. They should be the first to 
benefit, as well as folks of other communities.
    So we are looking at putting that together and probably 
having a task force while we develop a standard that wouldn't 
be just good for Los Angeles, but a playbook that hopefully 
folks from around the world can do. And doing that together 
with the World Economic Forum.
    Mr. Larsen. OK. Yeah, great. Thank you very much; it is 
great food for thought.
    Mr. Ganzarski, regarding magniX, you talked about in your 
testimony, you got the eBeaver and eCaravan 5 to 6 person and 9 
to 12 person. What is the limiting technological challenge to 
get to a platform that is larger, say, than a 12-seater 
caravan?
    Mr. Ganzarski. You are right. Right now, the limiting 
factor is sources of energy, meaning batteries and/or hydrogen 
fuel cells. With that said, today's batteries are enough, as 
you mentioned, to take a six to nine-passenger aircraft up to 
500 miles. And hydrogen fuel cells are good enough to take a 
40-passenger aircraft up to 500 miles. That is a project we are 
doing with Universal Hydrogen, converting at Dash 8.
    And so in the next 10 to 15 years, I would say that 40 to 
70 passengers will be the max size you see, and up to about 500 
miles in range. By the time we get to 2030, having 1,000-mile 
ranges with a 100-passenger aircraft should not be a problem.
    Mr. Larsen. Oh, we will make a note of that and check up in 
9 years with you on that one. You noted in your testimony, Mr. 
Ganzarski, that 23 percent of your workforce are women, 27 
percent are minorities. Is magniX doing anything specific to 
attract and hire a workforce that is more reflective of the 
Nation's diversity?
    Mr. Ganzarski. Yes. We intentionally and with purpose look 
for both women and minorities in the roles that we have. This 
is a challenging industry. Aerospace is a tough, tough industry 
to find good diversity in because they just do not exist. And 
that starts at middle school and high school; not enough women 
go into engineering. Not enough minorities go into engineering. 
And so when you want to hire someone today in 2021, the pool is 
much smaller.
    So you have to intentionally do that starting at middle 
school and high school programs. We go to campuses to look for 
women. We do internships, and then when we look at resumes, we 
specifically try to focus on minorities and women in this 
industry so that we can propel them up; but it is not an easy 
task.
    Mr. Larsen. Thank you. I want to touch on that with Mr. 
Grimsley.
    Given your focus on improving visibility of drone research 
and testing among the K to 12 Choctaw Nation students, how can 
the Federal Government--or should the Federal Government 
support the Choctaw Nation's efforts to encourage the students 
to pursue STEM and aerospace careers?
    Mr. Grimsley. Well thank you very much for that question. 
It is a very important question, and I agree with what the 
previous witness said. We need to reach the children at younger 
ages. That is when they develop the passion and when they have 
the ability to have a sense of confidence that STEM is 
something that they could do a career in, engineering is 
something they can do.
    I believe the things that Congress is doing right now in 
terms of broadband buildout, including STEM education as part 
of things like the FAA reauthorization, are all important. But 
I think more opportunities for partnerships. We have a great 
partnership with NASA where we do a lot of STEM-related camps 
for our Choctaw youths. So more opportunities where we can work 
with agencies so that we can reach some of these underserved 
students in some of these areas.
    The Choctaw Nation has really historically been an 
impoverished area. The Tribe has made a huge impact on the 
quality of life and economic opportunity. But we are still an 
emerging area. So one of the big things that we are working on: 
STEM at that younger age. We are looking at middle school and 
all the way through high school as something very important to 
us, even as part of BEYOND and our previous IPP efforts.
    So I think that----
    Mr. Larsen. OK.
    Mr. Grimsley. Thank you, appreciate it.
    Mr. Larsen. Yeah, thank you. I need to cut myself off.
    And with that, I will just doublecheck that Mr. Graves is 
available.
    [Pause.]
    Mr. Larsen. OK. Then we will move to Representative Massie 
of Kentucky.
    You are recognized for 5 minutes.
    Mr. Massie. Thank you, Chairman Larsen, for having this 
hearing.
    Mr. Bry, since we share an alma mater, I want to start with 
you. Also, I was very disturbed by the state of our drone 
manufacturing and the small market share that we have. What are 
the biggest challenges that you see for drone manufacturers in 
the United States? Why is China so dominant and what can we do, 
if anything, in Congress to sort of change the playing field or 
level it out?
    Mr. Bry. Well thank you, Representative, for that question. 
I think it is a really important issue.
    So there is some history to this. I grew up flying radio-
controlled airplanes, which is kind of my on-ramp into the 
industry. And the U.S. had a thriving, and still has a 
thriving, obvious community, which I think is really important. 
But most of those RC airplanes, RC toys, were manufactured in 
China. And I think that is actually one of the reasons why 
China got out to an early lead, because there has kind of been 
this blending of the hobbyist industry into what is now the 
drone industry.
    I think the most important thing to recognize is that we 
are still very early. The technology is in its infancy, so 
there is tremendous opportunity. Ultimately, the way that we 
win is by having better products. And I think the way that we 
have better products is by focusing on the stuff that we are 
good at.
    So at Skydio, we focused on autonomy and AI. We think that 
is the future of the industry. And we are winning head-to-head 
with customers across basically every segment based on the 
strength of that AI and autonomy.
    From Congress' standpoint, I think there is a few things to 
consider. The U.S. public sector represents a really 
significant customer base for drones: from State departments of 
transportation to DOT to public safety. And the more the 
taxpayer dollars are going to support U.S. companies, the 
stronger the U.S. industry is going to be. So legislation like 
the American Security Drone Act, which is primarily concerned 
with security of drones, will also help promote U.S. industry.
    And I also think doubling down on the stuff that is 
working. So using drones for infrastructure inspection--and 
this is a use case that has tremendous public good. There is an 
opportunity to provide grant funding to increase that and help 
State departments of transportation stand up stuff that is 
working. You have heard this in a number of the opening 
statements as well: the regulatory environment matters a huge 
amount. We need to have regulations that support autonomous 
flight because that is really the future of the industry.
    Mr. Massie. Well let me ask you about that. As you well 
know, I am sure there were 50 UAS provisions in the last FAA 
authorization. How is that going at the FAA? We need a robust 
domestic end-user market for drones in order to have robust 
manufacturing, I believe.
    So how are they doing on that and what can we do?
    Mr. Bry. Again, I very much appreciate the question. I 
mean, I think there is a lot of good stuff in there.
    So one of the things that we have really benefitted from, 
from the last FAA reauthorization, was what is called the 44807 
provision. So there is kind of this, you know, small--part 107 
if you have a pilot, if they are flying within visual line of 
sight. That is one end of the spectrum.
    The other end of the spectrum is full type certification, 
which is designed primarily for crewed aircraft at a much 
larger scale. And there is kind of this missing middle, which 
44807 begins to fill where it is a lighter weight, faster 
process to certify autonomous aircraft for routine operation. I 
think we need a lot more of that. The FAA seems to be kind of 
backing away from this. I think we need to double-down on 
things like that.
    And one of the other areas that was called out in the 
reauthorization, which I think is really important to continue 
with, is investment in education. Because that is really where 
all of this starts. We are hiring from the pool of talent that 
comes from our educational system. And I think that is 
ultimately the future.
    Mr. Massie. Mr. Scholl, I am really excited about the 
prospect of civilians flying supersonic again, and especially 
if those routes will start from the United States. Can you tell 
us how far away we are, Mr. Scholl, from civilians flying 
supersonic? And what is the first route you are going to focus 
on?
    Mr. Scholl. Yeah, thank you.
    Yes. Super exciting. We are going to have passengers on 
board before the end of the decade. To give you a little bit of 
a sense of the timeline, our XB-1 supersonic demonstrator--
which is history's first independently developed supersonic jet 
and the first new civil supersonic aircraft since the Soviets 
did it in 1968--that airplane is going to fly around the end of 
this year, early next year, start to set some speed records.
    We are breaking ground next year on the factory for our 
Overture airliner. We are going to start building the first one 
in 2023; it is going to roll out of the factory in 2025, and 
begin flight tests in 2026. So we are just 5 years away from 
having the first American-made supersonic airliner in our 
skies, and that is tremendously exciting.
    As far as which routes we are going to focus on, that is 
really up to our airline customers. But you are going to see 
supersonic first on the routes that are transoceanic. Think New 
York to London in 3\1/2\ hours. Think L.A. to Sydney in 8 
hours. Think being able to get from the U.S. to Asia an entire 
day faster than it takes today. You can leave a day later, 
sleep at home before you have to leave, it is super, super 
exciting.
    Mr. Larsen. Thank you.
    Mr. Massie. Thank you, Chairman Larsen. Has my time 
expired?
    Mr. Larsen. I am sorry, your time has expired.
    Mr. Massie. OK. Thank you very much.
    I yield back.
    Mr. Larsen. Thank you, Representative Massie.
    And next up, we have Representative Carson, who will be 
followed by Representative Mast.
    Representative Carson of Indiana, you are recognized for 5 
minutes.
    [Pause.]
    Mr. Larsen. I was waiting for a hint from the staff about 
sound.
    [Pause.]
    Mr. Larsen. You seem to be muted, Mr. Carson.
    Representative Carson.
    Mr. Carson. Yes, sir.
    Mr. Larsen. There you go. Representative Carson is 
recognized for 5 minutes.
    Mr. Carson. All right. Thank you. You know, I'm preparing 
to reintroduce my bipartisan bill with Don Young, the National 
Center for the Advancement of Aviation Act. It would 
effectively support and promote collaboration among civil, 
commercial, and military aviation sectors to address the 
demands and challenges associated with ensuring a safe and 
vibrant national aviation system through research, education, 
and training.
    To the panel, what do you think about this kind of center 
that would effectively go across silos of so many different 
aviation sectors and build up our American aviation industry. 
Is this too ambitious? What are your thoughts?
    Mr. Larsen. Mr. Carson, this is the chair. Could you 
identify a specific person to ask that of, please?
    Mr. Carson. Let's start with the good mayor. I think he's 
passionate about aviation.
    Mr. Garcetti. Absolutely. I would welcome it, Congressman. 
I think it's absolutely critical, and as we look at 
infrastructure packages that you'll be considering, having 
these national centers to both test and develop, I think of the 
high desert where the B2 bomber, Northrop Skunk Works, others 
have for a long time helped develop the aerospace innovation 
that's helped us win wars and keep the peace.
    Right now where there's drone technology and transportation 
technology being focused, I think for all of us it would be 
welcome to see that sort of investment. We can't take for 
granted that it will just happen. I think the best of public-
private partnerships are the public funding to see this 
research be accelerated and then the private sector to spin it 
off as we've seen in this country from everything from the 
internet to the aerospace breakthroughs we've made in the past. 
So I would absolutely welcome it, and I'd probably lobby to put 
it here, but since my wife's from Indiana, I'd settle for 
Indiana too.
    Mr. Carson. Those Hoosiers ties run deep. Thank you, sir.
    Mr. Garcetti. You bet.
    Mr. Scholl. I can throw in a couple cents here. I am not 
familiar with this specific proposal but I think we're really 
onto something here with the importance of innovation at the 
intersection of different technologies. Especially as we think 
about the future of advanced air mobility, supersonic flight, 
how that intersects with our infrastructure, bringing together 
airports, airlines, aircraft manufacturers including new kinds, 
and thinking about how we can more fluidly move around the 
planet. This can be a major opportunity for innovation.
    Mr. Carson. Thank you.
    Mr. Ganzarski. I'd be happy to add to that as well in that 
I think the center would really have to focus on what is the 
deliverable and what do you call success. Is it about R&D? Is 
it about bringing practical solutions to market? How do you 
know the sector has been successful and how do you measure it?
    Mr. Carson. That's good, very good. Thank you all. I yield 
back, Chairman. Thank you.
    Mr. Larsen. Thank you. I recognize Representative Mast for 
5 minutes, who will be followed by Representative Davids. 
Representative Mast for 5 minutes from Florida. Sorry. We're 
going to skip ahead, and I apologize. Representative Balderson, 
you're recognized for 5 minutes.
    Mr. Balderson. Mr. Chairman, thank you very much. I 
appreciate everyone joining us today. My first question is 
going to go to Mr. Scholl. Mr. Scholl, I have had the 
opportunity to visit NASA's Glenn Research Center, which is 
located in Cleveland, Ohio, outside of my district, but within 
a 2-hour drive.
    So one of the many great projects they're working on with 
their state-of-the-art wind tunnels is developing a prototype 
quiet boom supersonic aircraft. Has your company collaborated 
with NASA or other Federal agencies on researching this 
technology or delivering a commercial product?
    Mr. Scholl. Thank you very much for the question. To be 
clear, with Overture 1, we are starting focusing on routes that 
are over water only for supersonic flight. So the question of 
quiet boom and sonic boom over communities is not something 
we're addressing in Overture 1. However, I am very excited with 
the work happening at NASA Glenn with the QueSST program and 
elsewhere about developing the technologies that will 
ultimately enable supersonic flight unrestricted everywhere, 
and I think that is certainly part of the future.
    Mr. Balderson. Thank you. Is there anything Congress can do 
to ensure some of the Federal research to help commercial 
airspace?
    Mr. Scholl. I think that's a great question. I think we're 
on a good track with QueSST. I think one of the things that 
would be important, sort of guidance in the regulatory process, 
is balancing sustainability, balancing affordability, and 
balancing what is an appropriate, acceptable noise level for 
communities. Sometimes, those goals can be intention, and 
having to balance on making supersonic flight acceptable for 
everybody, affordable for everybody, is going to be huge to 
enabling that next generation of high-speed flights everywhere 
for everybody.
    Mr. Balderson. Thank you very much. My next question is for 
Mr. Harter. Mr. Harter, thank you for joining this morning 
also. What do you believe the best practices are for Federal 
research collaboration with entities like your university and 
how can Congress best support your work and ensure that Federal 
agencies are collaborating with researchers on the university 
level?
    Mr. Harter. Thank you for the question, sir. I appreciate 
the opportunity. So I think NIAR has a long history of being 
able to process intersections and bring together all the 
different stakeholders; the Government, the industry, academia 
to collaborate on different research projects as well as to 
inform and help write the regulations and policies.
    So I think the Federal Government should continue to invest 
in research opportunities as well as policy and guidancemaking 
in centers that create those intersections, and I think Wichita 
State is very well poised to do that as are other institutions 
in the U.S.
    Mr. Balderson. OK, thank you very much. Mr. Chairman, I 
will yield back my remaining time. Thank you all very much.
    Mr. Larsen. Thank you, Representative. I now recognize 
Representative Davids, after which it will be Representative 
Van Drew. Representative Davids from Kansas, you are recognized 
for 5 minutes.
    Ms. Davids. Thank you, Chairman. And thank you to all our 
witnesses for taking the time to join us today, especially Mr. 
Harter, who is coming from the Sunflower State and serving on 
today's panel. Thank you so much.
    I also really want to just kind of note how much I 
appreciate the chairman and ranking member for holding the 
hearing that we're having today. This is a chance for us to 
look forward and evaluate the opportunities that exist that are 
frankly really exciting in the U.S. aerospace sector.
    Of course, one area of particular interest for me is 
advanced air mobility, or AAM, as folks often refer to it as. 
Because these air transportation systems hold a lot of 
potential to integrate into existing aerospace operations, 
whether we're talking about local and regional, rural, urban, 
passenger, cargo. I think we're hearing about all of that 
today. And I think a lot of folks would love to imagine a 
future where you can hop onboard a small electric vertical 
takeoff vehicle in the middle of an urban environment or city 
environment like Kansas City and then fly a really manageable 
distance. What would normally take maybe 45 minutes to commute 
now only would take 10 or 15 minutes. And it's obvious that 
that future is not really that far off.
    And I've had the chance to visit with some of the companies 
that are working on this exciting technology, and I know that 
now is the time for us to be engaged in this from the 
congressional level. And this is actually one of the reasons 
that Ranking Member Garret Graves and I have introduced H.R. 
1339, the Advanced Air Mobility Coordination and Leadership 
Act. We're going to come up with a nice little acronym for that 
for everybody.
    But you know, this is a simple bill that's got some pretty 
commonsense stuff in it directing the DOT to establish an 
advanced air mobility interagency working group. That includes 
executive agencies, labor, public and private stakeholders, 
which we've heard are going to be so important to this.
    And then, of course, there's obviously the infrastructure, 
security, cybersecurity, but when we're talking about an 
industry that's predicted to be a $1.5 trillion industry, we 
need to make sure that we're taking this really seriously here. 
And that's for everybody here in States like Kansas and all 
across the country.
    So I want to start off actually with a question to Mayor 
Garcetti. Mayor, I know you all have already started to prepare 
for an AAM-enabled future with your Mobility Plan 2035. You 
have a working group established, and I'm just curious, what 
questions and answers do you think that other cities need to be 
looking at when they're evaluating the future of AAM?
    Mr. Garcetti. Well, thank you, Representative Davids, and 
thank you to you and to Ranking Member Graves for the AAM 
Coordination and Leadership Act. I think it's a really 
important piece of legislation to have introduced.
    We're looking at a few different things and trying to do 
this in conjunction, not just with other cities but rural 
Tribal areas, as well as having this conversation outside the 
United States to see what sort of global standards might be 
developed, though I think America should lead on these.
    Obviously, it's the sharing of data in a way that's open-
sourced as much as possible for stakeholders to be able to see 
that and understand the space that we all own collectively. 
We're looking at things like affordability, how much do these 
rides actually cost if they were in an urban area. Of course, 
the planning issues that I mentioned about land use, but also 
the distribution of vertiports. Are they equal in different 
communities? It's like broadband; this will be something for 
rural communities to consider as well as poorer neighborhoods 
in urban areas, the noise and visual pollution.
    And then lastly, the jobs from the manufacturing all the 
way to the passenger experience. What sort of standards do we 
want to establish for these jobs and opportunities for folks 
who are underserved and economically don't have as many 
advantages.
    Ms. Davids. Yeah, I appreciate the--particularly when it 
comes to the up and down stream. Both the jobs and also making 
sure that our suppliers are taken care of, and in Kansas where 
we've got both up and down stream suppliers, I'm keenly aware 
of how important that can be.
    And one last thing I wanted to just----
    Mr. Larsen. If the Representative could wrap? Your 5 
minutes is up.
    Ms. Davids. OK, OK. Sorry. I just wanted to--thank you to 
the Choctaw Nation for all the innovative work that you all 
have been doing. I meant to say that earlier.
    Mr. Grimsley. Thank you.
    Mr. Larsen. Thanks. A little change-up here. We're going to 
recognize Ranking Member Garret Graves from Louisiana for 5 
minutes.
    Mr. Graves of Louisiana. Great. Thank you, Mr. Chairman. 
Mr. Chairman, I love that we're talking about advanced 
technologies and found my internet was not solid in the first 
opening statement, but I think we got that fixed.
    In any case, I want to follow up on a question I believe 
Mr. Massie asked, and if I could ask Mr. Bry. We've seen a lot 
of problems with supply chain and perhaps dependence upon 
supply chain from China that's problematic. We've seen the 
percentage of the drone market share. Could you talk a little 
bit, you know, Congress is especially concerned about this 
increased reliance upon them for batteries for technology for 
components. Can you talk a little bit about the current status 
of domestically sourced components and supply lines and why you 
think that's important?
    Mr. Bry. Yeah, I very much appreciate the question, 
Representative Graves. I think this is a really, really 
important issue, and it's something that we think a lot about 
at Skydio. So most of the most critical components on our 
drones are coming from U.S. companies. The two major processors 
that we use are coming from Embedia and Qualcomm, both U.S. 
companies. Wherever we can, we're sourcing stuff from U.S. 
companies or allied nations. And there are a lot of great 
components out there.
    We were actually the first commercial customer for a 
company called Arris Composites that has a really innovative 
composite technology, a critical component for our latest 
enterprise drone. So I think there's a lot of good stuff 
happening. It's also important to recognize that these things 
take time, and there are certainly areas where there just are 
not U.S. alternatives. I think there's a lot of innovation and 
a lot of good things happening. I think everybody kind of 
recognizes that there's opportunity and need here. It's just 
going to take a little bit of patience to get there. But I 
think a lot of positive things are happening.
    Mr. Graves of Louisiana. Great. Thank you. I appreciate it.
    Mr. Harter, one of the things the subcommittee has been 
focusing a good bit of time on, and I know the chairman shares 
concerns, is on cybersecurity threats as it relates to 
aerospace. And certainly with new generations of technologies 
before us, this whole threat evolves. Could you talk a little 
bit about how you see the current threat and what we need to be 
thinking about as policymakers and some of those on the Zoom in 
terms of innovators?
    Mr. Harter. Yes, certainly. Thank you for the question. 
Cybersecurity is a paramount concern in all of new 
technologies. Aerospace, of course, is getting more and more 
connected. Not only in the technology of the aircraft or the 
air vehicles themselves, but in the technology that helps those 
air vehicles navigate our pathways. So we need to spend a lot 
of time and have a lot of concern and research and make sure 
our workforce is ready to support the cybersecurity of not just 
the air vehicle itself, but the systems that support those and 
help them fly around our Nation and across the world. Does that 
answer your question, sir?
    Mr. Graves of Louisiana. It does. Thank you. And I think 
this is an area where we need to continue being very thoughtful 
and vigilant, ensure that we keep it on the front burner.
    Mr. Bry, if I can go back to you, the FAA has done a number 
of rulemakings and a number of initiatives to integrate drones 
into the national airspace, IPP, BEYOND, unmanned traffic 
management systems and others. Can you talk a little bit? 
Again, I know the chairman mentioned this. I mentioned it in 
the opening as well. We've got to make sure that all of these 
efforts are coming together to ensure that we are efficiently 
and safely integrating drones into the national airspace.
    Could you just talk a little bit about how you see these 
things coming together?
    Mr. Bry. Yeah. Again, I think it's a great question, and I 
think this committee and the FAA deserve a lot of credit for 
the work that's been done. We've benefited quite a bit from the 
integration pilot program, the IPP. It's gotten us connected to 
end users. We've gotten some breakthrough waivers for low-
altitude beyond visual line of sight.
    The most important thing I think is using that momentum to 
create repeatable operational stuff that goes beyond these 
pilot programs and gets codified into actual scalable 
regulations. And thanks to the pilot programs I think we now 
have a lot of data that suggests and shows the kinds of 
operation that can be done safely. So I think we've got a lot 
of the pieces we need. We just need to make sure that we keep 
the momentum and turn those into actual scalable operational 
standards.
    Mr. Graves of Louisiana. Great. Thank you. Yield back, Mr. 
Chairman.
    Mr. Larsen. Thank you, Representative Graves.
    I now recognize for 5 minutes Representative Kahele of 
Hawaii. Representative Kahele.
    Mr. Kahele. OK. Thank you so much, Chair, and aloha, 
everyone. It's great to be on this hearing today. As a pilot, a 
lifelong pilot, I'm really excited about some of the really 
innovative things that we're talking about.
    And my first question goes to Mr. Scholl from Boom. I had a 
great opportunity to read your testimony and I had something 
that popped out at me and I wanted to ask you a question on it.
    You mentioned in your testimony that Overture, the 
supersonic aircraft which looks very similar to the Concorde, 
but obviously from your testimony, there's much greater 
technological advancement in this type of aircraft. But you 
noted that the Overture will--due to noise--only fly supersonic 
speeds over the water.
    And so my question was, that makes a lot of sense when 
you're flying from New York to London or Japan to Hawaii, but 
how would that work flying from Los Angeles to New York if 
we're limited to flying right under the speed of sound?
    Mr. Scholl. Great question, really appreciate it. The 
reality is we're going to see supersonic travel coming to 
market in a couple phases, and that first phase is going to be 
focused on supersonic flight over water. So fortunately, Hawaii 
is one of those places to get a super benefit from it since 
it's right in the middle of a lot of water.
    Of course we want to get from, say, Seattle to Washington, 
DC, faster than we get from Seattle to Tokyo. And so there is 
going to be, I think, a second generation here, possibly some 
supersonic corridors that would allow high-speed flight over 
land.
    And then what we really need to have this be mainstream 
everywhere is global standards for supersonic flight over land, 
understanding what's going to be an acceptable level of noise 
over communities that doesn't create disruption.
    And then once we have those standards, once you have that 
certainty, we know we can build aircraft that meet it, but we 
can't do that in phase 1 because we don't know what we need to 
do. So it's that regulatory uncertainty that's really holding 
it back.
    Mr. Kahele. All right. Thank you for that. Second question 
is in regards to the SAF reductions in carbon emissions and the 
types of fuels and technology and research we're doing to build 
aircraft that are more energy efficient, more carbon neutral 
and the ones that help us contribute to a cleaner environment.
    Can you talk a little bit about that part of your testimony 
and what Boom is doing and Overture is doing to do R&D into 
that?
    Mr. Scholl. Yeah. It's a great question. It's super, super 
important to us, and we believe deeply that the airplane that 
you most want to be on from a comfort perspective, from a 
convenience perspective, from a speed perspective, also needs 
to be the one that's best for the planet. And, you know, 
historically we've seen those things in conflict, but they 
really don't need to be.
    And I think there is great inspiration that we can take 
from what Tesla has accomplished in automotive. You know, 
before Tesla you didn't want an electric vehicle. They were 
slow. They didn't go very far. They weren't fun to drive. And 
then they showed us that we could build an electric car that's 
great to drive and is best for the planet.
    And so that's the kind of vision that inspires us in 
Overture. And so the question is well, how do you do it? You 
can't do it with electricity, not anytime soon, because 
batteries are simply too heavy for a long-range flight. You'll 
run out of charge before you get to your destination.
    So what you need is sustainable aviation fuel, which is 
chemically very similar to today's jet fuels, but can come from 
completely carbon-neutral sources. So there are a bunch of ways 
we can do this. There are biofuels. There are fuels that are 
based out of municipal waste. There are fuels that are based in 
carbon sequestration. And we're designing Overture from the 
ground up to be the first commercial airliner that's going to 
run on 100 percent SAF, and that's super important to us as a 
design goal.
    Now, the biggest challenge, and I think this is where there 
is an opportunity for this committee and for Congress to 
provide some leadership, is that the supply chain for 
sustainable aviation fuel, for SAF, needs to be scaled. And 
today the technologies exist, but they're not scaled up yet.
    So we need things like producer tax credits, R&D around SAF 
and how we scale that so that it is not just technologically 
feasible, but available in large quantities and available on 
terms that are economically competitive.
    Mr. Kahele. Thank you so much for that. And mahalo, Chair, 
and I yield back.
    Mr. Larsen. Thank you, Representative, and I'm going to 
recognize Representative Steel of California. And just a heads-
up that Representative Williams from Georgia will follow 
Representative Steel.
    Representative Steel, you're recognized for 5 minutes.
    Mrs. Steel. Thank you, Chairman Larsen and Ranking Member 
Graves. I'm happy to have the opportunity today to hear from 
the witnesses about the advances that aerospace industries are 
making through research and innovation for the future of 
American air transportation.
    I have the honor of representing coastal Orange County, 
California, in Congress. My district is home to John Wayne 
Airport. The airport is located between the cities of Costa 
Mesa, Irvine, and Newport Beach, and serve more than 3 million 
people within 34 cities and unincorporated areas of Orange 
County.
    In 2019, approximately 10.7 million passengers flew through 
John Wayne Airport. The residents of Orange County and of my 
district care a lot about our airport. In addition to the 
convenience of having a world-class airport close to home, my 
constituents are also deeply concerned about the impacts noise 
and pollution have on our community.
    I'm very encouraged by the innovations that the witnesses 
have presented today. They show that private-sector innovation 
is the driver for a new, cleaner, and quieter air travel. But I 
know the new technology such as electric airplanes have been 
part of the discussion for quite some time.
    I believe the Federal Government has an important role to 
play in cutting redtape and providing a regulatory environment 
where new technology can be approved for use safely yet avoid 
the pitfalls of using taxpayers' dollars to pick winners and 
losers. I'm happy to be a member of the Quiet Skies Caucus and 
to work here in Congress to help reduce noise and pollution 
from air travel.
    I believe the best way to do this is to create a fair 
playing field where innovation can flourish and airlines, 
manufacturers, and travelers can make the best choice for their 
businesses, and most importantly for the health and wellbeing 
of their passengers and the communities in which they operate.
    So having said that, I want to ask Mr. Ganzarski, can you 
share more about the current market for electric aircraft and 
about what the barriers are to transitioning to this more clean 
and more efficient technology?
    Mr. Ganzarski. Thank you very much. John Wayne Airport is a 
great example of a regional airport in the middle of a dense 
population. Imagine being able to fly in and out of John Wayne 
Airport with an aircraft that produces 100 times less noise 
energy, 20 percent less decibels, and do so at zero emissions. 
That completely changes the landscape. Now imagine that 
aircraft costs 40 to 80 percent less per hour to operate. How 
many more people in and around John Wayne Airport can now have 
access to flying?
    The fact is that most flights in the United States are less 
than 500 miles in range, which means that battery-electric or 
hydrogen fuel cell electric aircraft, even small ones, can 
today serve a large amount of demand.
    Because of battery density and fuel cell density, we will 
start with small aircraft, 6, 9, 12, 40 passengers flying to 
and from smaller airports in distances of 250 to 500 miles. But 
that will open up access and equity at costs and cleanliness of 
levels that have never existed before, and so the market is 
very strong for it. Now we have to incentivize the move 
forward.
    Mrs. Steel. So your testimony includes a request for 
incentives for manufacturers that make electric aircraft. So 
can you share how to see electric aircraft competing without 
taxpayer subsidies?
    Mr. Ganzarski. So it wouldn't have to be even taxpayer 
subsidies. Imagine carbon credits. So there is now the 
discussion about having carbon credits for synthetic aviation 
fuels. What if it was also for electric? If you use an aircraft 
or are manufacturing an aircraft that pollutes the environment, 
you can offset those with credits towards an aircraft or a 
propulsion system manufacturer that does so with completely 
clean technology.
    And so those types of incentives and subsidies, if we call 
them that, will encourage other manufacturers in other 
aerospace companies to go more electric.
    Mrs. Steel. Thank you very much. Thank you for all the 
witnesses and I yield back.
    Mr. Larsen. Thank you, Representative.
    The Chair now recognizes Representative Williams of Georgia 
for 5 minutes.
    Ms. Williams of Georgia. Thank you, Chairman Larsen for 
convening this hearing, and thank you to all of our witnesses 
today. It's critical that we make investments into aeronautics 
research. We have some of the best scientists and researchers 
at NASA working with the FAA on advanced air mobility. What was 
once thought of as futuristic or something from ``The Jetsons'' 
will be our reality in no time. With all of the forms of 
transportation, safety is one of the top things that we need to 
ensure.
    Mayor Garcetti, I represent the city of Atlanta, and we're 
similar to the city of Los Angeles in many ways. Both cities 
are urban areas. Both have very large, busy airports, some of 
the busiest in the world, and have extreme vehicle congestion.
    As we move to implement AAM, what safety regulations and 
standards do you believe the Federal, State, and local 
government should have in place to ensure that residents in 
urban areas that are high density are safe?
    Mr. Larsen. Mayor Garcetti, you seem to be on mute.
    Mr. Garcetti. Sorry. Thank you so much, Representative 
Williams. We have a real expert here, who not only serves on 
the FAA Drone Advisory Committee, but who has been trying to 
help us hear what some of these things might even sound like in 
an urban environment. So I'm going to ask Seleta Reynolds to 
answer that with your indulgence if that's OK.
    Ms. Williams of Georgia. Yes, thank you.
    Ms. Reynolds. Thank you so much, Representative Williams, 
for the question. And I was born in Atlanta, so it has a place 
in my heart forever. I just want to share that like Atlanta, 
Los Angeles is a city that has suffered a legacy impact of 
where freeways are and how they really box Black and Brown 
neighborhoods and low-income neighborhoods out of opportunity.
    And as we consider where we are going to locate vertiports, 
we want to consider equity of impacts. We want to make sure 
that we don't double down on those same legacy impacts of the 
past. And that means we have to consider safety, which means 
that while the industry wants to innovate and lean forward, 
that probably should not happen over urban areas.
    But we also want to consider noise impacts. And in Los 
Angeles, we've actually built a sound lab where residents can 
come in and stand on the corner of a different part of Los 
Angeles; touch, feel, and hear what it might sound like, so we 
can really start to get their reactions about how they might 
like to see these things come into their community.
    We want everybody to benefit, but we want to make sure that 
we do not continue the harms of the past. And so that sound lab 
research is something that we hope we can share with other 
cities, especially cities like Atlanta that share so much in 
common with Los Angeles.
    Ms. Williams of Georgia. Thank you, Ms. Reynolds. And going 
more into that, AAM aircraft will still require landing areas, 
so thinking about the equity and the concerns from the past, 
how do you propose we build this infrastructure in cities that 
currently have limited space and land like L.A. and Atlanta?
    Mr. Garcetti. Go ahead, Seleta. Yeah.
    Ms. Reynolds. So I think that we need to come up with a 
tiered policymaking, so there may be regional hubs where larger 
or louder aircraft can take off and land, maybe near existing 
airports or other regional hubs like Union Station.
    But then at smaller distributed hubs throughout our 
neighborhoods, we want to have a higher bar and make sure that 
those aircraft are quieter. Maybe they're more appropriate for 
aircraft that are carrying cargo that are delivering things to 
restaurants and other sort of retail establishments, or even 
residents in those arenas.
    And so I think there is a thoughtful approach to 
policymaking where we really can come up with some creative 
ideas that directly address the needs of communities. We don't 
need another solution in search of a problem, and I think 
that's where sort of thoughtful city voices at the table can 
make the difference between success and failure for this 
industry as it scales.
    Ms. Williams of Georgia. Thank you. And Mr. Bry, in your 
testimony, you mentioned that companies based in China 
currently dominate the U.S. market share of drones by 80 
percent. What would it take for the United States-based 
companies to manufacture drones at the same rate or faster than 
what is currently being manufactured by these other companies?
    Mr. Bry. Thank you, Representative, for the question. I 
think this is an incredibly important issue and topic, and 
something that we think a lot about at Skydio and we're proud 
of the progress that we've made. I think just a few years ago, 
people thought it wasn't possible for a U.S. company to build a 
competitive product, and we're showing now on the strength of 
our artificial intelligence and autonomy that we can build a 
product that is winning just on the strength of its 
capabilities for a really wide range of customers.
    And I think that's really the most important thing, is 
using the things that the U.S. is good at. We've led the way in 
cell phones with the transition to software-defined devices 
with the iPhone, with Android. I think there's a similar 
opportunity with drones as AI and autonomy become more 
important. So I think getting the product piece right is most 
important.
    And anything that's good for domestic manufacturing is also 
going to be good for the U.S. drone industry, so we started 
building our drones in the U.S. because it was the way to get 
the best product the fastest with the fastest development 
times. Drones are really like other aerospace products where 
there's tight integration between hardware and software 
manufacturing.
    Mr. Larsen. Thank you, Mr. Bry. Thank you, Representative 
Williams. The time is expired.
    I'll now recognize Representative Johnson of Georgia, 
followed by Representative Brownley of California. So I 
recognize Representative Johnson for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. I would 
like to ask Mr. Harter, how has the COVID-19 pandemic 
illuminated the need for greater innovation in the aerospace 
industry, and how can Congress amplify its role in 
incentivizing greater innovation in the aerospace industry?
    Mr. Harter. Thank you, Congressman Johnson, for the 
question. So how has COVID illuminated innovation in aerospace? 
That was the question. Correct?
    Mr. Johnson of Georgia. Yeah, the--how has the pandemic 
illuminated the need for greater innovation in the industry?
    Mr. Harter. I can't say that I've thought about that 
particularly, but let me try and, let me try and shed some 
light on that. So I think what we've seen is a big impact in 
air travel. We've certainly seen the airlines and OEMs respond 
with innovation in ensuring that air is clean inside their 
vehicles as we fly, and we've seen great innovation there and 
very good progress.
    There's been a lot of research and effort spent in ensuring 
that the way that we clean the aircraft doesn't damage them. 
And I think we're going to see a lot of innovation in the way 
seats are configured, the way people board airplanes, and 
continued innovation in the way air is cleaned on board the 
airplanes as well. I think----
    Mr. Johnson of Georgia. OK. All right. Well, thank you. 
Does anyone else care to respond to that question?
    Mr. Ganzarski. Yes. This is Roei Ganzarski. I'll be happy 
to add, COVID has showed us that people can work from home 
regularly. Many companies have already said that even post-
COVID, people can continue working from home because it saves 
costs and increases productivity.
    What that means is--and we saw an article today in CNBC 
saying that younger generations are now moving out of the 
cities. Where once people were afraid of gentrification, of 
city costs going up, now it's the opposite. People are moving 
more to the suburbs, more into rural areas. That means now that 
low-cost aviation can connect them when they do need to come to 
the office, once a week, once every 2 weeks. They can come with 
low-cost, clean energy electric aircraft from a small airport 
nearby.
    The second thing----
    Mr. Johnson of Georgia. OK. All right.
    Mr. Ganzarski [continuing]. COVID----
    Mr. Johnson of Georgia. OK. Go ahead, go ahead.
    Mr. Ganzarski. The second thing is with COVID, maybe people 
don't want to come an hour ahead to their flight, stand in line 
with hundreds and thousands of other people at a large, 
congested airport. Maybe they would prefer to come 15 minutes 
ahead of time with only 10 or 15 other people to a smaller 
airport. So both those aspects are making changes.
    Mr. Johnson of Georgia. OK. Anyone----
    Mr. Grimsley. I'd like to comment on--yes, on behalf of the 
Choctaw Nation, in a way that we were not ready with 
regulation. We had communities when the pandemic started 
reaching out to us because they wanted to do contactless 
delivery. They said, is there anything we can do to do drone 
delivery now to get supplies to assisted living centers, 
basically to reduce that contact, human to human. And the 
regulatory system was not ready.
    So we saw a lot of other technologies, businesses that were 
using things like curbside delivery and online ordering, app 
ordering. They were able to shift, and society was able to 
adjust very quickly.
    On the side of things like drone delivery, where society 
could have benefitted, the regulatory system was not ready. We 
could not get anything in place to do any sort of meaningful 
missions or to help the public, specifically because the 
regulatory system has been so slow to get to where we are now.
    So I'd say our regulatory system actually delayed our 
ability to respond, in my opinion, very proactively or very 
constructively to the pandemic response.
    Mr. Johnson of Georgia. OK. Anyone else?
    Mr. Scholl. Yeah. I have a couple of things to throw in 
here. I think we're going to see that one of the effects of the 
pandemic is it's going to actually accelerate the adoption of 
supersonic flight, and that's for a couple reasons. First is 
the more we're able to do things over Zoom, the less tolerance 
people are going to have for the time inconvenience and hassle 
that air travel takes today, and the more attractive the 
faster, speedier flights are going to be. So that's thought 
number one.
    And thought number two is the way the aircraft fit into the 
airline fleets is changing. Airlines, as we know, have 
downsized their subsonic fleets, many retiring aircraft 10, 15 
years ahead of when they otherwise would have. And as we exit 
the pandemic and we see that air travel starts to recover, 
there's going to be a new generation of fleet plans made at 
airlines and supersonic for the first time is going to be baked 
into those from day one, and that's going to result in a much 
faster adoption of high speed than what we would have seen 
otherwise.
    Mr. Johnson of Georgia. Thank you. I'm sorry I'm not going 
to be able to ask you a question, Mr. Bry, but technology is 
very interesting. I wanted to ask about weaponized drones. You 
don't produce those, do you?
    Mr. Bry. We do not. We're focused on----
    Mr. Johnson of Georgia. Thank you, and I yield back.
    Mr. Larsen. All right. Thank you, Representative Johnson. 
We'll have Representative Brownley, followed by Representative 
Payne.
    Representative Brownley, you're recognized for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman, and thank you very 
much for having this very interesting hearing. My first 
question is to Mr. Mayor, and you've sort of already touched 
upon this question, but I wanted to ask it anyway. So can you 
kind of explain how your city is engaging with the community to 
determine these vertiport locations for UAM, and how UAM is 
really being integrated into an extraordinary transit system 
being developed and in progress right now in Los Angeles?
    Mr. Garcetti. Yeah. It's actually very exciting, 
Representative, to engage the community. There's a lot of 
excitement and a lot of fear. I think human beings are either 
totally horrified by this or totally excited by this, and 
there's not a lot of people in between, and sometimes human 
beings can contain both of those emotions together.
    But for instance, I chair a Metro system for Los Angeles 
County, the third busiest transit system in the country. When 
we were just changing our bus service or looking at new rail 
lines in anticipation of the Olympics, we engaged with as many 
as 20,000 people. It's been tougher to engage people around 
this, and so we're looking for creative ways with the FAA and 
others. And FAA has done a great job of putting safety first, 
though we need to have the ability maybe to test some of this 
stuff a little bit more real-time.
    We are looking at those conversations, but we're trying to 
engage people with things like what Seleta Reynolds has done 
with our Department of Transportation is you can go someplace 
and listen to the difference between a helicopter, a drone, you 
can look at some of the AAM options, and hear that. In most 
neighborhoods in Los Angeles, for instance, you don't really 
hear much of the electric drone noise because it's already 
louder than that. We don't have, as you know, a lot of rural 
areas where there's a lot of quiet.
    So we're looking at ways to engage people where it's not 
just: What do you think of the boogeyman or are you excited 
about ``The Jetsons''? It's more like: Listen to this, how do 
you move from place to place, where would you want a vertiport 
if one was here, and how would you use it? Would you want it 
mostly to deliver packages in this area, or would it be 
something that human beings should be able to use, and how do 
you get accessibility through a private building for a public 
good?
    So those are some of the things and--but I think it's going 
to be a challenge for us across the country to engage people on 
the technology they don't really know anything more than a 
caricature about at this point.
    Ms. Brownley. What are two or three things at the top of 
your list that Congress should be doing to integrate UAM into 
the transportation systems?
    Mr. Garcetti. Absolutely. I mean, first, just with drones 
in general and UAM, I think it's very important. As I said, FAA 
has done a great job of putting safety first, whether it's NASA 
and the Grand Challenge or the Agility Prime in the Air Force.
    But at LAX, for instance, we have, I think, 260 reported 
cases of unauthorized drones in the area since 2016, and we 
can't test some of the kind of defensive work that we need to 
do to detect and to mitigate and have remote IDs. I think that 
would be a critical thing that Congress could help us, and the 
FAA could help us do in the short term.
    I think also it's very important that Congress, like I 
said, establish national standards and allow the local 
flexibility, especially when it comes to land use so that we're 
not overruled on things. We're often overruled, as we know, 
about the flightpaths, and people complain about them that are 
under them. When it comes to land use, people get even more 
intense.
    So I think that automation deconfliction, helping work with 
planning departments, and then finally, working together to 
understand the technical requirements of aircraft, but also 
their impacts on the noise, the density, environment, and 
privacy, those would be the main things that I would--and how 
do you fund the infrastructure?
    Is this something that cities pay for, or are Tribal areas, 
are areas in cities going to be potentially left behind if 
they're not higher income parts of America, and again we create 
that two-class transportation system?
    Ms. Brownley. And do you think FAA is hearing your message 
regarding Federal standard but local control?
    Mr. Garcetti. There's been some--I think they're hearing 
it, for sure, and we look forward to actually the 
implementation of that as well, and that's tough. I know FAA 
doesn't want 10,000 local standards, but a standard to allow 
local flexibility, especially when it comes to what gets built 
in cities and even rural areas, I think that's absolutely 
critical.
    Ms. Brownley. Thank you so much.
    And Mr. Scholl, I wanted to just comment to you. I have 
very limited time now, but you had mentioned SAF, and what the 
Federal Government needs to do to increase its supply and 
supply chain. And I just wanted to let you know that I have a 
bill, a great bill to do just that, and I would hope that you 
take a hard look at it and join many in the aviation industry 
in supporting the bill in terms of moving forward for cleaner 
fuels for all of aviation, so I appreciate your interest.
    And with that I will yield back. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Brownley.
    The Chair, before recognizing Representative Payne, will 
note that Representatives Stanton and Norton are next in order 
after Representative Payne, who is now recognized for 5 
minutes.
    [Pause.]
    Mr. Larsen. Sorry. We'll just move on and then we'll come 
back to Representative Payne. Representative Stanton from 
Arizona is recognized for 5 minutes.
    Mr. Stanton. Thank you very much, Mr. Chairman. Can you 
hear me OK?
    Mr. Larsen. Hear you fine. Go ahead there, Greg.
    Mr. Stanton. All right, great. What a fascinating hearing 
and an important hearing, so thank you for holding it. The 
aviation industry played such a critical role in Arizona's 
economy, supporting good jobs, making it easier for travelers 
and workers to get to our region, shaping local communities and 
impacting our environment. We already see how technology and 
innovative practices can transform every aspect of our lives, 
and it's no surprise that the aviation industry is evolving as 
well.
    In Arizona, we're committed to being at the forefront of 
transportation innovation. That includes the latest in 
aerospace and defense, clean public transit, autonomous vehicle 
testing, and drones.
    The common thread is that these innovations are 
strengthening our economy and our local communities, and as 
Government leaders, we're here today to explore how innovations 
in aviation can improve policymaking and the way we invest in 
infrastructure.
    My first set of questions are for Mr. Bry, CEO, Skydio. 
Drones play an increasingly important role in the way we 
inspect infrastructure such as roads and bridges. It's a job 
that when done by humans can be incredibly dangerous, and you 
addressed this during your testimony, but I want to hear a 
little bit more. How can the FAA help to promote safe and 
effective use of drones to inspect America's aging 
infrastructure?
    Mr. Bry. Thank you, Representative Stanton. It is a great 
question, and it is something that we are really excited to be 
working on at Skydio. I think the first thing is just 
recognizing the benefits, as you alluded to. There is 
incredible safety benefits for the workers doing these 
inspections. And it is also a positive transformation for the 
inspections themselves. You get a full digital record of the 
structure. Makes it easy to track changes over time. So we 
really think this is the future of this industry.
    From the FAA's perspective, from a regulatory perspective, 
I think the most important thing is unlocking autonomous 
operations from the ground up. We have the data now with our 
customers, and there are other companies doing similar things 
to know there is the potential for safe operations very close 
to the ground where drones pose no risk to manned aircraft. 
They pose no risk to people on the ground, and there is 
tremendous benefits for the people operating them. And I think 
that is really the place to start. We can scale up in size and 
altitude from there.
    Mr. Stanton. OK. That is great. And then I know you have 
talked a little bit, and I want to hear a little bit more about 
how the use of drone technology can help the environment. How 
can drones help mitigate carbon emissions and play a role in 
reducing climate change?
    Mr. Bry. Yeah. Thank you for the question. This is another 
really important area and, I think, an area of tremendous 
opportunity. So in basically every industry where our customers 
are using drones, the kind of status quo technology is some 
piece of heavy machinery. It could be a snooper truck for 
bridge inspection. These trucks actually get about 5 miles to 
the gallon. They have to drive them all over the country to 
perform bridge inspections.
    It could be a crewed helicopter which burns hundreds of 
gallons of fuel per hour. And a drone uses negligible energy. 
It is all electric. So the general story is the more that we 
are using drones to perform this work, the smaller the carbon 
footprint is going to be. We have done some analysis on this 
with our customers that finds that using drones for bridge 
inspection--just a fraction of the bridges in a State is 
equivalent to removing thousands of cars from the road. And the 
more that we do that across the country, the more that we are 
going to see the benefits.
    Mr. Stanton. That is great. And my next question is for 
Mayor Garcetti. Great to see you. Thank you for your 
outstanding testimony today. The balancing act between Federal 
jurisdiction and the role of local governments as it relates to 
drones. When I was mayor of Phoenix, I expressed some 
frustration when the FAA was trying to regulate airspace over 
the city and didn't really understand the full context in my 
city, particularly desert preserves and the importance of 
protecting desert preserves in my city. Maybe you can talk a 
little bit about your thoughts about the balancing act between 
the role of the FAA in drone regulation and what is the role of 
local governments in managing low-altitude airspace over 
cities.
    Mr. Larsen. I am sorry. This is the chair. Before you 
answer that--and I will give you a few extra seconds here, 
Greg--reminding Members to mute yourselves if you are not 
questioning because your talking is interrupting the questioner 
and the answers. Mute yourself if you are not currently asking 
questions.
    Mr. Garcetti. Well, thank you, Mayor. I mean, 
Representative Stanton. It is great to see you. And I know that 
experience you have had. Certainly, I think at some lower 
level, on the lowest level, that you have to have some local 
ownership, some local power, some local jurisdiction because it 
does become the city itself, not just the airspace above it. 
But we have been working with Google and others to--kind of how 
to even map three-dimensionally the space above a city and 
what's the basic unit of that, something that Seleta Reynolds 
has been the cutting edge of. And I think making sure that we 
can--again, around that, planning land use in transit 
connections.
    This isn't something that is autonomous--no pun intended--
from the rest of the way we get around cities. It has to be 
integrated in, and that has to be a fundamental understanding. 
So I think that is the best way to approach that and to empower 
local governments, whether it is at a certain altitude or 
certainly not mandating how and where--unless it is around 
equity. I would welcome some sort of Federal mandates where 
cities have to make sure this is done equitably and affordably, 
but then we can figure out exactly how to hit that standard.
    And finally, from your previous question, as chair of our 
L.A. Metro, we use drones right now to inspect our rail 
infrastructure. And our fire department uses them all the time 
for hotspots. So we are already seeing that from a public 
safety perspective, not just transportation.
    Mr. Stanton. All right. Thank you for that excellent 
answer, and I yield back.
    Mr. Larsen. Thank you. Thank you, Representative Stanton.
    We are going to flip back again to Representative Payne, 
and then after that, go to Representative Norton.
    Representative Payne, you are recognized for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman. And, you know, sorry 
for not being there when called on. It was a bit of a dilemma. 
The Uber Eats guy came right at the same time you called on me, 
so I had to go pick up the Uber Eats, so I am back, though. 
Thank you.
    Mr. Larsen. We understand. Go ahead.
    Mr. Payne. Let's see. Mr. Grimsley, emerging aviation 
technology such as unmanned systems have the potential to 
greatly assist underserved communities. Businesses that have 
been historically discriminated against should not be left out 
of the process of developing these new technologies and 
bringing them to consumers. Can you explain why it is important 
that disadvantaged businesses be given a fair shot to implement 
emerging aviation technology?
    Mr. Grimsley. Yeah. That is a very good question. Thank you 
very much for that. I am an optimist when it comes to 
technology. I see technology as always a potential equalizer, 
an opportunity where we can see communities actually change the 
way they have access to quality of life through technology.
    I could give an example. I also serve as an Oklahoma 
transportation commissioner. So I have some oversight 
responsibility over our roadways and our bridges. And in our 
area, it is very historically impoverished and a very poor area 
historically. The roads are not that great. And so your life, 
your access to healthcare or just the risk of safety of driving 
around is at risk because these roads are not always up to the 
standards that they need to be for the traveling public.
    I see technology such as drones and even AAM as being able 
to allow us to leapfrog, to allow communities that don't quite 
have that infrastructure in place in roadways to get access to 
health services or get access to emergency healthcare or to get 
access to other things that improve the quality of life by 
leapfrogging very quickly. So I think it is very important that 
we ensure equity in what we are doing.
    We are seeing some tremendous things happening within the 
Choctaw Nation. And that is an area that traditionally has not 
had access to a lot of things. But it is happening very quickly 
now because of technology. Thank you.
    Mr. Payne. Thank you. And Mr. Chairman, that--I wish I had 
picked up on the topic for today a bit earlier. I work with 
several minority drone companies in Maryland, the consortium of 
four African-American companies that have gotten together that 
are in the drone space. So maybe one day, we can look at 
people, minorities in that space, and what they are doing, so 
just as potentially a topic in the future.
    Mayor Garcetti, it is good to see you here once again. 
Unmanned aircraft systems, or UAS, have opened the doors to 
numerous practical applications that improve lives and benefit 
communities. However, they must be used in a responsible 
manner, especially when used in dense urban areas near major 
airports such as Los Angeles or Newark, where I am from. How 
have you been engaging with your community to educate them on 
the responsible use of UAS, and what advice do you have for 
other cities who wish to do the same?
    Mr. Garcetti. It is a great question, Representative Payne. 
And I hope Uber Air delivered your food. I know they are 
talking about aerial delivery. I think it is a really good 
question because you really have a bunch of hobbyists right 
now. And trying to get to them is like trying to find your 
tweezers in the haystack and pull out the people that are 
engaged in this. The rest of us are kind of watching it and 
wondering about it.
    But I think what I would advise is kind of traditional 
community organizing, going into communities and putting 
together--we have a system of neighborhood councils, folks who 
are already interested in traffic and transportation issues and 
empowering them to be the voices and then provide them not just 
what do you think of X, but give a curriculum. Give them an 
experience, which is why our Department of Transportation is 
actually going and inviting community members to listen to what 
these things hear about, mapping and going around the city to 
see where noise is variable.
    Those things can empower you beyond just the particular 
issue of UAS. I think it is for all of us to be able to look at 
ways of empowering ourselves in the system. And that equity of 
access, that availability and affordability of services--for 
instance, we are trying to make transit free in Los Angeles, a 
bold pilot to make our Metro lines, which we already do with 
our city bus lines, free for everybody.
    But what does that mean when it comes to aerial 
transportation as well? And giving them the choice of weighing 
in on themselves being moved by these vehicles versus the goods 
that they need or the supplies for the businesses they go to. 
But it is a tough one. I think really there should be some 
funding that goes into that community capacity and organizing 
or else this will be a conversation among a lot of geeky 
experts like us, but it won't engage the public at large.
    Mr. Payne. Well, thank you for that answer, Mr. Mayor.
    And I yield back, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Payne, and your 
suggestion is so noted by the staff, so we will follow up with 
you, Representative Payne, on meeting with some of these folks 
in the drone business and minority-owned drone businesses.
    Next up will be Congresswoman Norton from the District of 
Columbia. You are recognized for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. This is 
really not a futuristic hearing because the future is now. I 
want to begin with Mr. Garcetti. I am interested in jobs and 
economic opportunity, particularly when you say there are 
280,000 new jobs coming by 2035. I am interested in the wages 
and opportunities. Are there existing pipelines to ensure a 
diverse talent pool, particularly of underrepresented 
minorities, or is this going to be an all-White matter?
    Mr. Garcetti. Well, that is an important question. We are 
trying to make that be reflective of our city and our Nation. 
Los Angeles is kind of the face of the Nation, I think, 
tomorrow, in many ways. And we are doing everything from 
setting up transportation schools that are focused on children 
who have experienced homelessness, been in the foster care 
system, live in our lowest income communities of color and 
getting them from the seventh grade into a public school that 
will prepare them for transportation careers as engineers and 
investors and builders, people who will be operators and 
maintainers of systems as well as people who can run agencies.
    New York had one of these, and we looked at it. And Phil 
Washington, the head of our Metro system, and I at the time--
Supervisor Mark Ridley-Thomas are building this school. And we 
are going to our community colleges, which I think is 
absolutely critical saving some of those aerospace maintenance 
programs that have existed through our public schools, our 
adult schools, and our community colleges.
    And that is absolutely critical because if we get this 
wrong, then there will be a backlash, I think, against this. 
People won't see those jobs. In L.A., 50,000 people in L.A. 
County are in aerospace jobs, 300,000 indirect and direct jobs 
in the southern California region. So it is an immense 
manufacture. We are also going straight to those companies and 
asking them to make pledges to hire more diversely and to train 
more diversely because that is the pipeline of what is coming.
    I say don't wait for the pipeline to produce. Build it 
ourselves, and I think Federal funds that would go into those 
sorts of job training and, last piece, local hire. Please let 
us hire locally when we are investing our money in local 
transportation to support this and any transportation measures, 
something that was allowed in the Obama administration and 
taken away.
    Ms. Norton. That is encouraging, though, Mayor.
    Mr. Scholl, I am a cochair of the Quiet Skies Caucus. I am 
particularly concerned particularly here in the District about 
noise, aircraft noise.
    Mr. Larsen. Congresswoman Norton, would you--Congresswoman 
Norton, would you just suspend for a moment? There is some 
background noise. If everyone could mute yourselves, please. 
Thank you. No, thank you. Please mute yourselves.
    Ms. Norton. If I could--if my time----
    Mr. Larsen. Go ahead, Congress----
    Ms. Norton [continuing]. Could begin again, sir----
    Mr. Larsen. No. We stopped your clock. Don't worry about 
it.
    Ms. Norton. OK.
    Mr. Larsen. Go ahead. Go ahead.
    Ms. Norton. My question was for Mr. Scholl because here in 
the Nation's capital, we have been particularly concerned about 
aircraft noise. And supersonic flights were once infamous for 
that. I am a cochair of the Quiet Skies Caucus. I understand 
that Overture will only fly supersonic speeds over water to 
avoid creating supersonic booms. Still, even flying at normal 
speeds, aircraft generate a significant amount of noise. Is 
there research that would allow these aircraft to mitigate 
noise?
    Mr. Scholl. Thank you for the question. And we share your 
view and concern that aviation impacts to communities need to 
be minimized and continue to make forward progress. And you are 
right. Supersonic flight over water only so sonic boom isn't a 
consideration at all. And secondarily, we are using the latest 
generation propulsion technology, optimizing the airplane.
    So Overture is going to meet the same most stringent noise 
levels that apply to latest generation subsonic aircraft, so 
completely different than the last generation of supersonics. 
You were asking about R&D that could further advance that. 
There are opportunities that are kind of on the drawing board 
today, something called variable cycle engines, for example, 
that are going to allow us and next generations to push to even 
higher speeds while being even quieter at the same time. So we 
have got even more to look forward to here, and supersonics, 
going forward in the future.
    Ms. Norton. Can I ask you, Mr. Scholl, will Overture follow 
the same routes as current aircrafts over the same communities, 
or will it need new routes for its flight speed?
    Mr. Scholl. So over airport communities, it will take off 
and land just like every other airplane today. No need for 
special integration of the airspace.
    Ms. Norton. Thank you. I have a final question for Mr. Bry.
    Mr. Bry, drones interest me, and you mention education and 
training as some of the programming that Congress should enact 
in order to build a workforce. Let me ask you, drones with 
artificial intelligence cameras and sensors pose serious 
concerns for privacy that only grows as these technologies 
become more ubiquitous.
    How are you as a company building in safeguards for privacy 
as you build your technology?
    Mr. Larsen. Mr. Bry, we will give you 30 seconds to answer 
that, please.
    Mr. Bry. Yes, thank you, Representative, for that question.
    I think this is an incredibly important topic and something 
that we think a lot about at Skydio. So the most important 
thing that we do is only send customer data back to us if they 
explicitly choose to do so. So our app makes this very clear. 
If customers want to, they can say ``share flight logs with 
Skydio.'' There are all kinds of reasons why somebody might 
want to do that, to help us debug an issue or improve their 
experience. But it is totally transparent to customers and it 
is up to them.
    And we are actually the first drone company in the world to 
announce a set of ethical principles that guide our work. 
Privacy, civil liberties, transparency are at the forefront for 
us. I think this is----
    Mr. Larsen. Thank you.
    Mr. Bry [continuing]. Companies and lawmakers----
    Mr. Larsen. Thank you. Thank you, and thank you, 
Congresswoman Norton.
    The Chair now recognizes Representative Johnson from Texas 
for 5 minutes, and Representative Garamendi will follow 
Representative Johnson. Representative Johnson from Texas, 5 
minutes.
    [Pause.]
    Mr. Larsen. Just waiting for Representative Johnson maybe 
to return. We will put her in the queue and we will go to 
Representative Garamendi for 5 minutes.
    Sorry, Representative Garamendi, to catch you in mid-lunch 
there, sorry about that.
    Mr. Garamendi. Hello, Mr. Larsen.
    Mr. Larsen. You are good.
    Mr. Garamendi. Fascinating hearing. Thank you very much for 
the opportunity to ask a couple of questions.
    Mayor Garcetti, you seem to be a very busy person this 
morning. You seem to be the focus of a lot of attention. 
Perhaps that is because L.A. is such an important city with 
such an awesome mayor. But I have a question for you, Mayor.
    Mr. Garcetti. Sure.
    Mr. Garamendi. The upgrading of your airports requires a 
pile of money. We have a financing program at the Federal 
Government for transportation, mostly for highways, it is 
called TIFIA.
    Mr. Garcetti. Yes.
    Mr. Garamendi. We have been trying to expand TIFIA to 
include other modes of transportation, particularly airports, 
so that the investment in those airports could be made using 
Government financing. Federal Government can borrow money now 
20 years, maybe in 30 years, somewhere around 2 percent. It 
seems to me to make enormous sense for us to take advantage of 
that, make that money available through the TIFIA program for 
airports such as yours and others from around the Nation so 
that they can meet the requirements of much of what Mr. Larsen 
has put on the table today.
    So what do you think about going with TIFIA? And do you 
think it is a cool idea that you would support? If you think it 
is a bad idea, just don't say anything. What do you have for 
us, Mayor?
    Mr. Garcetti. Well, the feeling is mutual towards you. 
Thank you for your excellent service to our State and our 
country.
    As I mentioned, it is the third busiest airport in the 
world, second busiest in the United States, and the biggest 
airport improvement program in America, $15 billion. In my 
state of the city address just last week, I greenlit three more 
terminals.
    We have essentially, as folks put it, done open-heart 
surgery on somebody while they are running a marathon, because 
we had to keep this going while building every terminal out as 
well as three new terminals, four now, that we have greenlit.
    We would love, in anticipation of the 2028 Olympic and 
Paralympic Games returning to American soil, and we would take 
advantage of TIFIA funds if they were available for airports, 
together with the long overdue increase to the PFC cap and 
added flexibility for AIP funding. We would absolutely welcome 
it. I think it is a brilliant idea.
    Mr. Garamendi. Well, thank you. We do share brilliant 
ideas. It is good to work with you. I don't know how many years 
we have been at it, but it has been a good, long while and a 
good run.
    Mr. Garcetti. Thank you; you, too.
    Mr. Garamendi. Hang in there and we will see what we can 
do. I think we got a good shot at this. If you could talk to 
the other mayors, other airport folks around----
    Mr. Garcetti. You got it.
    Mr. Garamendi [continuing]. Many of whom are on this, I 
think we can push this thing through.
    The other question goes, if I might, to Mr. Harter. And 
this has to do with my work on the Armed Services Committee. We 
are trying to green the military. We are trying to see if we 
can really force them to reduce their consumption of carbon 
fuels, particularly hydrocarbons, petroleum products.
    Conservation is one of the best ways of doing that, but 
beyond conservation and they are going to battery-powered 
vehicles, including Abrams tanks, so that would be hybrid, the 
fuel is still petroleum based. And what I am looking for here 
is really what we can do, how we can move the military to be an 
early starter on biofuels of all kinds.
    And so if you can comment on that, and if any of your 
colleagues want to jump into it, that would be cool, too. So 
what do you think here? Can we do that?
    Mr. Harter. Thank you, Representative. Yes, I think there 
is already a lot of work being done in that area. I think Mr. 
Scholl addressed that earlier with some of his comments on 
sustainable aviation fuels. And I think all of that research 
that is underway on sustainability of fuels is applicable to 
the military. I certainly think it helps with your work on the 
Armed Services Committee to make that a focal point for the 
military and have them emphasize that more in their research.
    I also think a lot of the other technologies we are talking 
about here today are going to help with that greenifying. So, 
drones being able to deliver equipment and supplies to the 
solider on the front lines, not just the last mile but part of 
the last 100 miles of delivery.
    Electric aircraft, as Mr. Ganzarski has talked about, is 
going to evolve and we will eventually be able to carry our 
soldiers and equipment into battle and replace some of those 
fixed-wing and nonfixed-wing aircraft that we have flying 
today.
    Mr. Garamendi. Thank you very much. I am going to ask all 
of you to lobby your Congress Members about the military and 
going green in the military and going to biofuels, using the 
military to bring into the market these new fuels.
    With that, I am going to yield back my remaining 13 
seconds. Thank you very much, Mr. Chairman. Take care.
    Mr. Larsen. Thank you, Representative Garamendi. I will now 
recognize--I think Representative Johnson is back--
Representative Johnson of Texas is recognized for 5 minutes.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
And let me thank you for this very interesting and needed 
hearing, and all of our witnesses. I would also like to ask 
unanimous consent to put my opening statement in the record.
    Mr. Larsen. Without objection.
    [Ms. Johnson of Texas' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Chairman Larsen and Ranking Member Graves for holding 
today's hearing, which delves into the intricate and truly awe-
inspiring ideas behind ``innovation in U.S. aerospace.'' I would like 
to thank our outstanding witnesses for testifying today, and my 
colleagues on the Aviation Subcommittee for engaging in today's 
thought-provoking discussion into the future of aviation and novel 
modes of transportation.
    As a nearly 30-year member of the House Committee on Transportation 
and Infrastructure, I have witnessed first-hand the astounding 
technological advancements and transformations in the aviation arena. 
As Dean of the Texas Congressional Delegation, I represent the city of 
Dallas, a critical and vital metropolitan area for the airline 
industry. In fact, Dallas Love Field, based in my congressional 
district, is home to Southwest Airlines' corporate headquarters. 
Southwest also operates a key base at Love Field Airport. Just outside 
my congressional district lies Dallas-Ft. Worth International Airport 
(DFW), which is the largest hub for American Airlines, and whose 
headquarters is nearby in Ft. Worth. By all measures, DFW is one of the 
busiest airports in the world and, according to The Texas Commercial 
Airports Association, generates a $37 billion impact for the North 
Texas region each year.
    Certainly, as the Chairwoman of the House Committee on Science, 
Space and Technology, the rapid advancements in U.S. aerospace are 
issues of primary importance, as reflected by the attention that the 
Science Committee has given to aerospace innovation. We have been 
examining the role that both NASA and the private sector play in 
promoting innovation in aerospace, whether in the areas of low boom 
supersonic flight, sustainable aviation, urban air mobility, and 
drones. We recently held a Subcommittee hearing looking at R&D pathways 
to sustainable aviation, an important avenue for innovation in cleaner, 
more efficient aircraft and aviation systems. We're also interested in 
understanding how aviation and aircraft operations can contribute to 
efficiencies in the aviation system.
    The role of academia, students, and the workforce is integral to 
our advances in U.S. aerospace innovation. In that light, we also are 
considering opportunities for further university involvement and ways 
to increase the diversity of professionals in aeronautics and 
aerospace. We need to include all of our talented students and 
professionals to remain on the cutting-edge.
    The Science Committee has and will continue to focus on innovation 
in our NASA Authorization and standalone bills. The testimony from 
today's witnesses will be helpful in illuminating the impact that 
innovation in U.S. aerospace will have on the operation of the National 
Airspace System, and I look forward to today's discussion.
    In closing, I want to again thank Chairman Larsen for holding 
today's hearing. Our nation is clearly at a decisive turning point with 
respect to innovation, specifically in the arenas of advanced air 
mobility, electric aircraft, drones, and supersonic plane exploration. 
And as we move forward and examine the federal government's role in 
these scientific advances, we need to make sure that our progress is 
inclusive of all Americans, and that no one, irrespective of race, 
income or ethnicity, is marginalized and left out of the tremendous 
benefits that have already been, and will continue to be produced by 
aviation innovation.

    Ms. Johnson of Texas. And let me say, Mayor Garcetti, I 
really like your attitude about preparing staff. I chair the 
Science, Space, and Technology Committee and we are very 
concerned about the lack of diversity in our STEM careers. And 
across the board here as we talk about this future, and it 
sounds exciting, but I want all of the people to comment on 
where they are getting talent, and what are they doing to 
expand the talent in trying to reach all of these goals that we 
have in this technology, and especially at home in the United 
States.
    So let me start with you, Mayor, to see if you have any 
other comments on producing more talent, on diversity, both by 
gender, whatever, and then move to the other witnesses.
    Mr. Garcetti. So we have what I think is a national model 
for going to technology companies, including aerospace 
technology companies as well was digital and biotech and other 
technology companies, something called PledgeLA with the 
Annenberg Foundation. It is voluntary but it has been highly 
successful and uses peer pressure.
    It started with kind of an equity framework we are using on 
ourselves hiring in the city of Los Angeles. But it essentially 
has two aspects. It goes to companies, over 100 of them, and 
their funders. So it goes to private equity, venture capital, 
other funders, and ask them to sign a pledge to look at the 
hiring of more women, of more people of color, and other 
disenfranchised communities, as well as then, second, applying 
some of their brilliance to problems that our communities face.
    I have an Italian last name because of an Italian who went 
through Mexico, but my father's whole side of the family is 
Mexican American. Looking at the Latino community, for 
instance, the STEM careers were greatly lagging. African-
American communities as well; many Pacific Islander communities 
and some Asian-American communities, our Native communities.
    So it starts with that, and over 100 companies have signed 
off on kind of self-imposing that. And that becomes very 
collaborative. It becomes: If you are not doing that, you are 
not an excellent company here in Los Angeles anymore. And I 
think that is a great model building on some of the other 
things I mentioned, like the schools and community colleges 
before.
    Mr. Bry. I just want to jump in here. Thank you, 
Representative, for raising this issue. It has come up a couple 
of times. I think it is incredibly important and it is one that 
I am incredibly excited about. And I think drones can actually 
be one of the most valuable tools, not just for the drone 
industry but for all of aviation and all of aerospace because 
it is one of the few aerospace devices that people can actually 
use themselves and see how it works and benefit from.
    And so at Skydio we are doing a few things. We are donating 
drones to underrepresented communities, or groups that focus on 
underrepresented communities, to get them exposed to the 
technology. In our own recruiting efforts, we engage with 
college and campus groups that focus on diversity. And I think 
there is an opportunity for Congress here as well.
    So I have more details on this in my written statement, but 
something like a drone infrastructure inspection grant program 
could not only provide funding to State departments of 
transportation for using drones for inspection, but could 
provide funding to educate folks on how to use drones and 
really empower a new generation of workers with very diverse 
backgrounds.
    Mr. Grimsley. I would like to----
    Mr. Scholl. I would like to comment as well. Your core 
principle for building our culture here at Boom is to make the 
company the place where the most talented people on the planet 
can be inspired and enabled to do the best and most meaningful 
work of their careers. And today, many of the most talented, 
best people on the planet don't even consider careers in 
aerospace. And so this is a problem that runs deep, and you 
have to solve it at many levels.
    We focus on diversity at every level of the company at 
Boom. I am proud to have a very diverse leadership team with 
me. But we have to go much further beyond that. We need to do 
things that inspire the next generation of people to think 
about what they can do and to take on more challenging careers.
    But even more than that, we have to reach all the way back 
into early childhood and make sure that people have the 
opportunity and the education that they need to go off and do 
great things, and that everybody from every walk of life can 
look in the mirror and say ``I am somebody who can do something 
great. I am somebody who can change the world. I am somebody 
who can take on a tough challenge.'' And that is a very tall 
order. But if we inspire people and we focus on education, we 
can make it happen.
    Ms. Johnson of Texas. Thank you.
    Mr. Grimsley. And on behalf of the Choctaw Nation, I can 
say, just like the other witnesses here, we are focusing on 
that middle school and even younger age because that is when 
students develop a sense of confidence, when they develop their 
passions.
    An observation I have had on the IPP and BEYOND is some of 
our biggest champions within our region within the reservation, 
are school superintendents and our STEM educators, because the 
kids hear about what we were doing, they ask questions, they 
kind of get interested and excited about it, but it gives the 
STEM educators an opportunity to talk to them about STEM 
opportunities and so we have made it a priority. The pipeline 
that you are talking about, we have to start building it at 
that middle school level to make sure that it propagates all 
the way through the university level. So that is very important 
to us. So thank you for the question.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
yield back.
    Mr. Larsen. Thank you, Representative Johnson. And next is 
Representative Titus of Nevada. Representative Titus, you are 
recognized for 5 minutes.
    Ms. Titus. Thank you very much, Mr. Chairman. It is a very 
interesting hearing this morning.
    I would like to change the subject a little bit. We have 
heard a lot about the technological developments of the 
aircraft itself, but not too much about the impact it is going 
to have on infrastructure.
    What is going to be needed at our airports to accommodate 
these new kind of aircraft? Are the air traffic controllers 
engaged? How are we going to be able to provide some of these 
alternative, sustainable fuels?
    Could Mr. Ganzarski or Mr. Scholl talk about those kinds of 
changes that they see coming, or that we need to be considering 
as we take up an infrastructure bill that looks at modernizing 
our airports?
    Mr. Ganzarski. Yes, I would be happy to address that.
    Mr. Scholl. I would like to comment. So I think there are a 
couple things here that are important to emphasize. When it 
comes to sustainable aviation fuels, the technologies all 
exist. The biggest challenge is how do we scale them up.
    So finding ways to make investments in the SAF supply chain 
is going to be critical for making sure those fuels not just 
exist in laboratories in small quantities, but actually go into 
aircraft. And today, the SAF capacity for planned projects is 
just about 6 percent of what we're going to need in 2030, so 
there is a lot of work to do there to scale things up.
    The other piece of this is airports, and when we think 
about the ways transportation is going to get faster, the 
advanced urban mobility with vertical takeoff and landing, as 
well as supersonic, all of a sudden our airports can start to 
become a bottleneck. And so I think there is an opportunity 
there to say how can we think differently about how we build 
and operate airports such that these can also come up to the 
experience that we are going to see in the transportation 
itself.
    Mr. Ganzarski. And I would like to add to that that, and I 
will even oversimplify it, in the next 5 years you will see 
electric aircraft, traditional fixed-wing aircraft that take 
off from airports and land at airports, start to fly in the 
country. This country has over 10,000 airports that these 
aircraft can fly in and out of. So you don't need to invest in 
infrastructure. You do need electrical power, which lo and 
behold most of these airports have. Most of the States are now 
going to renewable energy, so we can even perhaps install the 
renewable energy sources at the airports themselves.
    The beauty of small aircraft going to and from airports is 
that we change the way we think about aviation. As long as we 
think about hub and spoke, everyone having to go to one large 
airport, then yes, airports get condensed and the costs go up. 
But if you think of most Americans and where they travel, it's 
locally, which means 200, 300, 400 miles. They would rather fly 
to and from an airport next to them, which means less flights 
per each of those airports.
    So the infrastructure challenge, while there, can be solved 
easier than we think. But having incentives from the Government 
to these small airports to help is critical.
    Ms. Titus. Thank you, that is interesting. Thank you very 
much.
    I would also like to ask Mayor Garcetti, or anybody, about 
the interconnectivity regionally. We are not nearly so 
connected in the Southwest as they are in the Northeast, and 
part of that is geography, part of it is demographic patterns, 
part of it is people just like to get in their car out here and 
drive wherever they want to go.
    But as we develop this kind of aircraft, how are we looking 
at regional approaches, so you can start in Los Angeles and 
come and see me in Las Vegas and you won't run into different 
kinds of regulations or barriers to getting here?
    Mr. Garcetti. Well, I will jump in, because whether it is 
high-speed rail or the highway that we are constantly trying to 
improve between our cities, we essentially are part of one 
State in two States, you know, we have more in common sometimes 
than we do with folks who are ``in our State'' than with each 
other.
    Seleta, do you want to address that a little bit? Because 
we were talking about regional work and making sure with rural 
and urban areas we can develop these standards and create that. 
So let me toss that over to Seleta for a couple words, if you 
don't mind.
    Ms. Reynolds. I really appreciate the question, 
Representative Titus, and just want to flag that when we talk 
about not wanting a patchwork of regulations so that industry 
can scale, what we don't mean is preemption, right? But in 
order to make sure that we retain our ability to sort of have 
the community voice heard and control our destiny, we have to 
collaborate and get together.
    So we have been working very closely with different 
organizations like CAMI and others to try and exercise that 
convening power of Government to think about a golden triangle 
of aviation that connects Los Angeles and Las Vegas and Phoenix 
and how we can all sort of grow together and come up with that 
policy framework that can be used broadly. Because you are 
right. The potential for regional interconnectivity is 
tremendous.
    I think one of the things that we can't walk past, though, 
is the needs for the municipal power grids. An airplane needs 
to be able to recharge in Los Angeles or recharge in Las Vegas, 
and our municipal grids, to your question about infrastructure, 
really need shoring up to enable that future. So whether it is 
infrastructure or it is questions about land use, I think there 
is a powerful role for local voices to play at the front end of 
this technology, and that is where we are now, so it is a 
perfect time to get together and come up with some great ideas.
    Ms. Titus. Well, thank you so much. Just make it easier for 
Mayor Garcetti to come over here and see me in Las Vegas.
    Mr. Garcetti. You got it.
    Mr. Larsen. Thank you, Representative Titus. And that 
actually concludes Member questions.
    I want to thank the Members for their attentiveness to this 
hearing, to the great questions. It is not often we get a 
chance to have hearings on things that we have to think about 
for the future, because as Congresswoman Norton said, the 
future is now in terms of innovation in the airspace. But I 
really do want to thank the Members for their questions. I want 
to thank the staff for putting this together.
    I want to thank the panel for providing this, a broad 
spectrum of ideas that we need to think about as we help the 
FAA sort out the new entrants in the airspace, who they are 
going to be, what they are going to be, how they are going to 
be using the airspace, and ways we can help.
    So with that, this concludes our hearing.
    I want to thank the witnesses for your testimony. Your 
comments have been informative and very helpful, and I want to 
ask unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing. I also 
ask unanimous consent that the record remain open for 15 days 
for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    And with that, the subcommittee now stands adjourned.
    [Whereupon, at 1:22 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              

  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen, and thank you to our witnesses for being 
here today.
    Just before the COVID-19 pandemic we held a similar hearing, and at 
that time we were excited about the possibilities for new aircraft, new 
operators, new business models, new technology, and new and expanding 
opportunities.
    If nothing else, the last year has shown us that opportunities for 
aerospace innovation are endless.
    In fact, some new technologies hit the market much faster during 
the pandemic due to high demand.
    There's no doubt that American innovation can lead the way in 
changing how we move people and goods across town, around the globe, 
and into space.
    However, during the advancement of new ideas, technology, and 
careers, we must maintain a high standard for safety.
    Today, I am interested to hear about some of the newest users of 
the airspace, including drone operators; and to hear from those 
pursuing drone manufacturing, Advanced Air Mobility, electric aircraft 
technology, and supersonic flight.
    I am particularly interested in how innovation will help connect 
small and rural communities with the rest of the country and world.
    I yield back.


                                Appendix

                              ----------                              


 Questions from Hon. Rick Larsen to Hon. Eric Garcetti, Mayor, City of 
                        Los Angeles, California

    Question 1. In your written testimony, you emphasized that 
``purpose-driven data sharing'' across all levels of government is 
critical to ensuring the safety of the National Airspace System. What 
types of data from the Federal government does the City believe it 
needs?
    Answer. While the FAA's record for aircraft and operational safety 
is nearly unparalleled across the transportation industry, Advanced 
Aerial Mobility (AAM) presents a new set of challenges--for safety both 
on the ground and in the sky. Purpose-driven data sharing can help 
reduce the actual and perceived risk of AAM operations, providing the 
public with greater confidence whether they are passengers or 
spectators of AAM. Purpose-driven data sharing is also not just about 
improving safety: it is about making sure AAM operations are consistent 
with all of the ``Principles of the Urban Sky,'' [https://
www.weforum.org/reports/principles-of-the-urban-sky] including equity 
of access, multi-modal connectivity, sustainability, low-noise, and 
local job creation. States, Cities, Local Governments, and Tribal 
Nations will be held accountable for successfully integrating this mode 
into their built environments and achieving desired social and 
environmental outcomes.
    Some examples of purpose-driven data sharing include:
    <bullet>  Safety: Cities are places of spontaneity, and while local 
officials make all efforts to plan for the unplanned, there are often 
events and emergencies that crop up without notice. To that end, 
estimated and actual arrival and departure times, flying altitudes, 
geographic location of aircraft while in flight, number of flights per 
day and hour are among the data points cities might need to access on a 
real-time basis. And safety around areas of high traffic in the air, 
such as airports, is critical. LAX was recently selected by the U.S. 
Transportation Security Administration to test state-of-the-art 
technology to detect, track, and identify drones that are encroaching 
on restricted airspace. Data sharing pilot programs such as these are 
also critical to ensuring the safe integration of AAM.
    <bullet>  Sustainability: Many cities, including Los Angeles, have 
set ambitious greenhouse gas (GHG) emissions targets, and are actively 
implementing programs to improve local air quality. Data such as 
emissions of aircraft at flight, at take-off and landing; air quality 
impacts of aircraft at flight, at take-off and landing, and more will 
ensure that AAM helps cities reach sustainability goals, rather than 
inhibit progress. With many transportation modes transitioning to 
electric motors, cities need industry data to properly plan for 
electric grid enhancements and clean power production. We cannot afford 
a future where transportation modes compete for limited energy 
resources. We must search for synergies now to plan for an integrated 
future. Cities view sustainability comprehensively, and that includes 
impacts to nature, whether animal or botanical. Impacts to trees, 
birds, and other urban habitats need to be understood in order to site 
vertiports and operations sustainably.
    <bullet>  Multi-modal Connectivity: Flight path, origin, and 
destination, as well as the mode of transportation used to access AAM 
trips, are critical for transportation agencies to create integrated 
transportation networks with minimal impact to neighbors and to realize 
shared outcomes across communities.
    <bullet>  Low-Noise: Aircraft noise characteristics are important 
for planning low-impact arrival and departure procedures. Real noise 
data keeps community stakeholders educated and prevents the propagation 
of misinformation.
    <bullet>  Equity of Access: Where the FAA is concerned with equity 
of access to airspace, cities and communities are concerned with equity 
associated with exposure to detrimental impacts. Historically, a 
relatively small number of neighborhoods have borne the burden of 
negative externalities induced by new transportation technologies. 
These neighborhoods are often underserved communities of color. Cities 
should work with the FAA and other stakeholders to develop an index to 
identify both in advance and with operations the equity of impacts of 
AAM, including on affordability of services, time to reach vertiports, 
mode of transportation to vertiports, noise impacts, air quality and 
emissions impacts, connectivity and grid interruptions resulting from 
AAM, noise, emissions, job creation, and more.
    <bullet>  Local Job Creation: Data related to the manufacturing, 
maintenance, and servicing of future aircraft is critical to ensure our 
local workforce is prepared. From these data, secondary and tertiary 
job forecasts can further improve our ability to respond with targeted 
economic development strategies. Dense cities like Los Angeles cannot 
afford to develop a system where few are transported over the air at 
the cost of worsening our jobs to housing imbalances and induce more 
single occupancy vehicles onto our roadways. Organizations like Los 
Angeles' Urban Movement Labs [https://www.urbanmovementlabs.com/] are 
well positioned to help shape the job creation and workforce 
development of the burgeoning AAM industry.

    Question 2. How would the City need to enhance its digital 
infrastructure to accommodate the new frequency and scale of data from 
AAM operations?
    Answer. This is a question better suited for industry to answer at 
this time. Industry has not yet shared with the City the technological 
underpinnings of AAM operations, including what type or speed of 
digital infrastructure would be needed to facilitate data sharing, 
smart charging, connectivity for customers and for aircraft operations, 
and more.
    Understanding these needs is a critical component of planning for 
AAM, and part of the reason why the City has advocated for federal 
funding to support local AAM infrastructure planning.
    As a foundation, the City of Los Angeles has invested in open-
source digital infrastructure called MDS that allows it and other 
transportation agencies around the world to have a two-way digital 
relationship between commercial transportation companies operating in 
the public right of way, and public regulators, planners, and 
operators. This system is being used today to receive over 4 million 
anonymous notifications daily from more than 50,000 shared vehicles in 
the City of Los Angeles and at the LAX Airport. The City of Los Angeles 
and other city transportation agencies participating in the Open 
Mobility Foundation [https://www.openmobilityfoundation.org/], 
participants in NASA's National Campaign, and FAA workshops are working 
to expand the digital infrastructure capabilities to include full-scale 
AAM operations in the near future.
    Without question, major metropolitan areas with existing airspace 
complexities will need the ability to communicate their policies at 
scale to the FAA and in turn, private companies. As cities begin to 
deploy pilots such as emissions-free delivery zones on the ground and 
invest in infrastructure such as bus-only lanes and protected bike 
lanes to access major transit hubs, we are relying on a mix of physical 
and digital methods. Enabling this same continuity of communication in 
the sky using similar open-source systems will assist the industry in 
scaling while allowing cities to achieve climate, safety, economic, and 
equity outcomes that residents expect.
    The lessons learned from aviation hubs like LAX in cities is that 
up-front investment in community outreach, a shared discussion about 
costs and benefits, and a strong role for cities can save tremendous 
amounts of time and energy further down the line. As we anticipate the 
arrival of AAM in the next several years, a timely investment now will 
avoid or minimize challenges in the future, with a goal of opening up 
shared wins for both industry and community.

    Questions from Hon. Rick Larsen to James L. Grimsley, Executive 
Director of Advanced Technology Initiatives, Choctaw Nation of Oklahoma

    Question 1. As the only tribal government participating in the 
Federal Aviation Administration's UAS Integration Pilot Program (IPP), 
what are your main takeaways from the Choctaw Nation's experience in 
that program?
    Answer. Thank you for your interest in our experience as a tribal 
government.
    As noted in the question, the Choctaw Nation of Oklahoma made 
history by becoming the first and only tribal government to be selected 
by the U.S. Department of Transportation to participate in the UAS 
Integration Pilot Program--or ``IPP''. The Choctaw Nation of Oklahoma 
was selected as part of a group of lead participants that also included 
state and local governments to focus on safely accelerating the 
integration of drones into our national airspace system (NAS). This was 
historic for the Choctaw Nation since, prior to the UAS IPP, tribal 
governments had not been eligible to participate in many technology-
related federal government-sponsored pilot programs. Many positive 
developments and accomplishments were made possible due to the IPP. For 
example, the Choctaw Nation of Oklahoma became the first tribal 
government to be recognized by the Federal Aviation Administration 
(FAA) as a public aircraft operator (PAO).
    In 2020, the Choctaw Nation was invited to continue our 
collaborative relationship with the FAA as part of the FAA BEYOND 
program, which is focused on advancing beyond visual line of sight--or 
``BVLOS''--drone operations, as well as cargo delivery by drone. As 
part of both the IPP and BEYOND, we have also focused on community 
engagement with public stakeholders. It has been exciting to be part of 
the Choctaw Nation team as we have accomplished many historic firsts 
for tribal governments in this exciting area of emerging aviation 
technology.
    As the only tribal government lead participant in the IPP and 
BEYOND, the Choctaw Nation of Oklahoma did face challenges, due to an 
outdated regulatory framework as well as to a legacy of exclusion of 
tribal governments from similar programs in the past. Some of these 
challenges highlighted some of the inequities that tribal and rural 
communities still face today.
    First, as we mentioned during the hearing, even as an IPP lead 
participant, we were frustrated by the lack of enabling regulatory 
progress in areas such as drone delivery, especially during situations 
such as the COVID-19 pandemic response. We believe that missions such 
as drone delivery could have possibly helped us to reduce person-to-
person contact in our communities and could have been a significant 
tool for safely managing many parts of daily life during the pandemic 
response. However, outmoded regulatory frameworks designed for manned 
aviation did not enable this, nor did the IPP. The purpose of 
innovative pilot programs is to offer the ability to work around unduly 
restrictive existing regulatory frameworks. Indeed, that is why the 
Choctaw Nation was excited to participate in the IPP. Without that 
ability, the IPP's success enabling expanded UAS operations was 
limited.
    Relatedly, we are fully committed to safe aviation operations and 
protecting the safety of the NAS. However, when weighing the social 
benefits against safety risks, it is important to find ways to ensure 
that the societal benefits of these types of activities (such as drone 
delivery) are fully and thoroughly assessed and considered by the FAA. 
During disruptive events such as a global pandemic, our regulatory 
system needs to properly balance societal benefits versus safety risks 
to ensure that potentially groundbreaking changes in technology 
adoption are not unduly discouraged and prevented, especially when 
those technology changes could have significant immediate benefits for 
communities. Congress should require the FAA to account for these 
factors in its analysis.
    We have also experienced challenges associated with the legacy of 
exclusion from similar pilot programs. The FAA Modernization and Reform 
Act of 2012 (FMRA 2012) directed the FAA Administrator to initiate a 5-
year program to establish six (6) UAS test sites to support the FAA in 
integrating UAS into the NAS. Unfortunately, tribal governments were 
excluded and ineligible to participate in the program, and thus unable 
to seek UAS test site status. Although originally only planned for a 5-
year program life, these test sites have been extended and remain 
active programs today. This initial exclusion has therefore had 
cascading effects for the Choctaw Nation. Unfortunately, many follow-on 
pilot program opportunities and activities such as the UAS Traffic 
Management (UTM) Pilot Program (or ``UPP'') were limited to the 
original UAS test sites, and the Choctaw Nation was ineligible to 
participate in either the UPP 1 or UPP 2 programs. The history of 
exclusion of tribes from these types of pilot programs continues to be 
perpetuated when new pilot program opportunities are restricted to 
legacy programs, and there are no opportunities for inclusion of tribal 
governments.
    Finally, our activities with the IPP also reinforced our concerns 
about the historic lack of funding for science, technology, engineering 
and mathematics (STEM) educational opportunities and resources for 
tribal and rural communities. The STEM educators in our reservation 
territory were some of the most vocal supporters of our IPP activities 
because the visibility of our activities helped generate interest and 
enthusiasm for aviation and STEM-related topics among their students. 
However, a general lack of resources to fully support public STEM 
educators throughout our reservation territory was frustrating and 
discouraging, and the lack of available resources prevented us from 
fully exploiting the IPP activities to the maximum extent possible to 
support and encourage STEM educational opportunities for students in 
our region.
    As a result of the IPP, and now the BEYOND program, we are 
optimistic about the potential to use drone technology to improve the 
quality of life and health in our rural and tribal communities. It is 
our hope that these pilot programs are just the beginning of even more 
collaborative partnerships between tribal governments and the FAA, and 
that these collaborations can yield meaningful advances in regulatory 
modernization to accommodate emerging aviation technologies.

    Question 2. What lessons from the IPP should the FAA apply to the 
BEYOND program and future UAS integration efforts?
    Answer. Thank you for your focus on applying lessons learned from 
UAS pilot programs to support further UAS integration.
    In general, we endorse the industry recommendations as set forth in 
the Commercial Drone Alliance (CDA) policy papers included as an 
attachment to this document. We also endorse the CDA policy paper for 
IPP Renewal Recommendations (also attached).
    With respect to our experience as an IPP lead participant, we 
strongly believe there were important lessons learned that can be used 
to inform both near-term and long-term FAA decision-making and we offer 
the following suggestions. We believe also that Congress can play a 
valuable role. As described in my written extended testimony, Congress 
can provide important support by codifying BEYOND and funding the 
program (funding for both the FAA and lead participants). Congress can 
also empower the FAA to make important decisions and hold the FAA 
accountable for congressional mandates related to aviation regulatory 
modernization and reform.
    We offer the following specific suggestions for how the FAA can 
better pursue future UAS integration efforts:
First Recommendation: Establish Senior Leadership Positions That Are 
        Empowered to Advance and Enable Emerging Transportation 
        Technologies.
    We believe there is a strong need for an Associate Administrator to 
be appointed within the FAA to focus solely on emerging aviation 
technologies. The new Associate Administrator should also be empowered 
to make decisions related to regulatory modernization and reform, and 
to oversee and enact mandates from Congress. The new FAA Associate 
Administrator should have responsibility for ensuring that our 
regulatory system can safely and efficiently integrate new emerging 
technologies into the NAS.
    Ideally, there should also be a counterpart position created within 
the U.S. Department of Transportation, such as an Assistant Secretary 
of Emerging Transportation Technologies. This particular office and 
official should have oversight of both ground and aerial emerging 
technologies. This is necessary to provide leadership and coordination 
to related efforts to integrate emerging technologies into existing 
transportation systems.
Second Recommendation: Enable Site-Specific Regular Operations.
    As described in my extended written testimony, we recommend 
mandating that the FAA accelerate opportunities for particular 
communities and sites that can demonstrate the ability to safely scale 
regular operations, such as drone delivery. Some sites, such as the 
Choctaw Nation of Oklahoma, have already made significant investments 
in ground-based radar and other safety infrastructure and mitigations 
to support safe drone operations today. This can serve as an 
opportunity for industry to innovate and demonstrate economic viability 
by allowing these sites to move forward and scale their low-risk low 
altitude drone operations within a safe and managed environment.
    The original FAA UAS Test Sites fell short of fully meeting the 
needs of society and industry since the federal government did not make 
meaningful accommodations to enable regular advanced operations in the 
NAS. For many decades, the military and defense communities have 
benefited from the use of restricted military test ranges to support 
research, development, testing and evaluation (RDT&E) of emerging 
aviation technology. Over this same time period, civil aviation was 
typically the beneficiary of military aviation technology development 
as the technology moved from the military environment to civil 
environment. However, with the quick and expansive growth of electric 
propulsion, innovation in aviation is now occurring much more quickly 
within the civil market, and within commercial industry, versus the 
military and defense communities. The lack of fully capable aviation 
testing locations or ``sandboxes'' for regularized UAS operations 
adversely impacts the emerging aviation industries. This also places 
considerable pressure on the FAA's ability to achieve UAS integration. 
Overall, this situation is placing the United States at a global 
competitive disadvantage in these important emerging industry sectors.
    Therefore, we recommend that the FAA work with specific sites that 
have made necessary investments in safety mitigations to enable regular 
operations for missions such as drone delivery. Many of these missions 
can be broadly enabled now in those locations where there are 
sufficient safety mitigations in place. For example, the Choctaw Nation 
of Oklahoma has already made significant investments to enable safe 
operations within a 44,000+ acre test range that has been developed on 
tribally-owned land in rural southeastern Oklahoma.
Third Recommendation: Proactively Prepare for Important Public Safety 
        Missions.
    Many public safety emergency scenarios and disasters have common 
elements such as disruption of ground transportation, and an urgent 
need for an immediate pivot to alternative transportation/delivery 
modes. Given the unique utility and versatility of drone technology, a 
more proactive response should be taken by the FAA to prepare for--and 
enable--drone operations for public safety emergency operations. Most 
often it is not practical or possible to engage in detailed discussions 
with the FAA after an emergency situation or disaster scenario has 
commenced. Instead, the FAA should proactively work with emergency 
management and public safety officials to identify common scenarios and 
situations, and work to establish guidance for emergency operations 
during those scenarios. The FAA should not cede authority during these 
situations but should instead proactively evaluate common scenarios of 
emergency public safety operations and develop guidelines that can be 
used by public safety and emergency management personnel during times 
of emergency. This would enable the FAA to focus on only those elements 
or factors that are unique to the situation at hand, rather than 
``starting from scratch'' during each and every emergency situation or 
disaster scenario.
Fourth Recommendation: Establish Pilot Program(s) to Demonstrate 
        Benefits of Drone Delivery to Improving Health in Rural and 
        Tribal Communities.
    We enthusiastically support legislative proposals to establish a 
grant program to fund the use of commercial drones to increase rapid 
access to medical care in rural and tribal communities. As an example, 
we enthusiastically endorse the current pending industry proposals for 
infrastructure from the Commercial Drone Alliance (see attached in the 
appendix) for Congress to create a $20 million program for Advanced 
Infrastructure Solutions for Rural and Tribal Health Access to be 
administered by the Department of Transportation to provide grants to 
eligible entities to plan for and implement the use of drones to 
deliver medication or medical supplies to rural and tribal areas. 
American drone technology is already proven to operate safely at scale 
through extensive operations abroad and the time is right for it to be 
used at home to address rural and tribal health access inequities, 
create high-paying, next-generation jobs in our communities, and 
bolster American global competitiveness in crucial emerging 
transportation technology sectors.
Fifth Recommendation: Empower the FAA Regional Administrators to More 
        Actively Support Tribal Governments.
    We believe that the FAA Regional Administrators can be more 
effectively utilized to work directly with tribal governments, and 
typically these FAA regional offices are more familiar with the 
uniqueness of the particular regions, including tribal governments. For 
programs like BEYOND, the FAA should consider designating a regional 
liaison to work with the tribal government lead participants, and the 
resources of the regional offices should be fully leveraged.
                                appendix
              Commercial Drone Alliance's Policy Documents
    [Editor's note: The Commercial Drone Alliance's ``Policy Priorities 
for 2021: Proposed Executive Actions for the First 100 Days of the 
Biden-Harris Administration'' and ``Urban Air Mobility Policy 
Priorities for 2021: Proposed Executive Actions for the First 100 Days 
of the Biden-Harris Administration'' are included as an appendix to Mr. 
Grimsley's prepared statement on pgs. 25-31.]
  Commercial Drone Alliance Urges Continuation of the UAS Integration 
                             Pilot Program
    [Editor's note: This document is retained in committee files and is 
available online at https://www.commercialdronealliance.org/letters-
comments/commercial-drone-alliance-urges-continuation-of-the-uas-
integration-pilot-program]
Drone-Related Infrastructure Proposals of the Commercial Drone Alliance
    [Editor's note: This document is retained in committee files and is 
available online at https://www.commercialdronealliance.org/letters-
comments/drone-related-infrastructure-proposals-of-the-commercial-
drone-alliance]

 Question from Hon. Steve Cohen to Adam Bry, Chief Executive Officer, 
                              Skydio, Inc.

    Question 1. Mr. Bry, I've been a longtime advocate for the Stadiums 
Operating under New Guidance (SONG) Act, which would give the Federal 
Aviation Administration the authority to issue Temporary Flight 
Restrictions (TFRs) for concerts and other events held at stadiums 
across the country. I know that some drone companies have the ability 
to recognize TFRs through their geo-fencing capability, which helps to 
keep careless and clueless drone operators out of airspace they 
shouldn't be in. However, I believe that Skydio does not offer a geo-
fencing capability. In light of the FAA's Drone Advisory Committee and 
Unmanned Aircraft Safety Team, why is your company not implementing/
endorsing that drone technology feature?
    Answer. Thank you for your question. I appreciated the opportunity 
to testify about the importance of enabling U.S. leadership in the 
uncrewed aircraft sector. The drone industry plays a critical role in 
leading the next generation of aviation innovation, creating good-
paying domestic jobs, protecting workers who inspect America's aging 
infrastructure, and slashing carbon emissions.
    The safe and secure integration of drones requires a layered 
approach. Manufacturers have an important role to play, and Skydio 
takes that obligation seriously. In 2020, Skydio became the world's 
first and only drone company to issue a set of policy and ethical 
principles--the Skydio Engagement and Responsible Use Principles 
[https://medium.com/skydio/skydio-engagement-and-responsible-use-
principles-49c6576eb740]--to guide our work and move the industry 
forward. These principles capture our commitment to considering the 
holistic impact our products will have on communities and countries.
    Skydio takes a range of measures to promote safety, including 
education and training. Our safety guidelines advise customers to 
follow FAA regulations and ensure it is appropriate to fly in a given 
area by using resources like the FAA's B4UFLY app. New customers 
acknowledge compliance with our safety guidelines when they first use 
the Skydio app. Skydio is one of the only drone manufacturers to offer 
a virtual and in-person flight school, known as Skydio Academy. The 
educational curriculum for Skydio Academy reinforces the importance of 
safe operations, including compliance with FAA regulations. In addition 
to Skydio Academy, Skydio offers flight school videos that teach our 
customers how to use Skydio drones safely and effectively. The nature 
of our products also contributes to safety of flight. Both of our 
drones--the Skydio 2 and Skydio X2--weigh less than three pounds and 
are not designed to carry cargo.
    We take pride in engineering advanced features that provide high 
levels of safety and efficiency. For example, we recently released 
Skydio 3D Scan, a transformational product that automates photographic 
data collection and mapping tasks. Enterprise customers use 3D Scan to 
produce stunning digital twins of bridges, cell phone towers, and dams. 
First responders use the product to capture 3D maps of accident scenes 
in a fraction of the time it takes to snap manual photos. 3D Scan 
enables the operator to create dynamic limitations on the boundaries of 
the flight--a feature known as geo-caging.
    As for geofencing, the FAA and global aviation regulators promote a 
layered approach to safety and security and generally have not required 
geofencing. Among other reasons, geofencing has been less effective 
than expected and can be easy to defeat.\1\ Geofencing also makes it 
difficult for critical infrastructure operators and commercial drone 
pilots to use drones for inspection and security purposes, 
inadvertently grounding authorized drone flights. We will continue to 
closely monitor developments in this space.
---------------------------------------------------------------------------
    \1\ See, e.g., Ben Heubl, Conflict Groups Arm Consumer Drones for 
Terror Attacks, Engineering & Technology, April 9, 2021, https://
tinyurl.com/j8mejbax (describing terrorist groups' use of DJI drones to 
drop explosive devices in Syria and Iraq, notwithstanding geofencing); 
Alan Levin, Drone Easily Pierced New York `No-Fly Zone, Exposing Risk, 
December 15, 2017, https://www.insurancejournal.com/news/east/2017/12/
15/474422.htm (discussing a DJI drone that struck a U.S. Army 
helicopter 2.5 miles away from the operator, despite Presidential 
security TFRs); Special Agent Deana M. Jones, Criminal Complaint, 
United States v. Henry Alejandro Jimenez, February 5, 2021, at 5-6, 
https://www.justice.gov/usao-mdfl/press-release/file/1365131/download 
(supporting federal criminal charges against a drone pilot who flew a 
DJI drone into restricted airspace surrounding the 2021 NFL Super Bowl 
in Miami, notwithstanding geofencing). Those anecdotes suggest that 
layered safety and security measures--from robust training and 
education to drone detection and enforcement--are important tools in 
ensuring airspace safety.
---------------------------------------------------------------------------
    At Skydio, we think safety and security go hand-in-hand. 
Appropriate security measures support the safe and effective 
integration of drones into the airspace. For that reason, we support 
the expeditious implementation of Section 2209 of the FAA Extension, 
Safety and Security Act of 2016, which directed the FAA to enable 
flight restrictions over security sensitive fixed-sites, such as 
critical infrastructure, refineries, and ``other locations that warrant 
such restrictions.'' Along similar lines, the Stadiums Operating under 
New Guidance (SONG) Act referenced in your letter would direct the FAA 
to protect sporting events from unauthorized drone overflights. I would 
welcome the opportunity to learn more about the Act.
    Skydio is committed to promoting safe and effective operations. We 
appreciate your interest in this topic and look forward to working with 
you and your office.

    Question from Hon. Rick Larsen to Pierre F. Harter, Director of 
Research and Development, National Institute for Aviation Research, and 
 Associate Vice President for Industry and Defense Programs, Research 
                  Operations, Wichita State University

    Question 1. Your written testimony highlights NIAR's long-standing 
collaboration with Federal agencies, academia, and the aerospace 
industry to improve the certification of new composites and additive 
manufacturing.
    What investment in composite technologies do you think is necessary 
to grow the United States' leadership in this field?
    Answer. In my initial testimony, I touched briefly on some areas 
that I will elaborate on in this response.
Public-private partnerships
    We must continue to embrace strong public-private partnerships to 
help establish the strategic framework and shape the regulatory 
environment.
    We have seen great strides in enabling innovation over the last few 
decades in aerospace when government agencies have embraced 
collaboration with industry and academia. Indeed, the FAA has been 
strongly encouraged to utilize industry-based performance-based 
standards whenever possible \1\ \2\.
---------------------------------------------------------------------------
    \1\ OMB Circular A-119 Federal Participation in the Development and 
Use of Voluntary Consensus Standards and in Conformity Assessment 
Activities
    \2\ FAA Reauthorization Act of 2018, SEC. 329. PERFORMANCE-BASED 
STANDARDS
---------------------------------------------------------------------------
    Regardless of the origin of the standards, associated guidance and 
policy material, funding must be provided to enable the creation of 
material. That can range from convening forums of experts in an effort 
to collect and create standards based on consensus and experience, to 
executing on basic science or fundamental research to close knowledge 
gaps necessary to create new standards.
Research and Development
    We must continue to invest in research and development that enables 
new designs/products, materials and manufacturing technologies. There 
is strong historical precedence and evidence that strong United States 
government investment in fundamental research and development creates 
tailwinds for economic prosperity (including closing the inequality 
gab), technological dominance, and national security. Some areas of 
composite technology historically have benefited in part from this 
investment, as referenced my testimony.
    To grow our leadership in this field, there should be continued 
funding to current composite topics of research funded via the FAA, 
NASA, DoD, DoE and other federal agencies. Some particular areas of 
focus are:
    <bullet>  Composite material formulation and characterization for 
thermosets, thermoplastics as well as higher temperature capable 
composites like CMCs and Carbon-Carbon (reference Figure 1 in my 
original testimony)
      +  This includes traditional fiber-reinforced composites (e.g. 
carbon and glass fiber-reinforced) as well as the other materials that 
are used in composite structures (e.g. honeycomb and other core 
products, film and paste adhesives, hybrid materials, sealants, 
fasteners, etc.)
    <bullet>  Composite process development. New materials and new ways 
to process existing materials need to continue to be developed to 
decrease costs, increase production rates and increase quality and 
safety. Process development is especially important in composites, as 
the processing of composites items can greatly affect the final 
physical, mechanical and other important properties of the end-use 
item. Some examples of this are:
      +  In-situ curing of composites (to reduce the need on capital 
intensive ovens and autoclaves)
      +  Bonding and welding of composite primary structure (to reduce/
eliminate fasteners and decrease weight/cost)
    <bullet>  Fabrication and production-related technologies that 
focus on reducing manufacturing costs of raw materials as well as 
finished products. Special focus in this area will help enable US-based 
manufacturers to compete (via technology) in this market that has often 
been out-sourced to low-cost countries. This is especially important to 
creating a resilient U.S.-based composite supply chain to avoid 
production disruptions, and to ensure the ability to design and 
manufacture composites from a national security perspective. There is a 
broad array of technologies in these areas that are often combined to 
increase benefits, which adds to development complexity and the need to 
fund research. Many of these technologies have been matured in other 
industries, but still need to be developed for composite applications. 
Some examples are:
      +  Automation and robotics
      +  Industrial Internet of Things
      +  Artificial Intelligence (AI), Machine Learning (ML) and Deep 
Learning
      +  New tooling technologies aimed at faster development time, 
reduce cost, increased tool life, including adaptive and reconfigurable 
tooling
      +  Non-destructive inspection, in-process and post-process
      +  Process control technologies that eliminate or reduce the need 
to inspect every part
    <bullet>  Analytical tools and techniques that enable virtual 
design, analysis, certification, and life-cycle management through 
physics-based modeling and other techniques. With better simulation 
tools and computational infrastructure, we will be able to drastically 
reduce the time to market as well as the non-recurring costs associated 
with extensive testing for certification. These tools and techniques, 
coupled with large data sources and AI and ML, will also aide in 
reducing maintenance costs and increasing fleet safety
    <bullet>  Embedded structural health monitoring and other multi-
functional hybrid composite technologies

    I appreciate the opportunity to answer this question and would be 
happy to answer any questions you may have in the future.

   Question from Hon. Rick Larsen to Blake Scholl, Founder and Chief 
                   Executive Officer, Boom Supersonic

    Question 1. In your written testimony, you recommend expanding the 
Federal Aviation Administration's Continuous Lower Energy, Emissions 
and Noise (CLEEN) program to include technologies applicable to new 
entrants. Can you please elaborate on this proposal?
    Answer. The commercial supersonic aircraft industry is nascent, and 
supersonic technology requires research and development investment. 
Including an emphasis on new entrants as part of CLEEN would give the 
U.S. an opportunity to maintain leadership in these areas.
    Subsonic jet aircraft technology has matured over the past eighty 
years. This progress has occurred in part thanks to substantial NASA 
investment and the $225 million in CLEEN funding committed over the 
last ten years. These investments have helped improve performance and 
reduce noise and emissions. Boom recognizes and appreciates the new 
inclusion of supersonic technologies to the CLEEN III program, but we 
recognize that supersonic technology is eligible for only one of the 
program's four goal areas. The program explicitly includes the 
considerations of LTO noise and NOx emissions but does not include 
technologies that could enhance fuel efficiency and reduce other 
emissions. Certain potential technologies, like variable noise 
reduction technology, directly benefit the performance of supersonic 
aircraft but may also ultimately benefit subsonic aircraft. The CLEEN 
III program also omits other emerging technologies, including advanced 
air mobility and battery technologies.
    An expansion of CLEEN with funding exclusively dedicated to 
supersonic aircraft and other emerging technologies would help the U.S. 
maintain leadership in these new industries while also reducing the 
environmental effects of new technologies. This could come in the form 
of a mid-cycle expansion in CLEEN funding through direct Congressional 
appropriations; inclusion in the 2023 FAA reauthorization; or a number 
of other forms. Should an expansion not be realized by 2025, dedicated 
funds for supersonic technology in the CLEEN IV program would be 
beneficial for enhancing the environmental performance of supersonic 
aircraft.

  Question from Hon. Greg Stanton to Blake Scholl, Founder and Chief 
                   Executive Officer, Boom Supersonic

    Question 1. Mr. Scholl, I understand that one challenge in the 
development of supersonic aircraft is the lack of clear international 
standards for environmental performance. The Federal Aviation 
Administration (FAA) plays an important role here on the International 
Civil Aviation Organization's Committee on Aviation Environmental 
Protection, which is charged with developing those standards. 
Ultimately the success of supersonic aircraft will depend on harmonized 
international rules that allow them to operate across national 
boundaries.
    Why are the development of international environmental standards 
important to Boom and how would you assess FAA's engagement on these 
standards at the International Civil Aviation Organization?
    Answer. Global supersonic standards, including a noise landing and 
takeoff standard, will facilitate the reintroduction of commercial 
supersonic air travel. For Boom, global standards would create a path 
for Overture certification and worldwide operations. Boom is committed 
to sustainability, including optimizing for reduced emissions and 
noise. The nuances of supersonic aircraft require alternative 
certification procedures (including increased takeoff speeds and 
variable noise reduction systems) to achieve reduced noise levels 
without significant emissions increases, and these procedures will need 
to be defined in global certification standards. The FAA has shown 
strong engagement and global leadership to date. FAA representatives 
lead noise, emissions, and modelling working groups within the 
International Civil Aviation Organization's Committee on Aviation 
Environmental Protection (ICAO/CAEP), and significant investment in 
research and modelling efforts to support data driven standards. Boom 
would like this strong engagement to continue. To meet Overture's 
planned entry into service in 2029, global standards are needed during 
the next CAEP cycle, which begins in 2022 and ends in 2025. An 
agreement to develop supersonic standards by 2025 must be reached at 
the next meeting of CAEP in February 2022, and FAA leadership is 
essential to achieve this goal.

                                  [all]

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
